Report No. SPO-2011-001                   November 17, 2010




                 Special Plans & Operations




     Assessment of U.S. Government Efforts to Develop
      the Logistics Sustainment Capability of the Iraq
                      Security Forces
      Inspector General                                                                                             Special Plans & Operations
                 United States Department of Defense                                                                 Our mission is to to provide assessment oversight that facilitates
                                                                                                                     informed, timely decision-making by senior leaders of the DoD and
                                                                                                                     the U.S. Congress, addressing priority national security objectives.
      Vision
         One professional team strengthening the integrity, efficiency, 

                   and effectiveness of the Department of Defense 
                                                  General Information
                               programs and operations. 

                                                                                                                       Forward questions or comments concerning this assessment and report and other
       Mission                                                                                                         activities conducted by the Office of Special Plans & Operations to spo@dodig.mil


         Promote integrity, accountability, and improvement of Department 
                                                               Deputy Inspector General for Special Plans & Operations
                                                                                                                                                Department of Defense Inspector General
             of Defense personnel, programs and operations to support the 

                                                                                                                                                           400 Army Navy Drive
                  Department's mission and serve the public interest.

                                                                                                                                                        Arlington, VA 22202-4704




                                                                                                                                               Visit us at www.dodig.mil


                                                                                                                       DEPARTMENT OF DEFENSE



                                                                                                                       hot line
The Department of Defense Inspector General is an independent, objective agency within the U.S. Department
of Defense that was created by the Inspector General Act of 1978, as amended. DoD IG is dedicated to serving                                                 make a difference   Report                        www.dodig.mil/hotline
the warfighter and the taxpayer by conducting audits, investigations, inspections, and assessments that result in                                                800.424.9098
improvements to the Department. DoD IG provides guidance and recommendations to the Department of                                                                                Fraud, Waste, Mismanagement, Abuse of Authority
                                                                                                                                                                                 Suspected Threats to Homeland Security
Defense and the Congress.                                                                                              Defense Hotline,The Pentagon, Washington, DC 20301-1900   Unauthorized Disclosures of Classified Information
                                     INSPECTOR GENERAL
                                     DEPARTMENT OF DEFENSE
                                       400 ARMY NAVY DRIVE
                                 ARLINGTON, VIRGINIA 22202-4704


                                                                                  November 17,20 10

MEMORANDUM FOR: SECRETAR Y OF DEFENSE
                DEPUTY SECRETA RY OF DEFENS E
                CHAIRMAN, JOINT CH IEFS OF STAFF
                  UNDER SECRETARY OF DEFENSE FOR ACQU ISITION,
                  TECHNOLOGY, AND LOG ISTICS
                COM MANDER, U.S. CENTRAL COMMAND
                COMMANDER, UNITED STATES FORCES-IRAQ
                DEPUTY COM MANDING GENERAL FOR ADV ISING AND
                  TRA INING, UN ITED STATES FORCES-IRAQ
                D IRECTOR, LOGISTICS (J-4), UN ITED STATES FORCES-IRAQ
                COMMANDER, ARMY MATERIEL COMMAND


SUBJECT: Assessment or U.S. Government Efforts to Develop the Logistics Sustainment
Capability of the Iraq Security Forces (Report No. SPO·20 11-001)

        We are providing Ihis lina! rcport for review and comment. This is the ninth in a series
of rcpOt1s publ ished by the Office of Inspector General's Specia l Plans and Operations
Directorate that foclis on the train and equip missions in Iraq, Afghani stan, and Pakistan. We
considered client comments on a draft of this report when preparing the li nal report.

   We request addit ional comments and infonnation by December 17,20 10 as follows:

   •   Commander, United States Forccs· lraq: We request add itional information as stated in
       Recommcndations I.a., I.h., I.e., 1.d., 3., 4.a., 4.b., 7., 10., and 14.

   •   Deputy Commanding Gcncra l, Advise & Train, Unitcd States Forces·lraq:
       Recommendations 2.a., 6.h., 8, 9.a., 9.h., Il. a., 12.a., 12. b., 13., 15.b., 16., 17.a., 17.b.,
       18.,20., 21., 22.a., and 22. b.

   •   J4, United States Forces·lraq: Recommendations 6.a., 15.a.{1 )., and 15.01.(2).

   •   Commander, U.S. Anny Material Command: We request your COllllllcnts to
       Recommcndations 6.c. and I I.b.

     If possible, please send your commcnts in electron ic format (Adobe Acrobat file only) to
s )0 II dodi '.m il . Copies of your comlllents must have the actual signature of the authorizing
official for your organization. We arc unable to accept the I Signed I symbol in place of the
place of the actual signature. If you arrange to send classified comments e lectronically,
they must be sen t over the SECRET Internet Protocol Router Network (S IP RNET).

    We appreciate the courtesies extended to our staff. Please direct questions to Mr.
Stnnley E. Meyer (703) 604-9130 (DSN 3 12-664-9 130) or Stnnley. Meyer@dodig.ll1il.



                                        cif8  Kennel P. Moorefield
                                                                      h~
                                              Dcput Ilspector Gencral
                                              Special Plans and Operations
               Executive Summary – Assessment of
               U.S. Government Efforts to Develop
               the Logistics Sustainment Capability
               of the Iraq Security Forces

Who Should Read This Report?
Personnel within the Office of the Secretary of Defense, the Joint Staff, the U.S. Central
Command (USCENTCOM) and its subordinate commands in Iraq, the Military
Departments, and Agencies responsible for and engaged in training, mentoring, equipping,
and other aspects of the logistics capability development of the Iraq Security Forces (ISF)
should read this report.

Synopsis
Developing an effective logistical capability that supports the enduring security operations
of the Iraqi Security Forces (ISF) by the time the U.S. forces withdraw at the end of 2011
is a key goal of the Commander, United States Forces-Iraq (USF-I). Considerable progress
has been made since SPO’s previous report that addressed this requirement, issued on
December 19, 2008. Nonetheless, there remains a significant gap between the Minimum
Essential Capabilities our command in Iraq has defined as constituting the crucial
foundation of a sustainable ISF logistical system and its current capability.

To close this capability shortfall in the relatively brief time remaining to USF-I will require
an intensified effort that would appear to be beyond our on-the-ground forces’ resource
capability. Additional subject matter expertise support from DOD and its supporting
logistics organizations probably will be required to accomplish the mission with respect to
building ISF logistical capacity. This requirement could be accentuated if DOD does not
receive the additional Iraq Security Forces Funds requested for FY 10 and FY 11, fiscal
resources identified in a previous SPO report as important to USF-I in order for it to
provide the required training, mentoring and equipping assistance.

Not accomplishing the mission could have significant consequences with respect to ISF
ability to provide for Iraq’s internal and external defense. It would also result in the
inability to sustain the substantial investment made by the international community,
primarily the United States, in infrastructure, equipment, and munitions necessary to
establish an indigenous and independent Iraqi security capability.

Specific Results
The report is divided into four parts: (1) Notable Improvements; (2) Iraq Security Forces;
(3) Ministry of Defense (MoD), and the MoD Joint Headquarters, and army; and (4)
Ministry of Interior (MoI) and the Iraqi police forces.

                                               i
Notable Improvements
We selected eight examples of notable progress in the development of ISF logistics
capability at the strategic and operational levels, including:

   •   Establishment of a USF-I ISF Strategic Logistics Directorate by the Commanding
       General (USF-I).
   •   Initial development of a plan to meet MEC for ISF logistics by December 2011.
       (MEC is defined as the logistics and industrial capability that can attain and sustain
       minimum materiel readiness levels for the ISF.)
   •   An increased understanding of the U.S. Foreign Military Sales process, and an
       increased willingness by senior MoD and MoI leaders to use it.
   •   Significant progress in the development of functional ministerial-level processes in
       the MoI over the past two years.
   •   The leadership and vision provided by a few key senior officers in the MoI and the
       MoD Joint Headquarters of the Iraqi military that continues to have a positive
       impact on improving logistics sustainment capacity of the Iraqi police forces and
       military services.
   •   Iraqi investment in human capital development for establishing an enduring
       logistics capability in the military services and police forces.
   •   Tentative acceptance and use by the Iraqi Army of the Iraqi Asset Management
       Program, a software package similar to the U.S. Army’s unit-level logistics system
       for managing and ordering replacement parts.
   •   Improvements in warehousing and supply accountability procedures at the MoI.

Although these and other focus areas require continued careful attention and support in the
future and much work remains to be done, the USF-I advisors and trainers, military and
police training teams and mentors, and the U.S. Advise and Assist Brigades merit
recognition for the significant progress made to date conducting an extremely complex and
difficult mission.

Challenges—Areas of Concern
Management Letter
The assessment team released a management letter to DOD that preceded the official
release of this report. Its focus was the role of the fiscal request made by DOD in its FY
10 Supplemental and FY 11 budget requests with respect to the Iraq Security Support Fund
(ISFF). Our assessment determined that the funds requested will have a critical role in
enabling our forces in Iraq to accomplish their mission of ensuring that the ISF are capable
of providing for their own long term logistical sustainment. (The management letter is
located in Appendix F of this report.)

Limited Time and Other Resources. With less than 16 months remaining until
the USF-I end–of-mission in Iraq, a concerted and expedited effort must be made to ensure
the development of a MEC for critical ISF combat-enabling forces and processes, to

                                             ii
include the development of an enduring ISF logistics system. That effort requires
sufficient funding of the ISFF and staffing of USF-I mentors/trainers and staff officers to
aggressively pursue the building of a logistics system foundation that will ensure the long-
term operational effectiveness of the Iraqi military and police forces.

Organizational Processes at the Ministerial Level and Within the ISF.
The planning, programming, budgeting, and execution processes at the MoD are generally
dysfunctional. The ministry cannot currently provide effective logistics and maintenance
support to the Iraqi military because it lacks the ability to plan, accurately generate
requirements, justify its budget, and execute its funding efficiently and effectively. (This
is less of an issue within MoI, although it also has systemic shortcomings.)

Throughout the military services and police organizations, weaknesses in the logistics
process included spare parts inventory management; use of the national logistics depot
workshops to conduct 4th line maintenance; supplying critical repair parts to the army field
commands; and the use of the Iraqi Army Regional Location Commands for consolidated
maintenance, in accordance with Iraqi doctrine.

Corrective action for issues involving dysfunctional ISF processes must start at the
Ministerial level. USF-I requires additional planning, programming, budgeting, and
execution expertise and assistance from DOD.

Developing an Enduring ISF Sustainment Capability
Developing a logistics sustainment capability within the ISF is critical to the success of the
U.S. Government mission in Iraq. The Government of Iraq (GoI) and USF-I have made
major progress in the development of ISF combat capability, but the ability of the ISF to
sustain logistics readiness remains at risk. The ISF has not yet achieved MEC in areas of
logistics sustainment and may not achieve that capability by December 2011, which is the
end-of-mission for U.S forces in Iraq.

Some initiatives under development that will help ensure the GoI remains focused on
building logistics sustainment within its security forces up through and beyond December
2011 are:
   •   Completion and approval of a written, comprehensive, and integrated USF-I plan
       for developing the logistics capability of the ISF that is coordinated with the GoI;
   •   Professional logistics training for senior Iraqi leaders at the Iraqi International
       Academy/Iraqi Strategic Center of Excellence; and
   •   A robust logistics cell within the Office of Security Cooperation, the security
       assistance organization within the U.S. Embassy Baghdad that will endure after
       December 2011.
Oversight Responsibility for Equipment and Materiel Transferred to the
ISF. USF-I has an oversight responsibility for U.S.-funded equipment and materiel
provided to the ISF, as defined in U.S. law and DOD policy. The ability to meet this
requirement becomes increasingly difficult as the drawdown of trainers/mentors continues.

                                              iii
Furthermore, the extent of the DOD oversight requirement and the capability to execute it
after end-of-mission in December 2011 is not clear. Because of the long lead times for
receiving certain equipment, shipping and distribution of U.S.-funded equipment to the ISF
can be expected well into 2012 and beyond. A formal policy should be implemented to
ensure the presence of U.S. personnel to provide oversight of U.S.-supplied equipment
through December 2011 and beyond, in order to meet the requirements set forth in U.S.
law and DOD policy.
Acquisition Cross-Servicing Agreement. The DOD did not have an
Acquisition Cross-Servicing Agreement (ACSA) in place with the MoD to facilitate any
logistics assistance required by the GoI after end-of-mission. With an ACSA, DOD can
authorize its Components to acquire, and in some cases to provide logistics support, to
include supplies and services directly from or to eligible countries and international
organizations. USCENTCOM is coordinating with USF-I to develop an ACSA that will
be proposed to the next GOI, if appropriate.

Recommendations Table
Client                          Recommendations                     No Additional Comments
                                Requiring Additional                Required
                                Comment/Information
Under Secretary of Defense
for Acquisition, Technology                                         5.a.
and Logistics,
Commander, United States        1.a., 1.b., 1.c., 1.d., 3., 4.a.,
Forces-Iraq                     4.b., 7., 10., and 14.
                                2.a., 6.b., 8, 9.a., 9.b., 11.a.,
Deputy Commanding
                                12.a., 12.b., 13., 15.b., 16.,      2.b, 5.b.(1), 5.b.(2), 9.c.,
General, Advise & Train,
                                17.a., 17.b., 18., 20., 21.,        and 19.
United States Forces-Iraq
                                22.a., and 22.b.
J4, United States Forces-Iraq   6.a., 15.a.(1), and 15.a.(2).       15.a.(3).
Commander, U.S. Army
                                6.c. and 11.b.
Material Command

Please provide comments by December 17, 2010.




                                              iv
Table of Contents
EXECUTIVE SUMMARY ............................................................................................................I
   Recommendations Table .............................................................................................................................. iv
INTRODUCTION ......................................................................................................................... 1
   Background ................................................................................................................................................... 1
   Public Laws ................................................................................................................................................... 1
   Objectives...................................................................................................................................................... 1
PART I – NOTABLE IMPROVEMENTS .................................................................................. 3
PART II – IRAQ SECURITY FORCES ..................................................................................... 7
   Observation 1. Time and Personnel Resource Constraints Will Limit Advise and Train Efforts to Develop
   ISF Logistics Capability ................................................................................................................................ 9
   Observation 2. Building An Enduring Logistics Capability within the ISF Requires Planning and Training
   Beyond December 2011 .............................................................................................................................. 13
   Observation 3. Comprehensive Plan for Developing the Logistics Capability of the ISF ......................... 17
   Observation 4. United States Forces-Iraq Metrics and the ISF Readiness Reporting System.................... 19
   Observation 5. Ministry of Defense Planning, Programming, Budgeting, and Execution Processes......... 23
   Observation 6. High Mobility Multi-Purpose Wheeled Vehicle Operational Readiness Rates ................. 29
   Observation 7. Standard Tour Lengths for U.S. Personnel and Teams Assigned to United States Forces-
   Iraq (Advise and Train) That Mentor and Train the ISF. ............................................................................ 33
   Observation 8. Authorized Positions for the USF-I Iraq Security Forces Strategic Logistics Directorate . 35
   Observation 9. Oversight Responsibility for Equipment and Materiel Transferred to ISF ........................ 37
   Observation 10. Training for U.S. Logistics Mentors and Trainers on ISF Logistics Systems .................. 41
PART III – MINISTRY OF DEFENSE AND THE IRAQI MILITARY............................... 45
   Observation 11. Warehouse Management at the Joint Repair Parts Command at Taji .............................. 47
   Observation 12. Availability of Critical Repair Parts ................................................................................ 51
   Observation 13. Ministry of Defense Fuel Supply System Disincentive ................................................... 55
   Observation 14. Acquisition Cross Servicing Agreement .......................................................................... 57
   Observation 15. The Joint Base Workshop at Taji National Depot ........................................................... 59
   Observation 16. The Iraqi Asset Management Program and On-Hand Inventory of Repair Parts at the
   Medium Workshops .................................................................................................................................... 63
   Observation 17. Location Commands—Al Asad and Numaniyah ............................................................. 67
   Observation 18. Logistics Support of Iraqi Army Divisions ...................................................................... 71
PART IV – MINISTRY OF INTERIOR AND IRAQI POLICE ORGANIZATIONS ......... 75
   Observation 19.           Repair Parts for the Ministry of Interior and Iraqi Police Vehicle Fleet .......................... 77
   Observation 20.           The Federal Police Sustainment Brigade ......................................................................... 81
   Observation 21.           Munitions Safety Issue at the Federal Police Headquarters Storage Facility ................... 87
   Observation 22.           The Federal Police Medical Battalion—Medical Supplies .............................................. 89
APPENDIX A. SCOPE, METHODOLOGY, AND ACRONYMS ........................................ 93
APPENDIX B. SUMMARY OF PRIOR COVERAGE .......................................................... 95
APPENDIX C. GLOSSARY ...................................................................................................... 99
APPENDIX D. ORGANIZATIONS CONTACTED AND VISITED .................................. 103
APPENDIX E. IRAQ/U.S. POLICY, UNITED STATES CODE, UNITED STATES
FORCES-IRAQ/ADVISE AND TRAIN POLICIES.............................................................. 107
APPENDIX F. MEMORANDUM FOR UNDER SECRETARY OF DEFENSE (POLICY) .
..................................................................................................................................................... 115
APPENDIX G. CLIENT COMMENTS .................................................................................. 119
APPENDIX H. REPORT DISTRIBUTION ........................................................................... 127
Introduction
Background
This is the ninth in a series of reports published by the Office of Inspector General’s
Special Plans and Operation Directorate that focus on the train and equip missions in Iraq,
Afghanistan, and Pakistan. General areas discussed in these reports include:

   •   Accountability of weapons transferred to the Iraq and Afghan Security Forces,
   •   Accountability of night vision devices transferred to the Iraq Security Forces,
   •   Effectiveness/responsiveness of the Foreign Military Sales system in support of the
       Iraq and Afghan Security Forces,
   •   Logistics development of the Iraq and Afghan Security Forces,
   •   Effectiveness of U.S. and Coalition efforts to develop the Iraq and Afghan Security
       Forces, and
   •   Review of the Coalition Support Fund Program and other DoD security
       assistance/cooperation programs with Pakistan.

Previous reports on these subjects may be viewed at
http://www.dodig.mil/spo/reports.html .

Public Laws
Congress appropriated $18.2 billion to the Iraq Security Forces Fund and $25.5 billion to
the Afghanistan Security Forces Fund in Public Laws 109-13, 109-234, 109-289, 110-28,
110-161, 110-252, 111-32, and 111-118. These Public Laws define the “train and equip”
mission performed in Iraq and Afghanistan. The laws specify that the funds be used in
support of the security forces of Iraq and Afghanistan.

Objectives
On February 19, 2010, the DODIG announced the “Assessment of U.S. Government
Efforts to Develop the Logistics Sustainment Capability of the Iraq Security Forces,”
(Project No. D2009-D00SPO-0286.000). The objectives of this assessment were to
determine whether:

   •   The planning and operational implementation of efforts by U.S. forces to train,
       advise, and assist in the development of an enduring logistics sustainability
       capability for the Iraq Security Forces (ISF) were effective.

   •   Plans, training, preparations, and designated missions of United States Forces–Iraq
       (USF-I) Advising and Training (A&T), the U.S. advisory and assistance brigades,
       and sustainment brigades to train, advise, and assist in the development of an
       enduring logistics sustainment capability for the ISF were synchronized with in-
       country plans and operational assumptions and needs.



                                             1
Part I – Notable Improvements
Introduction
We found that USF-I A&T (formerly Multi-National Security Training Command-Iraq)
had made significant progress in developing the logistics sustainment capacity of the ISF
when compared to the logistics sustainment development of the ISF as assessed during
DODIG Special Plans and Operations visits in September/October 2007 and April 2008.

Strategic Initiatives
Strategic Logistics Assessment
Responding to a recommendation from the Defense Logistics Agency’s (DLA) “Strategic
Logistics Assessment Team – Iraq Report”, dated September 2009, to put a qualified
member of the DOD Senior Executive Service (SES) in charge of developing ISF strategic
logistics capability, the Commanding General, USF-I, brought an SES on board from the
Office of the Under Secretary of Defense for Acquisition, Technology, and Logistics (USD
[AT&L]) in mid-January 2010 to lead an assessment of the ISF logistics capability and to
develop a plan to meet minimum essential capabilities (MECs) for logistics by December
2011. The plan identifies three high value sustainment initiatives (HVSIs) to be used as
hands-on case studies to mentor appropriate Iraqi personnel in the Ministry of Defense
(MoD) and Ministry of Interior (MoI) in developing requirements, budgeting, contracting,
and executing a Ministerial-level logistics sustainment program for a modern army and
police force. 1 The HVSIs are:

              High Mobility Multi-purpose Wheeled Vehicles (HMMWVs)
               maintenance/repair
               parts requirements (Army),
              Contract logistics support transition strategy (Air Force), and
              Ship maintenance requirements (Navy).

The execution of these HVSIs as a training/mentoring strategy is enabled by ongoing
projects designed to expand the effect of logistics/maintenance success with the HVSIs,
which include:

              Information technology infrastructure, training, and development,
              Professional logistics training,
              Planning, programming, budgeting, and execution training, and
               development,
              National warehouse build-out and stocking, and
              Developing ministerial capacity to govern.


1
   HVSIs focus synchronized energy and resources intended to influence multiple levels and elements of the
logistics and fiscal processes in order to achieve key strategic outcomes and broad, enduring effects. Source:
ISF Logistics Path Forward: Creating Enduring Capability IPR Brief, 10 MAY 2010.



                                                      3
Key Leader Engagements
Key Leader Engagements are also to be conducted between senior U.S. mentors/advisors
and appropriate ministerial personnel involved in the logistics sustainment process,
including the Ministers, by their U.S. counterparts from USF-I and A&T. If properly
resourced and executed, this plan represents a visionary approach to a difficult issue,
offering a best-case solution for developing a minimum essential strategic-level ISF
logistics capability by December 2011.

Foreign Military Sales
Personnel in MoD and MoI have shown an increased understanding of the U.S. Foreign
Military Sales (FMS) process, as well as an increased willingness to use it. There are
currently 195 active FMS cases, all using Iraqi money, representing a significant increase
over active cases two years ago. This progress results from the continuous mentoring and
advising effort of MNSTC-I and A&T personnel in the Security Assistance Office/Iraq
Security Assistance Mission over several years, as well as increased responsiveness of the
FMS system. Case processing time has gone from the standard 120 days to approximately
45 days for Iraq. Additionally, repair parts are often delivered within 60 days of Letter of
Authorization signature. This success was largely due to the Defense Security Cooperation
Agency (DSCA) setting up a Case Writing Division, where all the necessary players in
CONUS are in one place. (The exception is that long lead time procurement items, such as
the C-130J airplane, are excluded from this statistic.) Additionally, personnel in the Iraqi
Logistics Operations Center have received the appropriate training from Defense Institute
of Security Assistance Management on the FMS process, enabling them access to the
DSCA Security Cooperation Information Portal, which is used to track the status of FMS
cases.

Progress within Ministry of Interior
The MoI has made significant progress in the last two years in the development of
functional ministerial-level processes. Although MoI processes and procedures may still
need some work from the U.S. perspective, they are sufficient from the Iraqi perspective,
allowing the Minister and his Directors to function and adequately discharge their duties.
With mentoring from A&T personnel, MoI has steadily increased its budget execution rate
over time, increasing from 84.5 percent in CY 2007 to 90.6 percent in CY 2009. It has
repeatedly demonstrated its ability to provide ministerial-level logistics support through
effective contracting. In the areas of policy and planning, the MoI has developed and
published:

      A Strategic Plan,
      A National Maintenance Plan,
      An Annual Operating Plan, and
      A three-year Budget Plan.

The leadership and vision provided by a few key senior officers in MoI and the MoD Joint
Headquarters of the Iraqi Army (IA) continues to have a telling effect on the logistics and
sustainment capacity of the Iraqi police forces and Army, such as:



                                             4
    The accountability of weapons and ammunition in both the Army and police has
     significantly improved in the past three years.
    The progress noted above within MoI in the areas of logistics sustainment and
     warehouse management is largely due to the current minister and his Assistant
     Deputy Minister for Infrastructure.
    Senior Iraqi officials involved in the logistics sustainment process acknowledge
     that MoD and JHQ processes for requirements generation and the ability to execute
     via effective contracting are falling short of the mark. They acknowledge the
     difficulty of fixing them and understand that these failures are preventing
     development of an effective national-level logistics sustainment capability for the
     Iraqi military.
Investment in Human Capital
With the assistance of USF-I A&T, the Iraqi Air Force, Navy, and Army have made an
investment in human capital that will help to establish an enduring logistics capability in
those Services.

    45 courses are being taught by qualified Iraqi instructors at the Iraqi Air Force
     Technical School that are focused on basic aircraft maintenance and other technical
     issues.
    All Air Force contractor logistics support contracts ensure that contractors will
     teach/train Iraqis on the equipment and techniques used. The goal is for the Iraqis
     to learn how to do the job themselves and reduce the reliance on contractor
     logistics support.
    The Iraqi Navy will receive 15 new U.S.-built patrol boats and will send the crews
     for training in the U.S. The courses will be held in the same location where the
     ships are being built and will include classroom and simulator instruction, and
     eventually training at sea.
    The Electrical and Mechanical Engineering School at Taji National Depot (Taji)
     trains personnel in maintenance-related specialties. Taught by qualified Iraqi
     instructors, the school has trained 1,970 students since June 2008. Refurbished
     eight months ago, the school has adequate training equipment and training aides. It
     currently has 795 students enrolled, including 641 “rejoiners” from the “old Iraqi
     Army” that have a high school education and a background in Electrical and
     Mechanical Engineering.
    The Administrative Affairs School at Taji began training personnel in December
     2009. It currently has 54 courses scheduled for 2010 in the areas of Supply and
     Warehouse Management, Ammunition Inspection, Field Kitchens, Dining Facility
     Management, Cooks, and Barbers. The school currently has about 650 students
     enrolled, including 120 officers and 240 non-commissioned officers. It also has
     over 100 officer and non-commissioned officer rejoiners.




                                              5
Operational Initiatives
Iraqi Asset Management Program
The IA has tentatively begun to use the Iraqi Asset Management Program (IAMP). This
software package, similar to the U.S. Army’s unit-level logistics system for managing and
ordering replacement parts, was used by a contractor, ANHAM, when it managed the
Medium Workshops for the IA. IAMP essentially provides an internet-based link between
Taji (4th Line Maintenance) and the Medium Workshops (3rd Line Maintenance). The
Field Workshops (2nd Line Maintenance) provide data to the Medium Workshops via
compact disk. When the ANHAM contract finished and the Iraqis decided to manage the
Medium Workshops themselves, ANHAM left the IAMP program behind. Like all
software systems, it is only as accurate as the information entered into it. The contract for
the IAMP expires in January 2011 and it is uncertain if the Iraqis will renew it, although it
is the only automation that the Iraqis currently have in their maintenance management
system.

Ministry of Interior Warehousing
MoI warehousing and materiel accountability procedures continue to improve. The
logistics operation at the Baghdad Police College has moved markedly forward. Plans
have also been finalized for the transfer of the Abu Ghraib warehouse complex from U.S.
control to MoI control. An inventory is underway and the transfer was scheduled to take
place by August 2010. The plan called for the transfer of most materiel stored at Baghdad
Police College to Abu Ghraib, with Baghdad Police College retaining a capability as a
Central Issue Facility for police personnel going through training there.

Numaniyah
The Medium Workshop at Numaniyah initiated a direct exchange program for HMMWV
starters and brakes. It was popular with supported units, because they immediately
received a serviceable part for the turn-in of an unserviceable part, which was a-typical
within the IA maintenance system.




                                              6
Part II – Iraq Security Forces
Introduction
This section contains a series of observations and recommendations for improvement that
apply, to a greater or lesser extent, to the entire ISF, including the MoD and Iraqi military
and the MoI and Iraqi police. For purposes of this assessment, the ISF consists of the
MoD, the military JHQ, the Army, the Navy, the Air Force, the MoI, the Federal Police,
the Directorate of Border Enforcement, the Port of Entry Police, and the Iraq Police
Service.




                                              7
Observation 1. Time and Personnel Resource
Constraints Will Limit Advise and Train Efforts to Develop
ISF Logistics Capability
The USF-I Deputy Commanding General for Advising and Training (DCG A&T) has
shifted primary “train and equip” mission focus from ISF force generation to developing
force sustainment capacity, including logistics capability. However, USF-I has limited
time in which to improve the ISF logistics system through training, mentoring, and
equipping between now and December 31, 2011, the USF-I end-of-mission in Iraq.

The number of assigned A&T personnel has already diminished in line with the USF-I
objective of reducing its force size to 50,000 by the end of August 2010. Additionally, the
six remaining Advise and Assist Brigades, which also have a key role in ISF logistics
capability building as partners to the IA, will progressively withdraw in order to meet the
mandate for total withdrawal of U.S. military forces by December 31, 2011.

The constraints of time and personnel could result in the inability of U.S. forces to
accomplish the goal of developing an enduring MEC for ISF logistics functions prior to
end-of-mission.

Applicable Criteria
Chairman of the Joint Chiefs of Staff Manual 3122.01A, “Joint
Operation Planning and Execution System (JOPES) Volume I,
(Planning Policies and Procedures),” September 29, 2006. This document
sets forth planning policies, processes, and procedures to govern the joint operation
planning and execution activities and performance of the Armed Forces of the United
States. It provides military guidance for the exercise of authority by combatant
commanders and other joint force commanders in developing selected tactics, techniques,
and procedures for joint operations and training. It provides guidance on preparing
appropriate plans. Enclosure R describes the responsibilities and procedures for
completing a Request for Forces or Request for Capabilities message.

DOD Instruction 3000.05, “Stability Operations,” September 16, 2009.
This Instruction provides guidance on stability operations and will evolve over time as
joint operating concepts, missions, and lessons learned aid in the development of DOD
policy and assignment of responsibility for the identification and development of DOD
capabilities to support stability operations.

ISF Logistics Sustainment Mentors/Trainers
The initial emphasis on building basic army and police forces did not include parallel
development of ISF logistics sustainment capacity, which currently lags military and
police operational support requirements. U.S. forces have limited time left in which to
complete the development of the minimum logistics capability A&T has defined as
essential to ensure viability of the ISF over the long-term. However, the number of
personnel assigned to the A&T command has being reduced as part of the overall


                                             9
responsible drawdown to 50,000 U.S. forces, achieved at the end of August 2010. There
are indications that the USF-I reduction of personnel could reduce A&T’s timely ability to
develop key ISF logistics functions. A&T needs sufficient military trainers/advisors to
develop an enduring Iraqi logistics sustainment capability.

The assessment team received repeated reports that A&T’s ongoing drawdown was having
or would have a negative effect on development of force sustainment in terms of
developing ISF logistics capability.

   •   The current U.S. Logistics Military Advisory Team (LMAT) supporting the
       nascent Federal Police Sustainment Brigade will depart during the summer of 2010,
       with no apparent plans to replace it. The Federal Police Sustainment Brigade
       Commander, the Federal Police Deputy Commander, the Commander of the Iraq
       Training Assistance Mission-Police (ITAM-Police), and the LMAT members
       expressed concern over the negative impact of this loss of mentoring/ training
       capability at such a critical period of Federal Police logistics development.
   •   DLA personnel supporting the mentoring and training at Taji are scheduled to
       depart between August and September 2010, with no apparent backfill, despite the
       backlog of approximately 500 storage connexes of un-inventoried repair parts, with
       more arriving daily. Many of those repair parts were purchased with U.S. Iraq
       Security Forces Fund money, requiring U.S. Government oversight to ensure the
       funding is accounted for and the purpose of the expenditure is accomplished.
       Additionally, major warehouse construction at Taji is nearing completion, offering
       an opportunity to further mentor the Iraqis on effective management of
       warehousing at the national depot-level.
   •   Institutional business processes at the MoD, and less so at MoI, were insufficient to
       provide sustainable logistics support to the Iraqi Army and police. Those
       shortcomings existed specifically in the areas of requirements generation for
       logistics support, budgeting for that support, and execution through contracting.
       Although A&T was developing a strategic-level plan to address those issues at the
       ministerial level, it could lack the requisite on-the-ground expertise necessary to
       train or mentor the appropriate personnel in the Iraqi ministries. Because the length
       of time available to A&T mentors cannot be increased, having the appropriate
       personnel on the ground is critical to mission accomplishment. The Iraqi
       Commanders of the Electrical and Mechanical Engineering School and the
       Administrative Affairs Schools at Taji both expressed concern about the pending
       loss of U.S. trainers. Both of those schools are key enablers for building an
       enduring logistics sustainment capability within ISF.

The following chart gives an example of the magnitude of the A&T drawdown of U.S.
mentors/trainers supporting the Iraqi Army at the training centers and logistics depots.




                                             10
                                    SEP 2009            APR 2010             AUG 2010
Institutional School Advisors          33                 33                   31
Iraq Training Assistance               77                 70                   64
Mission-Army HQ
Training Centers/LMAT                   179                 179                  68
Contractors                             198                  97                  66
Linguists                               172                 123                  71
                         Total          659                 502                 300
     Table 1: Iraq Training Assistance Mission-Army Drawdown      Source: USF-I A&T

From September 2009 to August 2010, the Iraq Training Assistance Mission-Army
(ITAM-Army) will have lost 359 positions (54 percent). Most notable, the training centers
and LMATs will have lost 111 personnel, an approximate 62 percent reduction in an area
important to development of the Army’s essential logistics capability.

The overall personnel strength in the Iraqi police training program was 643 in February
2010 and is projected to be at 356 by June 2011, with an end of DOD mission transfer to
the Department of State’s Bureau of International Narcotics and Law Enforcement Affairs,
which projects its strength to be 350. However, the ITAM-Police portion of the Iraqi
police training program will transition from about 43 in February 2010 to 10 by first
quarter FY11. This is particularly disconcerting as ITAM-Police has responsibility for
mentoring/training at the ministerial level, where many of the issues with logistics business
processes and policy reside. Furthermore, the recommended Iraqi Police advisor team
structures for the Civilian Police training team and the Directorate of Border Enforcement
team, as presented in the ITAM-Police Personnel Drawdown Brief dated February 12,
2010, do not include logistics subject matter experts.

In the overall transition from MNSTC-I to the current A&T organization, U.S. assigned
strength has dropped significantly. Although presumably in proportion to the drawdown of
U.S. combat forces, it could have a detrimental impact on A&T training and mentoring
capacity. A&T needs to maintain sufficient U.S. trainer/mentor strength through 2011,
particularly in those areas associated with developing key enablers, such as logistics, if it
hopes to succeed in its mission of building the minimum essential capabilities of an
enduring logistics system.




                                              11
Recommendations, Client Comments, and Our Response
1. Through United States Forces-Iraq’s end of mission in December 2011, Commander,
United States Forces-Iraq:
   a. Direct the execution of an aggressive plan to ensure that the Iraq Security Forces
achieve minimum essential capability in logistics by December 2011.
   b. In coordination with the Deputy Commanding General for Advising and Training,
continue to source trainers/mentors at current levels at the Ministry of Interior, Ministry of
Defense, Ministry of Defense Joint Headquarters, Taji National Depot, logistics schools,
Federal Police Headquarters and Sustainment Brigade, General Districts of Police, and
Border Police Regional Maintenance facilities.
    c. In coordination with the Deputy Commanding General for Advising and Training,
modify the structure of the training/advising teams for the Civilian Police, the Directorate
of Border Enforcement, and the Iraqi Police to include logistics and administrative subject
matter experts.
   d. Request that specialized personnel resources, or “tiger teams,” be mobilized from
CONUS forces in order to reinforce planning, programming, budgeting, and execution
processes that support logistics system development at both the Ministry of Defense and
Ministry of Interior.

Client Comments
USF-I concurred with these recommendations.

Our Response
USF-I comments were responsive. We request that Commander, USF-I, forward to the
OIG a copy of the plan developed to ensure the ISF’s achievement of minimum essential
capability in logistics. Additionally, please identify any steps that have been or will be
taken to source mentors/trainers at current levels, modify the structure of MoI
training/advising teams and to address the mobilization of “tiger teams” to reinforce PPBE
processes at the MoD and MoI.




                                              12
Observation 2. Building An Enduring Logistics
Capability within the ISF Requires Planning and Training
Beyond December 2011
The ISF likely will not attain full logistics sustainment capability by December 2011,
particularly in planning, programming, budgeting, and execution processes and systems,
and will require continued training efforts beyond the USF-I end of mission.

That shortfall in ISF logistics capability development occurred because the more pressing
need to generate ISF combat forces over the past several years precluded the generation
and development of enabling forces and capabilities, including that of a logistics
sustainment capability. Additionally, the looming deadline of December 2011 allows little
time to develop a viable logistics and industrial capability that can attain and sustain
minimum materiel readiness levels for the ISF.

Failure to develop an ISF logistics capability that will endure beyond the USF-I end of
mission in December 2011 could result in a downward spiral of operational readiness that
would put Iraq’s security and stability at risk.

Applicable Criteria
Army Field Manual 3-07, “Stability Operations,” October 2008. This
manual is the Army’s keystone doctrinal publication for stability operations. It presents
the overarching doctrinal guidance and direction for conducting stability operations, setting
the foundation for developing other fundamentals and tactics, techniques, and procedures
detailed in subordinate field manuals.

Army Field Manual 3-07.1, “Security Force Assistance,” May 2009. This
manual is the Army’s doctrinal publication for security force assistance. It provides
doctrinal guidance and direction for how U.S. forces contribute to security force assistance,
focusing on brigade combat teams conducting security force assistance and advising
foreign security forces.

Developing a Sustainment Capability in the Iraq Security Forces
Developing a logistics sustainment capability within the ISF is critical to the success of the
U.S. government’s mission in Iraq. The Government of Iraq (GoI) and USF-I have made
major progress in development of ISF combat capability, but the ability of the ISF to
sustain logistics readiness remains at risk. The ISF has not yet achieved a minimum
essential capability in areas of logistics sustainment and may not achieve that capability by
December 2011, which is the end of mission for USF-I.

Two initiatives that will help ensure that the GoI remains focused on building logistics
sustainment within its security forces up through and beyond December 2011 are:
   •   Including professional logistics training at the Iraqi International Academy/Iraqi
       Strategic Center of Excellence.



                                             13
   •   Establishing a robust logistics cell within the Office of Security Cooperation; this
       office will be the security assistance organization in the U.S. Embassy Baghdad
       that will endure after December 2011.

Professional Logistics Training
One of the major challenges to building a logistics sustainment capability within the ISF is
developing an understanding that sustainment is important to the long-term operational
capability of combat organizations and equipment. To date, there has been very little
professional logistics education available in Iraq, and only recently had logistics training
for officers and enlisted line-maintenance personnel been established at the Joint Base
Workshop (JBW) at Taji. The ISF has also had limited specialized logistics training,
whereby a few officers were sent for logistics training in the U.S., but ad hoc training does
not represent a professional curriculum. Senior USF-I officers suggested expanding
current initiatives, such as mobile training teams, train-the-trainer programs, and trips
abroad to study logistics. Establishing a professional logistics curriculum within the
newly-formed Iraqi International Academy, also referred to the Iraqi Strategic Center of
Excellence, is one way to ensure that logistics remains in the forefront of the GoI training
focus.

The Iraqi International Academy was currently in the process of being built and is to be
modeled on the George C. Marshall European Center for Security Studies. According to
the Director of Strategic Logistics, incorporating logistics training into the Iraqi Strategic
Center is an important step in developing an enduring ISF logistics capability and could be
initially supported with ISFF. The Director stated that establishing a professional logistics
education within the Iraqi International Academy would ensure the development of high-
caliber logistics officers for the ISF, which is a critical step in achieving a logistics
sustainment capability.

Office of Security Cooperation
At the time of our visit in April 2010, the Office of Security Cooperation was still in the
concept phase, and USF-I staff, in coordination with the U.S. Embassy-Baghdad, was in
the process of developing notional organizational structures. The USF-I Director of
Strategic Logistics stated that the Office of Security Cooperation must have a robust
logistics cell in order to ensure that logistics sustainment remained a priority for GoI. The
Director also suggested that the notional logistics cell should be directed by a senior-
ranking civilian or military officer in order to encourage the GoI and the Ministers of
Defense and Interior to collaborate horizontally and vertically and continue to invest in
sustainment.




                                              14
Recommendations, Client Comments, and Our Response
2. Deputy Commanding General for Advising and Training, United States Forces-Iraq:
    a. Coordinate with the Government of Iraq to ensure that professional logistics
training is incorporated into the program of instruction at the Iraqi International
Academy/Iraqi Strategic Center of Excellence and is made available to senior officers in
the Iraq Security Forces.

Client Comments
USF-I concurred with this recommendation.

Our Response
USF-I comments were responsive. We request that DCG, A&T, USF-I, forward to the
OIG a copy of the program of instruction for the Iraqi International Academy/Iraqi
Strategic Center of Excellence, once available.



2. Deputy Commanding General for Advising and Training, United States Forces-Iraq:
    b. Coordinate with the U.S. Embassy-Baghdad and U.S. Central Command to ensure
a robust logistics cell is established within the Office of Security Cooperation, directed
by a senior-ranking civilian or military officer, that prioritizes a program of continued
Iraq Security Forces logistics development.

Client Comments
USF-I concurred with this recommendation, stating that support for this recommendation
is identified in the USF-I transition plan of programs, projects, activities, and tasks
currently being conducted by USF-I. These specific activities will be transferred to the
U.S. Embassy – Baghdad and the Office of Security Cooperation – Iraq. The members of
the logistics section will be fully qualified and tasked with the mission to support the
continued development of the ISF’s logistical capabilities.

Our Response
USF-I comments were responsive. We have reviewed the USF-I transition plan, and note
that the Logistics Section in Office of Security Cooperation – Iraq is programmed for 29
personnel, with an SES Chief of Section. We require no additional input from the
Command on this issue.




                                            15
Observation 3. Comprehensive Plan for Developing the
Logistics Capability of the ISF
USF-I did not have a comprehensive, integrated plan for developing the ISF logistics
system that unified the efforts of U.S. logistics trainers and mentors across the USF-I lines
of operation.

This apparently occurred because the necessity of generating Iraqi military and police
forces had been the priority focus of U.S. “train and equip” efforts; only recently has USF-
I shifted its priority emphasis to ISF logistics system building, and designated staff
personnel to prepare a strategic-level, comprehensive, integrated plan to support this effort.

Failure to develop, coordinate, and publish such a plan that unifies the USF-I command
elements efforts to develop the logistics capability of the ISF could limit the effectiveness
of efforts by U.S. forces in developing the minimum essential capability required across
the spectrum of ISF logistics operations prior to departure of U.S. military forces in
December 2011.

Applicable Criteria
Chairman of the Joint Chiefs of Staff Manual 3122.01A, “Joint
Operation Planning and Execution System (JOPES) Volume I,
(Planning Policies and Procedures),” September 29, 2006.
This document sets forth planning policies, processes, and procedures to govern the joint
operation planning and execution activities and performance of the Armed Forces of the
United States. It provides military guidance for the exercise of authority by combatant
commander(s) and other joint force commanders in development of selected tactics,
techniques, and procedures for joint operations and training. It provides military guidance
for use by the Armed Forces in preparing their appropriate plans. Enclosure (R) of the
manual describes the responsibilities and procedures for completing an RFF or Request for
Capabilities message.

DOD Instruction 3000.05, “Stability Operations,” September 16, 2009.
This Instruction provides guidance on stability operations. This guidance will evolve over
time as joint operating concepts, mission sets, and lessons learned aid in further
development of DOD policy and assignment of responsibility for the identification and
development of DOD capabilities to support stability operations.

The Strategic-Level Comprehensive ISF Logistics Development
Plan
Although considerable progress had been made by U.S. forces in developing ISF logistics
capability there were still key functional areas that needed improvement. However, the
focus on generating Iraqi combat forces meant a lesser priority was given to developing a
logistics capability at the ministerial level, with appropriately functioning business
processes, or to ensuring the integration of the various logistics development efforts across
the spectrum of ISF organizations. To complete the development of the minimum


                                              17
essential capability in logistics, the USF-I must launch an aggressive but focused training,
mentoring, and equipping campaign to meet this objective.

Responding to a recommendation from the DLA’s “Strategic Logistics Assessment
Team – Iraq Report”, dated September 2009, to put a qualified member of the DOD SES in
charge of developing ISF strategic logistics capability, the Commanding General, USF-I,
brought a USD (AT&L) SES on board in mid-January 2010 to lead an assessment of the
ISF logistics capability and to develop a plan to meet logistics MECs by December 2011.

The ISF Strategic Logistics Directorate developed a draft plan to address logistics business
process development at the ministerial and depot levels. That plan provided an incisive
and organized approach to developing key logistics capabilities, despite the limited time
and resources available to USF-I. After that plan is reviewed and approved by the USF-I
Commanding General, it should be institutionalized into a comprehensive written plan or
fragmentary order that addresses strategic and operational-level logistics issues within the
ISF and integrates the efforts of U.S. logistics trainers, Advise and Assist Brigades, Base
Support Battalions, LMATs, the various police organizations, and logistics mentors at the
MoD, the JHQ, and the MoI.

Recommendations, Client Comments, and Our Response
3. Commander, United States Forces-Iraq, in coordination with the Deputy Commanding
General for Advising and Training, United States Forces–Iraq, publish a plan or
fragmentary order that integrates the efforts of Advise and Assist Brigades, Sustainment
Brigades, and Advising and Training elements to expedite the development of a logistics
sustainment capability within the Iraq Security Forces.

Client Comments
USF-I concurred with this recommendation.

Our Response
USF-I comments were responsive. We request that Commander, USF-I, forward to the
OIG a copy of the aforementioned plan or fragmentary order.




                                             18
Observation 4. United States Forces-Iraq Metrics and the
ISF Readiness Reporting System
USF-I did not have standardized metrics for clearly determining logistical posture of the
ISF. Moreover, it specifically appeared that Iraqi Army commanders and police officials
were generally overstating operational readiness capabilities, particularly regarding vehicle
and weapons-systems readiness rates. Therefore, neither USF-I nor the Iraqis were
applying credible metrics with regard to logistics posture.

This occurred because USF-I did not develop and direct the use of standardized metrics
by U.S. mentors/trainers across all units and organizations assigned to USF-I when
evaluating ISF logistics/maintenance readiness. The situation was exacerbated by the
acceptance of ISF unit-leader assessments of logistics and maintenance readiness reporting
through the ISF system, without any validation.

As a result, a common and measureable assessment of logistics sustainment progress
across the ISF was inhibited which created a misleading picture of the extent of logistics /
maintenance deficiencies and problems. Further, an unreliable system of logistics
readiness reports was produced that could not be used to consistently and accurately
determine the readiness status of ISF units. Moreover, A&T could not focus timely
support on readiness issues and deficiencies that might be systemic and should have been
addressed. Likewise, ISF leaders were not able to accurately measure the true logistics and
maintenance status of ISF operational units/organizations, which created a false sense of
confidence. That false sense of confidence may impede the ability of ISF to focus its
support and corrective actions on critical areas and may overstate its ability to respond to
security threats.

Applicable Criteria
DOD Instruction 3000.05, “Stability Operations,” September 16, 2009.
This Instruction provides guidance on stability operations. This guidance will evolve over
time as joint operating concepts, mission sets, and lessons learned aid in further
development of DOD policy and assignment of responsibility for the identification and
development of DOD capabilities to support stability operations.

Joint Center for International Security Force Assistance, “How the
Iraqi Army Operates (Edition 3),” September 2009. This document provides
transition teams and organizations partnered with Iraqi forces with a baseline reference to
processes and procedures integral to the Iraqi Army. It attempts to connect “theory” to
“practice” by providing a means by which transition teams and partner units can
differentiate between how things are supposed to be done and how they are being done.

Ministry of Defense Joint Headquarters (JHQ), “DCOS LOG Materiel
Circulation Processes,” October 1, 2009. Chapter 6 describes the mission and
function of the Directorate of Electrical and Mechanical Engineering and the processes and
procedures for maintenance in the Iraqi Armed Services. Chapter 8–Iraqi Logistics


                                             19
Operations Center (ILOC) (DRAFT). The ILOC serves as a Strategic Level Logistics
Operations Center at the JHQ/MoD for the collection and distribution of logistics
information from the Iraqi Ground Forces Command, Iraqi Air Force, Iraqi Naval
Command and relevant Operational Centers, and provides viable analysis to the JHQ in
order to assist the decision-making process.

Center for Army Lessons Learned Handbook 10-08, “Partnership:
Development of Logistics Capabilities,” November 2009. This handbook
was developed by former Multi-National Corps-Iraq and the former Iraq Assistance Group
logistics staffs to present partnering considerations in developing a fundamental base for a
self-sustaining host nation security force.

American Embassy–Baghdad and Multi-National Force–Iraq, 2010
Joint Campaign Plan, November 23, 2009. Appendix 1 to Annex J, ISF
Logistics–Transition to Self-Sustaining Capability contains the logistics concept,
conditions, and objectives of the Security Line of Operation and directs tasks that must be
accomplished for the ISF to become self sustaining. As the Line of Operations contributor,
USF-I J4 is responsible for ensuring that these tasks remain relevant as conditions change.

U.S. Government Interagency Counterinsurgency Initiative, “U.S.
Government Counterinsurgency Guide,” January 2009. This document
examines the theory and principles of insurgency and counterinsurgency, the components
of an effective counterinsurgency strategy, and interagency counterinsurgency assessment,
planning and implementation. The DOD and U.S. military forces provide a broad range of
capabilities to support an integrated U.S. counterinsurgency effort. These may include
advising and training foreign military and logistics support.

Logistics and Maintenance Readiness Reporting
USF-I assessment of ISF operational readiness, to include logistics and maintenance, was
captured by using the USF-I Command Assessment Tool. However, that tool did not
provide a standardized metric that accurately portrayed current ISF logistics and
maintenance readiness posture with sufficient clarity to be useful.

While the ISF did have an internal system of readiness reporting, it was often unreliable
because reporting was inflated. U.S. trainers reported that ISF Commanders and personnel
knowingly reported higher rates of readiness, even after being questioned about it by their
U.S. counterparts. For example, U.S. advisors pointed out instances in which Iraqi army
units reported over 90 percent HMMWV operational readiness rates, even when they knew
that the accurate rate was between 70 and 75 percent. One senior officer in an Iraqi Army
division candidly told us that the actual HMMWV operational readiness rates in his
division was closer to 50 percent. There were similar issues with overstated readiness
reporting in police organizations, according to U.S. advisors. Despite those issues, U.S.
advisors noted that it was relatively rare for Iraqi security units, military or police, to fail to
conduct a mission because of vehicle readiness. The maintenance readiness system
appeared to be functioning well enough by Iraqi standards to complete missions despite
inflation in the reporting of operational readiness rates. However, a system that routinely


                                                20
accepts inflated operational readiness reporting could well cause the ISF to fail when
placed under sufficient, sustained operational stress.

Recommendations, Client Comments, and Our Response
 4. Commander, United States Forces-Iraq:
    a. Direct employment of common, measureable criteria for assessing logistics minimum
 essential capabilities of the Iraq Security Forces, such as that defined in the Deputy
 Commanding General for Advising and Training Strategic Assessment, across all U.S. military
 organizations involved in the train and equip mission.
    b. In coordination with the Deputy Commanding General for Advising and Training and
 Deputy Commanding General for Support, direct that Iraq Security Force logistics and
 maintenance readiness reporting receives a current and ongoing reality check by U.S.
 personnel on-the-ground to ensure the Command Assessment Tool accurately reflects the Iraq
 Security Force readiness posture, and measures the logistics sustainment gap.

Client Comments
USF-I concurred with these recommendations.

Our Response
USF-I comments were responsive. We request that Commander, USF-I, forward to the
OIG a copy of the criteria developed for use across all U.S. military organizations involved
in the train and equip mission to assess the ISF’s logistics minimum essential capabilities
and a copy of the directive resulting from Recommendation 4.b.




                                             21
Observation 5. Ministry of Defense Planning,
Programming, Budgeting, and Execution Processes
The MoD did not meet maintenance and repair parts requirements for non-FMS supported
vehicles, weapons, and weapons systems (estimated at 75 to 80 percent of total inventory
by value) in 2009 and 2010.

This occurred because MoD had significant systemic problems with planning,
programming, budgeting and execution (PPBE) processes. Failure to focus on the
importance of logistics, and weaknesses in the PPBE processes, particularly a lack of
requirements generation and procurement capability, severely hampered efforts by MoD to
logistically sustain the readiness of its forces.

As a result, weak PPBE processes and the failure to resource the maintenance and repair
parts requirements of MoD forces has contributed to chronic shortages in the field of
critically-needed equipment, such as vehicles, weapons, and weapons systems, and
negatively impacted MoD mission readiness and its ability to respond to significant
security threats.

Applicable Criteria
United States Forces-Iraq (Advise and Train), Minimum Essential
Capabilities Assessment, April 2010. This document contains the DCG A&T’s
assessment of current and projected status of certain MECs for the ISF.

Planning, Programming, Budgeting, and Execution Processes in
the Ministry of Defense
The MoD did not have a functional PPBE process, particularly in the areas of
requirements-driven procurement and acquisition. MoD also did not adequately budget to
make sufficient progress towards MEC or have the ability to execute the scarce funds that
it did budget.

USF-I A&T advisors indicated that GoI ministries had difficulty assessing their
organizations and their logistics requirements, particularly within MoD. Senior MoD
officials were often unable to explain how the logistics and maintenance requirements that
eventually become part of its budget submission were developed or vetted. MoD logistics
officials were aware of the need to develop a logistics sustainment capability, but were
stymied by systemic failures, such as planning on an annual basis rather than taking a
multi-year approach. Further, MoD was unable to determine its total requirements; even
when a requirement was identified and budgeted for, its contracting process was frequently
unable to execute.

For example, approximately 75 to 80 percent of the inventory in the ISF was not
adequately supported with essential replacement spare parts because the business systems
and related processes at the MoD were dysfunctional or nonexistent.




                                            23
The GoI must develop the capacity and the will to invest in building and sustaining its
logistics capability and institutionalize the processes to support that investment.

Requirements Generation. USF-I recognized that the MoD requirements
generation process was dysfunctional. In the April 2010 MEC assessment, ITAM-MoD
rated “Policy and Requirements” red, indicating MoD was failing to meet required mission
needs in developing a requirements-driven programming process. The assessment also
defined the MoD ability to determine and prioritize mission needs through a functional
“Policy and Requirements” capability as a critical requirement.

Interviews with ITAM-MoD advisors and key Iraqi logisticians indicated that the
requirements generation process was broken:

   •   Nobody within the ministry seemed to know who was talking to whom to develop
       requirements, or
   •   What the process was for proposing requirements up the chain of command for
       consideration and ultimate ministerial decision-making.

Effective requirements generation is essential in the development and justification of MoD
maintenance requirements in budget requests to the Ministry of Finance. While MoI
recently developed a basic maintenance doctrine and was making progress in this area,
MoD had no basic maintenance doctrine establishing guidance for how frequently
maintenance had to be performed, where it had to be performed in the logistics system,
processes for acquiring parts, or how to access the support of logistics depots. Although
the Iraqis used requirements-driven planning in other areas, such as force generation,
construction, and weapons system procurement, they failed to do so in the area of
maintenance, mainly because the processes at the MoD, and to a lesser extent at the MoI,
were dysfunctional or non-existent.

The processes in MoI that supported the development of requirements for sustainable
logistics/maintenance were functioning better than those in MoD. Although MoI was
struggling with the ability to procure the right types of repair parts in appropriate
quantities, the senior MoI maintenance official knew exactly what had been requested by
MoI for logistics and maintenance because he and his staff had developed the requirement.
In contrast, a senior MoD Joint Headquarters logistician responsible for maintenance
indicated that his staff was not consulted about spare parts requirements for MoD planning
purposes. He said that logistics units regularly received heavy repair parts for which they
had no use. However, what was really needed was a reliable process for providing basic 1st
Line maintenance repair parts.

The Coalition’s past assistance in providing maintenance and repair parts through ISFF has
not encouraged development of ISF ability to appreciate and act on the critical need to plan
for maintenance. Recently, however, the GoI has chosen to provide maintenance support
packages for some of their key systems through FMS (M1A1 tank, C-130). However, only
about 20 to 25 percent of their total security equipment inventory (capital value) was
covered by FMS. The end result was that 75 to 80 percent of the ISF vehicle and weapons


                                            24
inventory was not adequately supported for repair parts through a functional requirements-
driven process.

The lack of a functioning requirements generation process also affected the Iraqi Navy,
which had virtually no maintenance support from the MoD over the past five years and had
resorted to using low quality spare parts purchased on the local market. For example, a
patrol boat ran aground last year and suffered extensive damage. Because the Iraqi Navy
was only allowed a small monthly budget for repairs, it used those funds each month to
buy parts piecemeal to repair the damaged boat. After one year, the Navy still did not have
the necessary parts to make the damaged boat operational.

Planning and Budgeting. Like requirements generation, USF-I realized the MoD
planning and budget process was dysfunctional. In the April 2010 MEC assessment
conducted by A&T, “Planning & Programming” and “Budget Execution” categories were
rated, “red,” signifying that MoD has failed to meet required mission needs in both
developing and implementing a requirements-driven planning and programming process,
and developing and implementing detailed monthly Execution Performance Reports.
PPBE and the capacity to submit and execute capability-based/requirement-driven budgets
were defined as critical requirements in this assessment. ITAM-MoD forecasted both
processes would be “amber” by late 2010 and “green” by 2011. That forecast was not
consistent with our own field inspection and the insight shared by those U.S. advisors and
Iraqi officials with whom we met. Therefore, it appeared unlikely that current A&T
capabilities and approach would be sufficient to improve MEC capability at MoD to the
predicted levels in the timeframe available.

MoD officials stated that they did not receive sufficient funds to meet basic logistics
sustainment demands of the IA, and moreover, the ministry did not efficiently execute the
funding it did receive over the past few years. By the end of 2011, the MoD will have
roughly $10B in equipment in its inventory. A&T estimated that the MoD maintenance
requirement that would meet standards acceptable to the Iraqis over time was 6 percent per
year of the total equipment value, or about $600 million. The annual requirement for MEC
A&T used was roughly 3 percent of equipment value, or $300 million (not including
contractor logistics support). In 2009, Iraqi officials in the JHQ requested $200 million for
MoD maintenance requirements, which was short of both the $600 million annual
requirement and the lesser $300 million MEC requirement. However, the actual budgeted
amount in 2009 was $53 million, and MoD only executed $16 million of that.

Significant logistics challenges between now and December 2011, as defined by a senior
Iraqi logistics officer, included insufficient budgeted funds for spares, maintenance, and
repair parts. MoD only allocated $40 million for 2010, which again fell substantially short
of the estimated $600 million annual maintenance requirement. Additionally, this senior
Iraqi officer stated that he believed MoD was only capable of executing about 20 percent
of what it received, but he also stated that he did not believe the MoD/JHQ processes for
identifying requirements, budgeting, and executing (contracting) were broken.




                                             25
Iraqi officials in the JHQ responsible for maintenance indicated that their budget
requirements were not being met. In 2009 and 2010, he reported that the amount budgeted
for maintenance across MoD was only a fraction of the requirement.

Procurement. MoD contracting had about 60 personnel who support aircraft, tank,
ammo, and vehicle acquisitions--some of which was FMS-related. In the April 2010 MEC
assessment, ITAM-MoD assigned a rating of “amber” to the “Contracts and Sales Direct
Contracting” subcategory of “Procurement,” which was not consistent with the advisor
comments we received. ITAM-MoD stated that the category of procurement would have a
MEC of “green” by 2011. We are less optimistic about that assessment and believe that
such an achievement is questionable without strong and immediate action.

The MoD contracting organization suffered from numerous challenges, including the areas
of:

   •   Acquisition training,
   •   Requirements packages,
   •   Statement of work development,
   •   Market research,
   •   Advertisement,
   •   Paper-based processes, and
   •   Internet access.

ITAM MoD’s goal was to get 8 to 10 MoD contracting personnel certified through
Defense Acquisition University. ITAM planned to mentor the MoD contracting officers
personally, sitting with them at their computers and talking them through courses, such as
Acquisition 101, to help develop an understanding of process/procedure that might be
applicable to Iraqi systems.

Contracting personnel went through two courses at the Ministerial Training and
Development Center in the International Zone, but those courses were fairly advanced,
they did not cover logistics or life cycle costs, and student feedback was not good.

There were no metrics in place to track numbers of contract awards, process times,
obligation rates or anything else that could indicate serious process problems. A Business
Transformation Agency Task Force for Business and Stability Operations mentoring of
Iraqi business practices through the Ministry of Planning had been completed, but the
impact on the efficacy of Iraqi business processes was unknown or unapparent. In a letter
signed by the Secretary of Defense on March 25, 2010, the Task Force was charged to
continue to assist the operational commander in Iraq to connect the military campaign with
the economic elements of U.S. national power. However, MoD and MoI advisors were
unaware of any recent Task Force business improvement activity.




                                            26
Joint Contracting Command Iraq-Afghanistan (JCCI-A) had the largest number of
contracting officers on the ground in Iraq, including an office at FOB Union III. JCCI-A
officers stated that Iraqi business mentoring was not part of their mission, nor were they
resourced for such a mission.

Conclusion
The business processes in the MoD associated with planning, programming, budgeting,
and execution were dysfunctional or nonexistent. Failure to reach that minimum essential
capability by December 2011 will prevent ISF from developing a sustainable logistics
capability; however, DCG A&T did not have the capacity to enable the ISF to build a
functional PPBE system in the limited amount of time U.S. forces will remain in Iraq.

Recommendations, Client Comments, and Our Response
 5.a. Under Secretary of Defense for Acquisition, Technology and Logistics, in coordination
 with the Deputy Commanding General for Advising and Training, United States Forces–Iraq,
 provide deployed assistance for a minimum of 180 days to help develop a functional planning,
 programming, budgeting, and execution process within the Ministry of Defense and to mentor
 and train appropriate Iraqi personnel on the use of those processes.

Client Comments
AT&L non-concurred with this recommendation, saying that, although they had a member
of the Senior Executive Service (SES) working in Iraq with DCG, A&T, they did not think
that should become an enduring mission for AT&L. They recommended the requirement
be programmed in staffing support requests from USF-I and later migrate to the Office of
Security Cooperation.

Our Response
Given that staffing this requirement as a routine support request would take a minimum of
six months and another three months, minimum, to source, we considered the
recommended AT&L approach as too little/too late, given the USF-I end of mission on
December 31, 2011. However, in follow-up coordination with AT&L, we determined that
the current SES Director of ISF Strategic Logistics was going to be replaced by two
members of the SES, who had already been identified. Furthermore, AT&L had supported
contracting for additional Logistics Management Institute (LMI) personnel to assist with
the ISF Strategic Directorate mission in A&T. Coordination with the current ISF Strategic
Logistics Director confirmed the AT&L account. Although challenges remained, he
thought he had received the assistance needed from AT&L to address PPBE issues in
MoD. We consider the sum of the actions taken to be responsive to the intent of the
recommendation and require no further action, at this time.




                                             27
 5.b.   Deputy Commanding General for Advising and Training, United States Forces–Iraq:
       (1) Emphasize during Key Leader Engagements with Iraqi counterparts in the Ministry
 of Defense, Ministry of Defense Joint Headquarters, and Ministry of Interior the importance of
 planning and budgeting for maintenance requirements in order to sustain the operational
 performance of Iraq Security Forces equipment.
       (2) Direct “Advise and Train” advisors to mentor their counterparts at the Ministry of
 Defense, Ministry of Defense Joint Headquarters, and Ministry of Interior on the importance
 of developing functional planning, programming, budgeting, and execution processes for the
 requirement to sustain all Iraq Security Forces equipment.

Client Comments
USF-I concurred with these recommendations, noting that even though Key Leader
Engagements already cover the importance of planning and budgeting for maintenance
requirements, further emphasis is being applied on developing functional PPBE processes.

Our Response
USF-I comments were responsive; no additional comments are required.




                                            28
Observation 6. High Mobility Multi-Purpose Wheeled
Vehicle Operational Readiness Rates
Iraqi Army Commanders were hesitant to send High Mobility Multi-purpose Wheeled
Vehicles (HMMWVs), or other equipment, to the Joint Base Workshop (JBW) at Taji for
maintenance or repair; however, the commanders often could not maintain the HMMWVs
themselves because of a chronic shortage of repair parts.

This occurred because of a lack of trust in the maintenance system within the ISF.
Commanders did not want to turn over unit HMMWVs or other equipment to the
appropriate maintenance depot, even when the vehicles and equipment became non-
operational, because they feared not being able to determine the location/status of their
equipment and that it would not be returned in usable condition, if at all. Additionally, a
general lack of repair parts and a dysfunctional ISF parts ordering process makes
HMMWV operational-readiness rates problematic at all levels of maintenance.

As a result, the failure to establish a functional and reliable maintenance program,
supported with an adequate and predictable supply of repair parts, were starting to degrade
some HMMWV operational readiness rates to the point where some IA divisions will not
be able to complete their assigned missions. For example, the operational readiness rate
for HMMWVs in one IA division was less than 50 percent because of parts shortages.
Moreover, the substantial investment made via ISFF and GoI fiscal sources will be lost.

Applicable Criteria
DOD Instruction 3000.05, “Stability Operations,” September 16, 2009.
This Instruction provides guidance on stability operations. This guidance will evolve over
time as joint operating concepts, mission sets, and lessons learned aid in further
development of DOD policy and assignment of responsibility for the identification and
development of DOD capabilities to support stability operations.

Joint Center for International Security Force Assistance, “How the
Iraqi Army Operates (Edition 3),” September 2009. This document provides
transition teams and organizations partnered with Iraqi forces with a baseline reference to
processes and procedures integral to the Iraqi Army. It attempts to connect “theory” to
“practice” by providing a means by which transition teams and partner units can
differentiate between how things are supposed to be done and how they are being done.

Ministry of Defense Joint Headquarters (JHQ), “DCOS LOG Materiel
Circulation Processes,” October 1, 2009. Chapter 6 describes the mission and
function of the Directorate of Electrical and Mechanical Engineering and the processes and
procedures for maintenance in the Iraqi Armed Services. Chapter 8–Iraqi Logistics
Operations Center (ILOC) (DRAFT). The ILOC serves as a Strategic Level Logistics
Operations Center for the collection and distribution of logistics information from the Iraqi
Ground Forces Command, Iraqi Air Force, Iraqi Naval Command and relevant Operational




                                             29
Centers, and provides viable analysis to the JHQ in order to assist the decision-making
process.

Center for Army Lessons Learned Handbook 10-08, “Partnership:
Development of Logistics Capabilities,” November 2009. This handbook
was developed by former Multi-National Corps-Iraq and former Iraq Assistance Group
logistics staffs to present partnering considerations in developing a fundamental base for a
self-sustaining host nation security force.

American Embassy–Baghdad and Multi-National Force–Iraq, 2010
Joint Campaign Plan, November 23, 2009. Appendix 1 to Annex J, ISF
Logistics–Transition to Self-Sustaining Capability contains the logistics concept,
conditions, and objectives of the Security Line of Operation and directs tasks that must be
accomplished for the ISF to become self sustaining. As the Line of Operations contributor,
USF-I J4 is responsible for ensuring that these tasks remain relevant as conditions change.

HMMWV Readiness in the Iraqi Army
For a variety of reasons, IA Commanders were reluctant to turn HMMWVs into Level 3
and 4 maintenance facilities for repair. The proximate cause of this reluctance was the
fear that they would not get the vehicle back for a year or more and then it would arrive
still in an unserviceable condition, perhaps stripped of certain parts it had when sent. The
owning commander has no ability to forecast when his vehicles will be repaired and
returned. Not trusting the maintenance system, the commander was apt to keep a non-
operational HMMWV in his unit and try to obtain the necessary repair parts in the local
market, even if unit mechanics were not authorized or trained to perform the required
maintenance.

The lack of ongoing availability of basic HMMWV repair parts appeared to result from the
larger issue regarding deficient ministerial planning, budgeting, and procuring, and an
inefficient system for the distribution of all types of repair parts. There was simply no
reliable repair parts system in place, according to advisor and Iraqi reports received by the
team.

Aside from the issue of weak PPBE processes at the MoD, the IA had problems managing
use of on-hand repair parts. While the IA did not maintain a Prescribed Load List of repair
parts at the Brigade and Battalion level or an Authorized Stock List of repair parts at
Division and above, they did have repair parts in stock. Reportedly, up to 80 percent of the
stock did not service any type of equipment that they have on-hand. Furthermore, IA
maintenance managers had not established reorder points for the lines of stock they have
on-hand, often running to zero balance before ordering more. The IA was just starting to
implement the automated IAMP system, which could increase visibility of available spare
parts at all levels of the maintenance system, if properly used. However, there appeared to
be a general reluctance on the part of IA maintenance managers to enter their available
parts into this system and expose to what stock they had on-hand to others outside of their
unit.



                                             30
When repair parts were unavailable, including those for the HMMWV, IA mechanics were
encouraged to obtain parts bought in the local markets. Unfortunately, these parts were far
more expensive than those purchased through a reliable contracted source and of poorer
quality. Most locally purchased parts were manufactured in Iran or China and, according
to both U.S. and IA personnel, wore out or broke quickly.

A senior Iraqi logistics officer at the JHQ was focused on ensuring that there was a
sufficient supply of spare parts, especially for HMMWVs. He estimated that it required
the expenditure of about $6 thousand per HMMWV per year to maintain them (1st and 2nd
lines) at the current operational tempo. Therefore, to maintain the fleet of over 7,800
HMMWVs would require about $47 million per year in repairs and maintenance costs.
Unfortunately, in CY 2010, MoD was only provided $40 million to maintain all non-FMS
supported equipment, to include HMMWVs, well short of the requirement to sustain these
vehicles operationally ready.

U.S. trainers/advisors were working with the IA units to improve HMMWV operational
readiness rates by:

   •   Increasing transparency in and use of established IA maintenance management
       processes,
   •   Mentoring the Iraqis to establish a HMMWV operational readiness float at Taji,
       and
   •   Establishing HMMWV readiness as a high-value sustainment initiative in order to
       influence multiple levels and elements of the logistics and fiscal processes and
       achieve key strategic outcomes and broad, enduring effects.

Recommendations, Client Comments, and Our Response
 6.a. Director, Logistics (J-4), United States Forces–Iraq, in coordination with the Ministry of
 Defense develop a plan to establish an operational readiness float of High Mobility Multi-
 purpose Wheeled Vehicles at Taji National Depot from inbound vehicles supplied by the U.S.
 Equipment Transferred to Iraq program in order to alleviate excessive 4th line maintenance
 downtime.

Client Comments
USF-I concurred with this recommendation, stating that the USF-I J4 (Forward), in
conjunction with STRATLOG and MoD is designing a concept to establish a HMMWV
operational readiness float as described in the recommendation. Due to the expiration of
the FY 2010 Section 1234 U.S. Equipment Transfer to Iraq (USETTI) authority on
September 30, 2010, the command has no current authority to proceed with the transfer of
these HMMWVs, but expects renewed authority when the FY 2011 Nation Defense
Authorization Act is approved.




                                            31
Our Response
USF-I comments were responsive. We request that USF-I J4 provide OIG with a copy of
the plan to establish an ISF HMMWV operational readiness float, once it is completed.

 6.b. Deputy Commanding General for Advising and Training, United States Forces–Iraq
 coordinate with and mentor the Ministry of Defense Joint Headquarters Deputy Chief of Staff
 for Logistics and the Ministry of Defense Contracting/Budgeting offices to identify the parts
 requirements to sustain the High Mobility Multi-purpose Wheeled Vehicle fleet, budget for
 those requirements, and execute contracts to purchase a parts supply inventory according to
 predicted usage rates.

Client Comments
USF-I concurred with this recommendation.

Our Response
USF-I comments were responsive. We request that DCG, A&T, USF-I, provide OIG with
a list of the identified critical HMMWV repair parts and an update on MoD/JHQ contract
execution to procure these parts.

 6.c. Commander, Army Materiel Command, in coordination with Deputy Commanding General
 for Advising and Training, United States Forces–Iraq, provide on-the-ground program
 management support for the High Mobility Multi-purpose Wheeled Vehicles High Value
 Sustainment Initiative led by the U.S. Iraq Security Forces Strategic Logistics Directorate.

Client Comments
Commander, AMC, did not respond to the draft report requesting management comments.

Our Response
We ask that the Commander, AMC, respond to the final report.




                                            32
Observation 7. Standard Tour Lengths for U.S. Personnel
and Teams Assigned to United States Forces-Iraq (Advise
and Train) That Mentor and Train the ISF.
At the time of our visit, U.S. Army active duty soldiers assigned to USF-I A&T as
mentors/trainers served 12-month tours. In contrast, Air Force active duty USF-I A&T
personnel assigned as trainers/mentors served between 6 and 12-month tours. Some of the
U.S. Army advisors at the Iraq Department of Border Enforcement Headquarters were
being replaced with Air Force personnel on six-month tours.

The shortened tour lengths occurred because USF-I had not requested, and USCENTCOM
did not establish a 12-month tour of duty requirement for A&T mentors/trainers in Request
for Forces documents.

As a result, personnel from different military services assigned to A&T as mentor/trainers
had varying tour lengths, which limited mentor performance and effectiveness. Personnel
on six-month assignments did not generally have sufficient time to develop expertise in the
performance of their duties, which requires building trust and confidence with their Iraqi
counterparts.

Applicable Criteria
Secretary of Defense Memorandum, “Utilization of the Total Force,”
January 19, 2007. This document establishes tour length policy for various DOD
military components.

DOD Inspector General Report No. SPO-2009-007, “Assessment of U.S.
and Coalition Plans to Train, Equip, and Field the Afghan National
Security Forces,” September 30, 2009. Observation 9 in this report discusses
the impact of varying tour lengths on the effectiveness of U.S. mentors and trainers in
Afghanistan. The discussion is applicable to U.S. mentors and trainers in Iraq.

USCENTCOM Request for Forces Serial 1018 (Classified). This document
requests forces to support mentoring and partnering of GoI ministries.

Mentors/Trainers at the Department of Border Enforcement
Headquarters
At the time of our visit, USF-I A&T had 12 active duty U.S. Army personnel and 2
contractors advising and training the Iraqi Border Police at the Department of Border
Enforcement Headquarters. The 12 active duty personnel were due to redeploy in July
2010. The replacement team was to be comprised of seven Air Force personnel and the
rest Army. The Air Force personnel had orders for 6-month tours and the Army personnel
had orders for 12-month tours. Army advisors stated that they had replaced Air Force
personnel in 2009 who had served 1-year tour lengths.



                                             33
A review of the USCENTCOM RFF Serial 1018 (Classified) request for additional forces
to support mentoring and partnering of GoI ministries determined that USCENTCOM did
not specify tour length requirements.

Although the situation described with U.S. Air Force advisors in the Department of Border
Enforcement Headquarters is a single example, the lack of specificity in the RFF represents
a systemic issue that could affect mentor/trainer tour lengths elsewhere in USF-I A&T.

Importance of Tour Lengths
Continuity in mentor/trainer tour lengths affects everything from troop morale in units to
job performance efficiency and, ultimately, mission effectiveness.

Personnel with tour lengths shorter than 1 year increased the training requirements for
team members with longer tour lengths who must repeatedly train new personnel to
integrate them into the operational mission. This reduced the time available to actually
perform the mission. Operational tempo-momentum suffered accordingly, and the
mentoring progress was impeded.

The ability of mentoring teams to increase the capability and performance of their Iraqi
counterparts was also negatively impacted because personnel serving for 6 months did not
have sufficient time or opportunity to grasp the mentoring fundamentals through hands-on
experience or to establish the necessary relationships with their Iraqi counterparts.

Having sufficient tour lengths to build an effective mentoring/training team is especially
critical since the mentoring process takes time and becomes more fruitful over an extended
period. Tour lengths of less than 12 months are generally insufficient for effective
mentoring. Simply stated, longer tour lengths contribute to greater continuity of the U.S.
mentoring effort.

Recommendations, Client Comments, and Our Response
 7. Commander, United States Forces–Iraq, in coordination with Commander, U.S. Central
 Command, should revise Request For Forces documents to specify 12-month tour lengths as
 the minimum requirement for U.S. personnel/teams involved in mentoring/training the Iraq
 Security Forces.

Client Comments
USF-I concurred with this recommendation, noting they would explore options to ensure
tour lengths were 12-months in duration.

Our Response
USF-I comments were responsive. We request that Commander, USF-I, forward to the
OIG a copy of the revised RFF documents specifying 12-month tour lengths as the
minimum requirement for U.S. mentoring/training teams.



                                             34
Observation 8. Authorized Positions for the USF-I Iraq
Security Forces Strategic Logistics Directorate
The U.S. Advise and Train Joint Manning Document did not contain any permanently
authorized positions for the ISF Strategic Logistics Directorate because that office was
initially set up as an ad hoc organization, and USF-I (DCG A&T) had not created or
transferred Joint Manning Document billets from other staff areas.

Unless the ISF Strategic Logistics Directorate is institutionalized, the ISF could lose
capability prior to USF-I end of mission in December 2011, which may also adversely
affect the organization and staffing of the future Office of Security Cooperation-Iraq
office.

Applicable Criteria
Chairman of the Joint Chiefs of Staff Instruction 1301.01, “Individual
Augmentation Procedures,” January 1, 2004. This instruction provides
guidance for assigning individual augmentation, to meet the combatant commanders’ and
other government agencies temporary duty requirements supporting the President of the
United States or the Secretary of Defense directed or approved operations.

MNSTC-I FRAGO 09-047, “Formation of Iraqi Security Forces Strategic
Logistics Directorate,” DTG 281800C, September 2009. This fragmentary
order established the ISF Strategic Logistics Directorate as the single unifying strategic
logistics organization reporting directly to the MNSTC-I Commanding General (now DCG
A&T).

Authorized Positions
In May 2010, the Director of ISF Strategic Logistics indicated that there were no JMD
authorizations for his staff. He also stated that the personnel currently assigned had been
put in place on a “by name” request to the senior leadership of the Defense Contract
Management Agency and the Defense Logistics Agency. Without formal Joint Manning
Document positions established for those positions, the office staff could be degraded over
time, as current personnel rotate out of Iraq.

That degradation would likely limit the ability of the Office of Strategic Logistics to
perform what appears to be a uniquely valuable role in building key capabilities in the ISF
logistics system. As a result, accomplishing logistics sustainment capabilities within the
ISF could be negatively impacted during the critical months remaining before end of
mission. In addition, the vital support provided so far by this office in the organization of a
post-December 2011 Office of Security Cooperation could also be reduced.

At the time of our visit, the DCG A&T was considering realigning two JMD military
billets (Lieutenant Colonel and Colonel) and 11 civilian billets to the ISF Strategic
Logistics Directorate to address the problem.



                                              35
Recommendations, Client Comments, and Our Response
 8. Deputy Commanding General for Advising and Training, United States Forces–Iraq,
 finalize the addition or realignment of existing Joint Manning Document billets to ensure that
 Iraq Security Forces Strategic Logistics Directorate will be adequately staffed through
 December 2011.

Client Comments
USF-I concurred with this recommendation.

Our response
USF-I comments were responsive. We request that DCG, A&T, USF-I, forward to the
OIG a copy of the revised Joint Manning Document reflecting the updated billets for the
ISF Strategic Logistics Directorate.




                                            36
Observation 9. Oversight Responsibility for Equipment
and Materiel Transferred to ISF
The drawdown of A&T personnel may diminish A&T’s capacity to provide oversight of
U.S.-funded and/or provided equipment arriving in Iraq through the end of mission in
December 2011.

While USF-I has the requirement to provide oversight of the U.S.-funded and provided
equipment and materiel being transferred to the ISF, the number of personnel available to
carry out that oversight requirement is declining due to the responsible drawdown.

As a result, the failure to plan for sufficient personnel resources to provide oversight of
U.S.-provided equipment and materiel transferred to the ISF could lead to a loss of
accountability or inappropriate use. Moreover, the U.S. financial investment in that
materiel could be wasted.

Applicable Criteria
22 U.S.C. § 2403: U.S. Code--Section 2403: Definitions. Defines "defense
article" in subsection (d) (3) to include, among other things:
               any machinery, facility, tool, materiel supply, or other item
               necessary for the manufacture, production, processing repair,
               servicing, storage, construction, transportation, operation, or use
               of any article listed in this subsection.

National Defense Authorization Act for Fiscal Year 2008 (Public Law
110-181), January 28, 2008. Section 1228 of the Act sets forth the requirements for
the tracking and monitoring of defense articles provided to the Government of Iraq.

DOD Instruction 4140.66, “Registration and Monitoring of Defense
Articles,” October 15, 2009. This document establishes policy, assigns
responsibility, and sets forth procedures in accordance with section 1228 of Public Law
110-181 to certify the establishment of a registration and monitoring system for controlling
the export and/or transfer of defense articles to specified countries and/or to other groups,
organizations, citizens, or residents of those countries.

U.S. Government Oversight Requirements
As per the National Defense Authorization Act for Fiscal Year 2008, the U.S. government
is responsible for the tracking and monitoring of defense articles provided to the GoI.
Section 1228 of the Act reads as follows:

               (C) REGISTRATION AND MONITORING SYSTEM – The registration
               and monitoring system required under this subsection shall
               include –
               (1)      the registration of the serial numbers of all small arms
               to be provided to the Government of Iraq or to other groups,
               organizations, citizens, or residents of Iraq;



                                                   37
               (2)       a program of end-use monitoring of all lethal defense
               articles provided to such entities or individuals; and
               (3)       a detailed record of the origin, shipping, and
               distribution of all defense articles transferred under the Iraq
               Security Forces Fund or any other security assistance program
               to such entities or individuals.

The requirements of this Act have been incorporated into DOD policy in DOD Instruction
4140.66, “Registration and Monitoring of Defense Articles,” October 15, 2009.

Although the drawdown of U.S. forces is expected to be complete by December 2011, the
ISF will still be receiving U.S.-funded equipment and materiel well beyond that date –
equipment and materiel that will still require official transfer, and, in some instances,
tracking and monitoring by U.S. personnel. This equipment includes that acquired through
ISFF as well as any equipment transferred via the U.S. Equipment Transfer to Iraq
(USETTI) program.

Oversight Practices
At the time of our visit, USF-I mentors were responsible for tracking and monitoring ISFF
and USETTI equipment and materiel transferred to the ISF. The requirement for oversight
varied depending on the type of equipment or materiel. For example, weapons and night
vision devices were transferred to the ISF by serial number, repair parts were transferred
by shipment at Taji or Baghdad Police College, and the delivery of major end items, such
as HMMWVs, howitzers, and tanks, was tracked to the Brigade and Battalion level. The
oversight requirement must be fulfilled not only through the USF-I end of mission in
December 2011, but for varying lengths of time afterwards, consistent with deliveries into
Iraq. Due to the long lead times required to order, manufacture, ship, and distribute certain
types of U.S.-funded equipment, delivery to the ISF can be expected well into and beyond
2012.

Concurrent with the drawdown, excess U.S. equipment will also be transferred to ISF units
via the USETTI program. At the present time, the oversight requirements for USETTI
were similar to ISFF-provided materiel and equipment; however, the A&T personnel
drawdown may diminish its capacity to provide accountability and control of equipment
arriving through the end of mission. Further, until a formal policy is in place that defines
the ongoing equipment oversight requirements after end of mission, it cannot be
determined what the requirement is for U.S. personnel to provide oversight of U.S.-
supplied ISFF and USETTI equipment beyond December 2011, in order to meet the
requirements set forth in Public Law 110-181 and DOD Instruction 4140.66.

Office of Security Cooperation
Before the December 2011 end of mission for U.S. military forces in Iraq, the security
assistance / cooperation mission will be transferred from the DOD to a new Office of
Security Cooperation within the U.S. Embassy Baghdad. At the time of the assessment
visit in April 2010, the Office of Security Cooperation was still in the concept phase, and
USF-I staff, in coordination with the U.S. Embassy-Baghdad, were in the process of
developing notional organizational structures. Defining firm oversight and end-use-


                                                  38
monitoring requirements will be critical in determining the number of personnel required
from the DOD to support the new office.

Recommendations, Client Comments, and Our Response
 9. Deputy Commanding General for Advising and Training, United States Forces–Iraq:
    a. In coordination with United States Forces-Iraq, ensure sufficient personnel with the
 appropriate skills are assigned to provide necessary oversight through the end of mission in
 December 2011 for inbound equipment and materiel provided through the Iraq Security Forces
 Fund and U.S. Equipment Transfer to Iraq program.

Client Comments
USF-I concurred with the recommendation, stating that support for this recommendation is
identified in the USF-I transition plan of programs, projects, activities, and tasks currently
being conducted by USF-I. These specific activities will be transferred to the U.S.
Embassy – Baghdad and the Office of Security Cooperation – Iraq. The members of the
logistics section will be fully qualified and tasked with the mission to support the
continued development of the ISF’s logistical capabilities. Further support of this
recommendation is addressed in OSC-I Supporting Plan on FRAGO 10-01.4.

Our Response
USF-I comments were responsive. We have reviewed the USF-I transition plan, and note
that the Logistics Section in Office of Security Cooperation – Iraq is programmed for 29
personnel, with an SES Chief of Section. We request that DCG, A&T, USF-I, forward to
the OIG a copy of the aforementioned OSC-I Supporting Plan and corresponding
fragmentary order.

 9. Deputy Commanding General for Advising and Training, United States Forces–Iraq:
       b. In coordination with United States Forces-Iraq, United States Central Command, and
 the Department of State, define the requirements for oversight of inbound equipment and
 materiel provided through the Iraq Security Forces Fund and U.S. Equipment Transfer to Iraq
 program that will or could arrive after end of mission in December 2011.

Client Comments
USF-I concurred with this recommendation. In conjunction with the development of
OPORD 11-01, a working group was established to define the requirements for oversight
of equipment and materiel provided via ISFF and the USETTI program, should it extend
beyond end of mission in December 2011.

Our Response
USF-I comments were responsive. We request that DCG, AT&, USF-I, provide a copy of
OPORD 11-01 or other applicable document that defines the future requirements for



                                             39
oversight of equipment and materiel provided via ISFF and the USETTI program to the
ISF.

 9. Deputy Commanding General for Advising and Training, United States Forces–Iraq:
    c. Ensure that planning for the transfer of the Security Assistance mission from the
 Department of Defense to the Department of State incorporates the personnel requirements to
 provide the required level of oversight.

Client Comments
USF-I concurred with the recommendation, stating that support for this recommendation is
identified in the USF-I transition plan of programs, projects, activities, and tasks currently
being conducted by USF-I. These specific activities will be transferred to the U.S.
Embassy – Baghdad and the Office of Security Cooperation – Iraq. The members of the
logistics section will be fully qualified and tasked with the mission to support the
continued development of the ISF’s logistical capabilities. Further support of this
recommendation is addressed in OSC-I Supporting Plan on FRAGO 10-01.4.

Our Response
USF-I comments were responsive. We have reviewed the USF-I transition plan, and note
that the Logistics Section in Office of Security Cooperation – Iraq is programmed for 29
personnel, with an SES Chief of Section. We require no additional input from the
Command on this issue.




                                             40
Observation 10. Training for U.S. Logistics Mentors and
Trainers on ISF Logistics Systems
Although many U.S. logistics mentors/trainers reported that they received some pre-
deployment and in-country training focused on the ISF logistics systems and mentoring
ISF development, that training took place through multiple venues and was sometimes
disjointed and ineffective.

That resulted because of insufficient coordination of an integrated and cohesive USF-I,
USCENTCOM, and U.S. Forces Command (USFORSCOM) program approach to pre-
deployment and in-country training for personnel assuming logistics mentor positions and
responsibilities.

Failure to provide sufficient and effective training to inbound U.S. logistics mentors/
trainers on ISF logistics systems prior to assuming their duties has limited their initial
effectiveness and could slow the development of an enduring ISF logistics system.

Applicable Criteria
DOD Directive 1322.18, “Military Training,” January 13, 2009. This DOD
directive states that:

                Members of the Department of Defense shall receive, to the maximum
                extent possible, timely and effective individual, collective, unit, and staff
                training necessary to perform to standard during operations…

                The Heads of the DOD Components shall Ensure, through commanders
                and managers at all levels within their Components, that the personnel
                and organizations under their cognizance are qualified to perform their
                Mission Essential Tasks (METs) to established competency and
                proficiency standards.

DOD Instruction 3000.05, “Stability Operations,” September 16, 2009.
This Instruction provides guidance on stability operations. This guidance will evolve over
time as joint operating concepts, mission sets, and lessons learned aid in further
development of DOD policy and assignment of responsibility for the identification and
development of DOD capabilities to support stability operations.

USFORSCOM Message: Subject/2008 Revised Transition Team
Training Guidance, March 2008. This message provides updated training
guidance for transition teams deploying in support of operations in Southwest Asia. This
document replaces the former Iraq Assistance Group training guidance DTG 182148Z Jan
07 and aligns previous guidance for transition teams deploying to Southwest Asia with
USFORSCOM training guidance for follow on forces deploying in support of operations in
Southwest Asia. This message directs that all transition team personnel are to conduct pre-
deployment training in accordance with this message.




                                                    41
USFORSCOM Message: Subject/Specified Training Requirements for
Advisory Teams and In Lieu of (ILO) Elements, January 2010. This
message describes modifications to task organization and training for deploying brigades
providing advisory teams, transition teams, and provincial reconstruction teams resulting
from the recent shift in emphasis on the security force assistance mission in Iraq and
Afghanistan.

USFORSCOM Message: Subject/FORSCOM Predeployment Training
Guidance for Follow-On Forces Deploying in Support of Southwest
Asia (SWA), May 2010. This message provides a stand-alone document which does
not require referencing prior messages, and incorporates requirements and procedures
identified in Headquarters, Department of the Army Execution Order 150-08, Subject:
“Reserve Component Deployment Expeditionary Force Pre and Post-Mobilization
Training Strategy.” It is used to guide development of unified and collaborative reserve
component pre-deployment training plans.

Joint Center for International Security Force Assistance, “How the
Iraqi Army Operates (Edition 3),” September 2009. This document provides
U.S. military transition teams and units partnered with Iraqi forces a baseline reference to
processes and procedures integral to the Iraqi Army. It attempts to connect “theory” to
“practice” by providing a means by which transition teams and partner units can
differentiate between how things are supposed to be done and how they are being done.
The book does not address procedures internal to the transition teams, partner units, or
their chains of command.

ITAM-Logistics, “Ministry of Interior Advisor Logistics Handbook (2010
Edition),” November 23, 2009. This document provides a “How To” guide in the
areas of supply, maintenance, and fuel for the MoI.

Pre-Deployment and In-Country Training for U.S. Logistics
Mentors/Trainers
For the U.S. to fully utilized the relatively short time left until the USF-I end of mission in
December 2011 to further develop the logistics sustainment base of the ISF, it is
imperative for U.S. logistics mentors and trainers to arrive in-country fully prepared to
execute their mission. To minimize the on-the-ground learning curve, the pre-deployment
training program should be integrated and coordinated across the multiple venues and
organizations responsible for preparing U.S. mentors and trainers to deploy.

However, discussions with U.S. logistics mentors and trainers in the Advise and Assist
Brigades, the Logistics Military Advisory Teams (LMATs) and the A&T command
indicated that they had received varying degrees of training on the ISF logistics system
prior to their deployment to Iraq. They indicated that the instruction received through
training classes and doctrinal publications did not flow well and was spread out over time
in bits and pieces, resulting in the training seeming disjointed and ineffective.




                                              42
The various reported training venues included:

   •   Compact discs received at home station that had documents detailing the ISF
       logistics systems.
   •   The option of choosing a day-long training session on ISF logistics systems while
       participating in unit/team training for mentors and trainers conducted by the 162nd
       Infantry Training Brigade at Ft. Polk, LA.
   •   Discussions on ISF logistics systems during training sessions conducted by 162d
       Infantry Training Brigade mobile training teams from Ft. Polk, LA.
   •   Compact discs with briefings and documents provided in Kuwait from the Iraq
       Training Assistance Mission.
   •   In-country training at the Counterinsurgency Special Operations Center at Taji.
   •   Relief in Place/Transfer of Authority discussions with outbound logistics
       mentors/trainers.

Doctrinal publications and briefings regarding ISF logistics systems that provide a basis
for ISF logistics pre-deployment training included:

   •   “Iraq Training and Advisory Mission Ministry of Interior Advisor Logistics
       Handbook,” 2010 Edition, November 23, 2009,
   •   “Ministry of Defense Joint Headquarters (JHQ) DCOS LOG Materiel Circulation
       Processes,” October 1, 2009 (English version)
   •   Briefing by the ISF Strategic Logistics Directorate, “MoD/JHQ
       Planning/Budget/Requirements Annual Cycle,”
   •   MoD Contracting and FMS processes flow charts,
   •   Director of Infrastructure for the MoI letter describing the MoI supply chain,
   •   Iraq Training Assistance Mission Briefing describing the MoI Logistics
       Distribution Network,
   •   “How the Iraqi Army Operates,” Edition 3, Chapter 6—Logistics,
   •   Briefing by U.S. Federal Police Transition Team, “Sustainment Brigade &
       Sustainment Operations,” April 1, 2010,
   •   Briefing by ITAM, “Ministry of Interior Concept of Support,” undated and,
   •   Briefing by ITAM, “Maintenance Support Vehicles & Weapons (MoI),” undated.

A cohesive program of instruction that integrates and coordinates the various training
venues and publications on the ISF logistics systems can help reduce the on-the-ground
learning curve for U.S. logistics mentors and trainers.




                                             43
Recommendations, Client Comments, and Our Response
10. Commander, United States Forces-Iraq, in coordination with the Deputy Commanding
General for Advising and Training, United States Forces–Iraq, United States Central
Command, and United States Army Forces Command, take steps to develop an integrated
and cohesive program of instruction on the logistics systems of the Iraq Security Forces
that can be provided at unit home stations prior to deployment.

Client Comments
USF-I concurred with this recommendation.

Our Response
USF-I comments were responsive. We request that Commander, USF-I, provide the OIG a
summary of actions taken to implement this recommendation.




                                            44
Part III – Ministry of Defense and the Iraqi
Military
This section contains a series of observations and recommendations concerning the
Ministry of Defense (MoD), MoD Joint Headquarters, and the Iraqi Army, Navy, and Air
Force.




                                         45
Observation 11. Warehouse Management at the Joint
Repair Parts Command at Taji
U.S. efforts to establish an effective warehouse management system for repair parts at the
Joint Repair Parts Command (JRPC) at Taji National Depot (TND) was in jeopardy and
U.S. mentor expertise and oversight capability will be degraded due to the pending
departure of both military officers and DOD civilians in October 2010 and the absence of
plans to replace them.

In addition to failing to complete the development of a national warehousing system for
repair parts and other supplies, the absence of those U.S. mentors could result in the loss of
positive oversight of millions of dollars of inbound and on-hand repair parts purchased
with ISFF that require inventory and warehousing.

Applicable Criteria
22 U.S.C. § 2403: U.S. Code - Section 2403: Definitions. Defines "defense
article" in subsection (d) (3) to include, among other things:

               any machinery, facility, tool, materiel supply, or other item
               necessary for the manufacture, production, processing repair,
               servicing, storage, construction, transportation, operation, or use
               of any article listed in this subsection.


DOD Instruction 3000.05, “Stability Operations,” September 16, 2009.
This Instruction provides guidance on stability operations. This guidance will evolve over
time as joint operating concepts, mission sets, and lessons learned aid in further
development of DOD policy and assignment of responsibility for the identification and
development of DOD capabilities to support stability operations.

National Defense Authorization Act for Fiscal Year 2008 (Public Law
110-181), January 28, 2008. Section 1228 of the Act sets forth the requirements for
the tracking and monitoring of defense articles provided to the Government of Iraq.

DOD Instruction 4140.66, “Registration and Monitoring of Defense
Articles,” October 15, 2009. This document establishes policy, assigns
responsibility, and sets forth procedures in accordance with section 1228 of Public Law
110-181 to certify the establishment of a registration and monitoring system for controlling
the export and/or transfer of defense articles to specified countries and/or to other groups,
organizations, citizens, or residents of those countries.

Defense Logistics Agency’s Roles and Responsibilities
The DLA advisory team at Taji provided training and mentoring support to establish an
effective warehouse management system within ISF for Class IX materiel at the National
Depot level. The advisory team, composed of one military officer and two civilian subject
matter experts, in coordination with A&T and the IA, were developing a comprehensive 5-


                                                   47
year plan to establish a new supply and distribution center at Taji, which included facilities
design, distribution process management systems, new technology recommendations, stock
positioning strategies, stocking and picking management, material handling equipment
operation, and maintenance and safety procedures.

As part of the 5-year plan, several warehouses that had been left by the old IA were being
refurbished for use, and new warehouses were being built, most of which were expected to
be completed and stocked with critical parts by November 2010.

The U.S. advisory team had successfully completed a joint, 100 percent inventory of all
repair parts stored in the existing warehouses; however, there were numerous parts and
supplies that were not stored inside the warehouses, but rather outside in connex boxes or
totally unprotected. At the time of our assessment, there were an estimated 500 connexes
of parts that required inventory and proper warehouse storage and accountability. The
DLA team subsequently reported that an actual inventory of those parts had been competed
at the end of June 2010.

As warehouse space became available through ongoing construction, the DLA team
planned to work with their IA counterparts to determine which parts were critical and
move them from the connexes and open-air storage areas into the new warehouse spaces.
The team was also making progress in helping the Iraqis to establish and expand the Iraqi
Asset Management Program database, an automated program for managing vehicle
maintenance and Class IX repair parts inventory.

Critical Need for U.S. Support
It was evident that the establishment of an effective and sustainable warehouse
management system at Taji’s JRPC depot, including the appropriate training of IA
personnel, depended upon continued advisory support by the DLA team. However, the
DLA team was scheduled to redeploy back to the U.S. in September and December 2010,
and there were no plans to replace them.

Without an effective system at the JRPC national depot and the ability to effectively
manage repair parts inventory, medium and field-level workshops supporting IA divisions
will not be supplied with necessary vehicle repair parts--exacerbating an existing problem-
-that could lead to chronically low readiness levels for IA vehicles and weapons systems.

U.S. Government Oversight Requirements
As per the National Defense Authorization Act for Fiscal Year 2008, the U.S. Government
is responsible for tracking and monitoring Defense articles provided to the GoI. Section
1228 of the Act states:

               (C) REGISTRATION AND MONITORING SYSTEM – The registration
               and monitoring system required under this subsection shall
               include –
               (4)      the registration of the serial numbers of all small arms
               to be provided to the Government of Iraq or to other groups,
               organizations, citizens, or residents of Iraq;



                                                   48
              (5)       a program of end-use monitoring of all lethal defense
              articles provided to such entities or individuals; and
              (6)       A detailed record of the origin, shipping, and
              distribution of all defense articles transferred under the Iraq
              Security Forces Fund or any other security assistance program
              to such entities or individuals.

The DLA advisory team at the JRPC at Taji was essential in providing the oversight
required by U.S. law, and by DODI 4140.66. Its pending departure, with no backfill
provided by either DLA or the U. S. Army Materiel Command, will weaken U.S. oversight
of ISFF-provided repair parts and their timely distribution to lower-level depots and line
units of the IA, and could have damaging consequences.

Recommendations, Client Comments, and Our Response
 11.a. Deputy Commanding General for Advising and Training, in coordination with the J4,
 United States Forces-Iraq, determine the requirement for continuing oversight and training
 assistance at the Joint Repair Parts Command through December 2011, ensuring that necessary
 external assistance is provided.

Client Comments
USF-I concurred with this recommendation.

Our Response
USF-I comments were responsive. We request that DCG, A&T, USF-I, provide the OIG
with details of the actions taken to assign qualified personnel to provide oversight and
training assistance at the JRPC.



 11.b. Commander, Army Materiel Command, provide advisory assistance as required and
 requested by the J-4, United States Forces-Iraq and/or the Deputy Commanding General for
 Advising and Training), United States Forces–Iraq, to support the development of the Joint
 Repair Parts Command at Taji National Depot through United States Forces-Iraq’s end of
 mission in December 2011.

Client Comments
Commander, AMC, did not respond to the draft report requesting management comments

Our Response
We ask that Commander, AMC, respond to the final report.




                                                 49
Observation 12. Availability of Critical Repair Parts
While the total requirement for various types of repair parts in the IA constituted several
thousand line items, there were indications that a reliable supply of as few as 50 lines of
repair parts used to maintain critical vehicle and weapons systems could reduce the
maintenance backlog by a significant factor.

The shortage of critical repair parts occurred because the Iraqi logistics officers at the JHQ
had not analyzed which types of critical parts were most in demand or the minimum
inventory of critical parts required to maintain operational readiness at an acceptable level.

Completion of that analysis and the implementation of the resulting strategy could provide
a more manageable way ahead for significantly increasing and maintaining readiness of
critical equipment at a relatively modest cost and quickly increase confidence in the
capability of the Medium Workshops. Additionally, establishing a functional direct
exchange system at the JHQ EME Level 3 Maintenance Medium Workshops for key repair
components could further increase operational readiness rates.


Applicable Criteria
DOD Instruction 3000.05, “Stability Operations,” September 16, 2009.
This document provides guidance on stability operations that will evolve over time as joint
operating concepts, mission sets, and lessons learned develop and establishes DOD policy
and assigns responsibilities for the identification and development of DOD capabilities to
support stability operations.

Joint Center for International Security Force Assistance, “How the
Iraqi Army Operates (Edition 3),” September 2009. This document provides
transition teams and organizations partnered with Iraqi forces with a baseline reference to
processes and procedures integral to the Iraqi Army. It attempts to connect “theory” to
“practice” by providing a means by which transition teams and partner units can
differentiate between how things are supposed to be done and how they are being done.

Ministry of Defense Joint Headquarters (JHQ), “DCOS LOG Materiel
Circulation Processes,” October 1, 2009. Chapter 6 describes the mission and
function of the Directorate of Electrical and Mechanical Engineering and the processes and
procedures for maintenance in the Iraqi Armed Services. Chapter 8–Iraqi Logistics
Operations Center (ILOC) (DRAFT). The ILOC serves as a Strategic Level Logistics
Operations Center for the collection and distribution of logistics information from the Iraqi
Ground Forces Command, Iraqi Air Force, Iraqi Naval Command and relevant Operational
Centers, and provides viable analysis to the JHQ in order to assist the decision-making
process.

Center for Army Lessons Learned Handbook 10-08, “Partnership:
Development of Logistics Capabilities,” November 2009. This handbook


                                              51
was developed by former Multi-National Corps-Iraq and the former Iraq Assistance Group
logistics staffs to present partnering considerations in developing a fundamental base for a
self-sustaining host nation security force.

American Embassy–Baghdad and Multi-National Force–Iraq, 2010
Joint Campaign Plan, November 23, 2009. Appendix 1 to Annex J, ISF
Logistics–Transition to Self-Sustaining Capability contains the logistics concept,
conditions, and objectives of the Security Line of Operation and directs tasks that must be
accomplished for the ISF to become self sustaining. As the Line of Operations contributor,
USF-I J4 is responsible for ensuring that these tasks remain relevant as conditions change.

Unreliable Supply of Repair Parts
The U.S. Logistics Military Advisory Team (LMAT) supporting the Numaniyah Location
Command, a regional support depot, and the Medium Workshop located there, completed a
study of repair parts usage rates and determined that, of the several thousand types of
repair parts (lines) needed to support the diverse fleet of IA vehicles, a reliable supply of
just 50 specific repair parts could cut the not mission capable rate by about 42 percent and
that a reliable supply of only 15 specific lines could cut the “not mission capable” rate by
as much as 33 percent.

U.S. trainers estimated that the IA’s Joint Repair Parts Command stocked about 19,000
line items throughout its logistics system and of those, 3,000 were considered critical
items. However, those 3,000 lines were all at zero balance and, therefore, unavailable for
distribution to the IA units. The Joint Repair Parts Command received over 11,000
requests for the critical parts represented by the 3,000 lines by March 2010, but has had to
return the requests without being filled because the parts were not available in its
inventory.

Direct Exchange System for Repair Parts
The LMAT at Numaniyah also reported that the Medium Workshop had developed a direct
exchange system since it did not receive sufficient quantities of repair parts for critical
vehicles such as HMMWVs. By purchasing certain materiel on the local market (e.g.,
asbestos, wiring, glue), the mechanics at the Numaniyah Medium Workshop were able to
refurbish HMMWV brake shoes and rebuild starters. That simple direct exchange system
has proven popular with IA-supported units, as they can bring in unserviceable, but
repairable HMMWV brakes and starters and receive a serviceable replacement part right
away. As HMMWV brakes and starters were often the reason for a “not mission capable”
status, that direct exchange system has served to increase the operational readiness of
HMMWVs in Army units supported by the Numaniyah Medium Workshop.




                                             52
Recommendations, Client Comments, and Our Response
12. Deputy Commanding General for Advising and Training, United States Forces-Iraq:
     a. Coordinate with the Ministry of Defense Joint Headquarters Deputy Chief of Staff
for Logistics to identify a near-term source of a reliable supply of high impact repair parts
for critical equipment and mentor the establishment of such a supply system within the ISF
logistics area.
     b. Coordinate with the Ministry of Defense Joint Headquarters, Deputy Chief of Staff
for Logistics, to establish and fund a direct exchange system at the Medium Workshops for
brakes and starters and other high use components.

Client Comments
USF-I concurred with these recommendations.

Our Response
USF-I comments were responsive. We request that DCG, A&T, USF-I, specify what steps
have been or will be taken to identify a reliable supply of high impact repair parts for
critical equipment and to establish a direct exchange system at the ISF’s Medium
Workshops.




                                             53
Observation 13. Ministry of Defense Fuel Supply System
Disincentive
IA Division Commanders were not sending their broken-down vehicles to 3rd and 4th line
maintenance repair; instead, they tended to keep the unserviceable vehicles on-hand at
their divisions.

This occurred because the MoD fuel supply policy, which provided fuel to IA Division
Commanders on the basis of the quantity and types of vehicles listed on their property
books at any given time, acted as a disincentive for Commanders to send their vehicles out
for maintenance repair because the Commander lost the fuel allocation while the vehicle
was out for repair.

As a result, the MoD fuel supply policy contributed to the likelihood that the IA vehicle
fleet would fall into increasing disrepair and lower operational readiness.

Applicable Criteria
Joint Center for International Security Force Assistance, “How the
Iraqi Army Operates (Edition 3),” September 2009. This document provides
transition teams and organizations partnered with Iraqi forces with a baseline reference to
processes and procedures integral to the Iraqi Army. It attempts to connect “theory” to
“practice” by providing a means by which transition teams and partner units can
differentiate between how things are supposed to be done and how they are being done.

Iraqi Army Fuel Voucher Process
The Joint Center for International Security Force Assistance publication, “How the Iraqi
Army Operates”, states the following in regards to the fuel voucher process:

               Fuel authorizations are not produced as a result of forecasting
               operational tempo and requirements. Fuel authorizations are
               produced based on a unit’s equipment density. Each unit will be
               authorized the same amount of fuel per month based on the
               quantity and type of equipment they possess. This system may
               cause units to fail to report damaged vehicles or code out
               destroyed vehicles to prevent losing the fuel allocations.

Equipment fuel authorizations were as follows:

   •   Motorized vehicles – 30 Liters
   •   Heavy motorized vehicles – 30 Liters
   •   Armored vehicles – 40 Liters
   •   Generators – 20 to 400 Liters (depending on size)

Effects of Fuel Voucher Process
Several IA Commanders expressed their concern and frustration with the MoD system of
fuel allocation. One Division Commander stated that he was hesitant to turn-in damaged


                                                 55
vehicles to the Location Command or Taji for maintenance because he would lose the fuel
allocation for that vehicle, and he rarely received enough fuel to operate all of his vehicles
anyway. He was also reluctant because he feared the vehicle would never be returned from
the maintenance facility. As a consequence, he said he would rather keep unusable
vehicles than be deprived of his fuel allotment and risk losing the vehicles forever.

Another Location Commander echoed similar sentiments. He was allotted 20 liters of fuel
per day per vehicle, but if he sent a vehicle to a higher level maintenance facility, he would
not receive any fuel for that vehicle until it was returned. He believed it was more
advantageous to keep unserviceable vehicles in order to continue receiving full fuel
allocations and have enough fuel to operate the rest of his fleet. He also expressed concern
about ever getting his vehicles back from the maintenance facility.

U.S. mentors were working diligently with their IA and MoD counterparts to overcome the
pervasive lack of confidence evident in the Army’s maintenance system. This has proven
difficult, however, in part due to the fuel allocation disincentive. Without a change to
MoD policy regarding the allocation of fuel to Army units, location and division
commanders can be expected to continue to hold their vehicles needing higher level
maintenance. The effect over time has been a degradation in vehicle operational readiness,
which has not been accurately conveyed in unit readiness reporting.

Recommendations, Client Comments, and Our Response
 13. Deputy Commanding General for Advising and Training, United States Forces–Iraq, advise
 and mentor the Ministry of Defense to develop a more effective system of fuel forecasting and
 allocation to the Iraqi Army divisions based on operational tempo and mission requirements in
 order to remove the disincentive to evacuate vehicles to higher-line maintenance facilities.

Client Comments
USF-I concurred with this recommendation.

Our Response
USF-I comments were responsive. We request that DCG, A&T, USF-I, identity the steps
that have been or will be taken to assist the MoD in developing a more effective system of
fuel forecasting and allocation to the Iraqi Army divisions.




                                             56
Observation 14. Acquisition Cross Servicing Agreement
The DOD did not have an Acquisition Cross-Servicing Agreement (ACSA) in place with
the MoD to facilitate any logistics assistance required by the GoI after end-of-mission in
December 2011.

This occurred because, as of the time of the assessment visit in March 2010, senior
officials in the Ministry of Defense were unwilling to sign an ACSA with the DOD.

As a result, U.S. forces may inadvertently provide certain types of logistics support
without appropriate authority, and ISF security operations could be interrupted in the
future due to the lack of U.S.-supplied logistics support.

Applicable Criteria
DOD Directive 2010.9, “Acquisition and Cross-Servicing Agreements,”
April 28, 2003. The directive updates policy for the acquisition from and transfer to
authorized foreign governments logistics support, supplies, and services.

Chairman of the Joint Chiefs of Staff Instruction 2120.01A,
“Acquisition and Cross-Servicing Agreements,” November 27, 2006.
This instruction provides policy and procedural guidance concerning the use of the legal
ACSA authorities contained in Sections 2341-2350 of title 10, United States Code. This
guidance is directed to the combatant commands (including USCENTCOM) and Defense
agencies reporting to the Secretary of Defense through the Chairman of the Joint Chiefs of
Staff. It also summarizes the responsibilities of the Office of the Secretary of Defense, and
the Military Departments.

Necessity for Acquisition and Cross Servicing Agreement with
the Government of Iraq
It is DOD policy that its Components are authorized to acquire, and in some cases to
provide, logistics support, supplies, and services directly from or to eligible countries and
international organizations.

USCENTCOM has been coordinating with USF-I pursuant to concluding an ACSA with
the GoI for ISF logistics support. The ACSA is the baseline document that would facilitate
future development of additional logistics arrangements between DOD and the ISF through
a Memorandum of Understanding or Memorandum of Agreement. The ACSA is worked
through three standard transaction vehicles:

   •   Replacement in kind – repayment by providing the same kind of logistics support,
   •   Currency – direct payment for services rendered, and
   •   Equal Value Exchange – repayment by another type of equal value logistics
       support.




                                              57
In the past, MoD received logistics support through U.S. funding sources, such as ISFF,
utilizing MNSTC-I/A&T-orchestrated direct purchases or pseudo-FMS cases -- applying
the FMS system, but with U.S. financing. Thus far, MoD has demonstrated little interest
in finalizing an ACSA, according to USF-I A&T officers. However, because ISFF is
likely to end, the GoI appears to be more interested in reaching an agreement. An ACSA
bilateral agreement with the GoI would be in line with USF-I A&T efforts to wean MoD
off of U.S.-funded support and incentivize it to become more self-reliant.

USCENTCOM indicated that its authority was delegated to Multi-National Force-Iraq
(now USF-I) in 2008 to reach an ACSA with the GoI. According to USCENTCOM, there
were several delays in the negotiations and two signature ceremonies to date had been
cancelled by the Iraqis for unknown reasons.

Recommendations, Client Comments, and Our Response
 14. Commander, United States Forces-Iraq, in coordination with the Deputy Commanding
 General for Advising and Training, the U.S. Mission Baghdad, and U.S. Central Command,
 complete negotiations with the current or next government and sign an Acquisition Cross
 Servicing Agreement with the Ministry of Defense prior to United States Forces-Iraq end of
 mission on December 31, 2011.

Client Comments
USF-I concurred with this recommendation.

Our Response
USF-I comments were responsive. We request that Commander, USF-I, forward to the
OIG a copy of the signed Acquisition Cross Servicing Agreement once completed.




                                            58
Observation 15. The Joint Base Workshop at Taji
National Depot
Several logistics system deficiencies existed at the Joint Base Workshop (JBW) at Taji
National Depot, including:

   •   No electric power for the equipment in the Small Arms Workshop,
   •   Hydraulic fabrication/test equipment for the M1A1 not approved or cleared for use,
   •   Track workshop equipment held up in customs at border entry points, and
   •   Need for more detailed training on equipment use.

Those deficiencies occurred because of:

   •   An incorrectly written or poorly executed contract that provided electrical power to
       the junction box on the side of the building housing the Small Arms Workshop, but
       did not wire the building itself.
   •   Pending decisions regarding the location of the M1A1 tank depot-level
       maintenance facility.
   •   Lack of coordination and paperwork/tariff fee issues at the border entry points.
   •   A tendency of the IA staff on location to rely on the U.S. advisors and mentors for
       training, rather than determining their own needs and funding it themselves.

Those issues caused the Joint Base Workshop to be less than fully effective and led to
operational readiness issues across the IA that could worsen in the future.

Applicable Criteria
DOD Instruction 3000.05, “Stability Operations,” September 16, 2009.
This DODI provides guidance on stability operations that will evolve over time as joint
operating concepts, mission sets, and lessons learned develop and establishes DOD policy
and assigns responsibilities for the identification and development of DOD capabilities to
support stability operations.

The Joint Base Workshop at Taji National Depot
The JBW was comprised of two depots: the wheel depot and the track depot. Together,
they provided the 4th line maintenance (depot level) capability of the IA.

The wheel depot, transferred to Iraqi control in December 2009, consisted of eight
rebuild/overhaul facilities focused on HMMWVs and 5-ton vehicles:

   •   Vehicles were disassembled in the main wheel facility,
   •   Components were sent to subordinate shops for overhaul or rebuild,
   •   Vehicle components were returned to the main wheel for reassembly, and
   •   Vehicles were returned to the unit or ready for re-issue through the supply system.


                                            59
Maintenance output in the wheel depot was evaluated as still weak. A major issue was the
lack of availability of HMMWV repair parts for the wheel production line, as well as other
critical spare parts.

The track depot consisted of 12 rebuild/overhaul facilities focused on BMP-1s (Soviet-era
armored personnel carriers) and T-72 tanks:

   •   Vehicles were disassembled in the disassembly facility,
   •   Components were sent to subordinate shops for overhaul or rebuild,
   •   Vehicle components were sent to reassembly for reassembly, and
   •   Vehicles were returned to the field unit or tagged for re-issue through the supply
       system.

The JBW commander indicated that the track depot represented his biggest challenge.
MoD has been paying salaries of over $1M per month to staff the JBW, but production of
repaired/refurbished/rebuilt T-72 tanks was zero. The JBW commander also indicated that
he did not have adequately trained personnel. His maintenance personnel were
insufficiently trained on the available equipment and had received no training on the
equipment that was due in. On-site training at Taji for the track depot equipment,
especially repair equipment for the Iraqi M1A1 tanks, was needed, according to the JBW
Commander. (U.S. advisors stated that they were not trained to operate all of the
equipment in the track depot and had offered to assist MoD with contracting for additional
training.)

MoD had not decided where the 4th line (depot level) M1A1 maintenance should be based.
The JBW commander made a strong recommendation that the facility be established at
Taji in the JBW. There were two hydraulic test/fabrication stands for the M1A1 already in
the JBW Track Workshop, although not yet connected to electrical power and without
trained IA personnel to operate them. U.S. contractors present at the track workshop
indicated they had connected the equipment twice already but were then told to disconnect
it. Contractor support for those two test/fabrications stands ended in May 2010.

Site personnel indicated that there was some maintenance equipment delayed at the border
pending payment of tariffs. The USF-I J-4 was aware of the problem and was coordinating
with the contractor to pay the tariffs so the equipment could enter the country and be
installed at the depot. But, reportedly, that had been a recurring problem.

In addition to the wheel and track depots, there were four repair facilities that provided the
following 3rd line (direct support) level repair:

   •   Ground Support Equipment,
   •   Generator Shop, and
   •   Small Arms.




                                              60
The small arms shop had no electrical power. The contract let by U.S. Army Corps of
Engineers ran power up to the junction box on the building, but did not wire the building
itself. The Iraqis had 4,000 unserviceable and/or captured enemy weapons ready to be de-
militarized, but no power to do it.

Recommendations, Client Comments, and Our Response
 15.a. Director, Logistics (J-4), United States Forces-Iraq:
       (1) Coordinate with U.S. Army Corps of Engineers to complete installation of power
from the junction box on the outside of the small arms workshop building to the equipment
inside.

Client Comments
USF-I partially concurred with this recommendation, noting that the U.S. Government had
identified existing deficiencies that were preventing the full commissioning of the Small
Arms Repair Facility. Due to delays caused by changing priorities, incomplete Corps of
Engineers infrastructure modifications, and unrealized requirements for installed
equipment, additional work was needed to bring the facility to initial operating capacity in
accordance with the Statement of Work.

The contract will, therefore, be modified to complete electrical repairs, equipment
installation, and commissioning efforts to bring the Small Arms Repair Facility up to a
fully functional Level Four Maintenance facility, with all the proposed modifications being
within the scope of the contract. A full proposal is expected no later than October 31,
2010, and Tier 1 repairs and training are projected to be complete by December 31, 2010.

Our Response
USF-I comments were responsive. We request that USF-I J4 forward to the OIG the
approved contract modifications for the Small Arms Repair Facility.

 15.a. Director, Logistics (J-4), United States Forces-Iraq:
        (2) In coordination with the Ministry of Defense and, if appropriate, the U.S. Department
 of State, determine the final location for the depot maintenance facility for the Iraqi Army M1A1
 tank and, if not at Taji, coordinate with the Iraqi Army for the removal of the M1A1 hydraulic
 fabrication/test equipment to the new designated location.
        (3) In coordination with the appropriate contracting office, ensure that contractors, or
 other responsible parties, pay the customs on the Joint Base workshop equipment held at border
 entry points.

Client Comments
USF-I concurred with these recommendations, noting that all customs-related payments
have been paid by the current contractor resulting in the delivery of equipment needed to
complete installation at the Joint Base Workshop.


                                             61
Our Response
USF-I comments to Recommendation 15.a.(2) were not responsive in that the USF-I J4 did
not indicate if a final location had been chosen for IA M1A1 tank depot maintenance. Nor
was the status of the M1A1 hydraulic fabrication/test equipment resolved.

USF-I comments to 15.a.(3)were responsive and no further action is required.

15.b. Deputy Commanding General for Advising and Training, United States Forces-Iraq,
coordinate with the U.S. logistics advisors at Taji National Depot, the Joint Base Workshop
Commander, and with the Ministry of Defense to determine and make arrangements for any
additional training necessary for Iraqi Army personnel to be able to effectively operate Joint
Base Workshop equipment.

Client Comments
USF-I concurred with this recommendation. USF-I (J4), in conjunction with the Strategic
Logistics Directorate and Army Materiel Command and approved by Commander, Joint
Base Workshop, have developed and implemented a train-the-trainer concept for the
Wheel Depot to build a foundational capability.

Our Response
USF-I comments were responsive. We request that DCG, A&T, USF-I, forward to the
OIG the Program of Instruction for the train-the-trainer program at the JBW Wheel Depot.




                                            62
Observation 16. The Iraqi Asset Management Program
and On-Hand Inventory of Repair Parts at the Medium
Workshops
The Iraqi Asset Management Program (IAMP) database did not accurately reflect on-hand
inventory of repair parts at the Medium Workshops and failed to provide accurate visibility
to the Joint Repair Parts Command (JRPC), the JHQ, and the MoD, due to a lack of
training on using the IAMP and a distrust of automation, in general. There was also a
general reluctance to allow external organizations insight into what repair parts were on
hand at the Medium Workshops.

Failure to adequately manage the on-hand inventory of repair parts across the IA
maintenance system can result in increased spending by buying parts that may already be
on hand, increased warehousing costs, and possible loss, if excess parts must be stored
outside. Furthermore, such mismanagement will ultimately result in a further decrease in
the operational readiness of critical IA vehicles and systems.

Applicable Criteria
DOD Instruction 3000.05, “Stability Operations,” September 16, 2009.
This Instruction provides guidance on stability operations. This guidance will evolve over
time as joint operating concepts, mission sets, and lessons learned aid in further
development of DOD policy and assignment of responsibility for the identification and
development of DOD capabilities to support stability operations.

Joint Center for International Security Force Assistance, “How the
Iraqi Army Operates (Edition 3),” September 2009. This document provides
transition teams and organizations partnered with Iraqi forces with a baseline reference to
processes and procedures integral to the Iraqi Army. It attempts to connect “theory” to
“practice” by providing a means by which transition teams and partner units can
differentiate between how things are supposed to be done and how they are being done.

Ministry of Defense Joint Headquarters (JHQ), “DCOS LOG Materiel
Circulation Processes,” October 1, 2009. Chapter 6 describes the mission and
function of the Directorate of Electrical and Mechanical Engineering and the processes and
procedures for maintenance in the Iraqi Armed Services. Chapter 8–Iraqi Logistics
Operations Center (ILOC) (DRAFT). The ILOC serves as a Strategic Level Logistics
Operations Center for the collection and distribution of logistics information from the Iraqi
Ground Forces Command, Iraqi Air Force, Iraqi Naval Command and relevant Operational
Centers, and provides viable analysis to the JHQ in order to assist the decision-making
process.

Center for Army Lessons Learned Handbook 10-08, “Partnership:
Development of Logistics Capabilities,” November 2009. This handbook
was developed by former Multi-National Corps-Iraq and the former Iraq Assistance Group



                                             63
logistics staffs to present partnering considerations in developing a fundamental base for a
self-sustaining host nation security force.

American Embassy–Baghdad and Multi-National Force–Iraq, 2010
Joint Campaign Plan, November 23, 2009. Appendix 1 to Annex J, ISF
Logistics–Transition to Self-Sustaining Capability contains the logistics concept,
conditions, and objectives of the Security Line of Operation and directs tasks that must be
accomplished for the ISF to become self sustaining. As the Line of Operations contributor,
USF-I J4 is responsible for ensuring that these tasks remain relevant as conditions change.

The Iraqi Asset Management Program
The Medium Workshops (3rd line maintenance) were connected to the JRPC at Taji (4th
line maintenance) over the internet-based IAMP program. The Field Workshops (2nd line
maintenance) provided data to the Medium Workshops by compact disc. Although the
Iraqis chose IAMP as the solution to repair parts and vehicle maintenance management in
the IA, they were not yet confident in the system. They had not entered all on-hand repair
parts and status of vehicles into the system and did not understand exactly how the system
worked. For example, when they ordered a part in IAMP, it went to the JRPC. If the
JRPC had it in stock, the part was made available for the Medium Workshop to pickup.
However, if the part was not available at JRPC, the IAMP program would return the
request to the Medium Workshop, where it must be acted on within 7 days through local
purchase or IAMP essentially put it in the dead box. Iraqi operators at some of the
Medium Workshops did not understand that aspect of IAMP and failed to follow through
on local purchases. Consequently, they thought their order just disappeared from the
system.

Although the implementation of IAMP across the IA demonstrates progress from just two
years ago, the system is only as good as the data entered into it. With help from U.S.
trainers, progress was being made at the JRPC in that regard. However, the Medium
Workshops had not all entered their inventory of repair parts into IAMP, despite direction
from logistics officials at the JHQ to do so.

Recommendations, Client Comments, and Our Response
 16. Deputy Commanding General for Advising and Training, United States Forces-Iraq
 coordinate with the Ministry of Defense Joint Headquarters Director of Electrical and
 Mechanical Engineering for a Ministry of Defense Joint Headquarters team to verify on-hand
 repair parts inventory at the Medium Base Workshops and to enter inventory data into the Iraqi
 Asset Management Program.

Client Comments
USF-I concurred with this recommendation.




                                             64
Our Response
USF-I comments were responsive. We request that DCG, A&T, USF-I, provide the OIG
with details of the actions taken to verify the repair parts inventory at the Medium Base
Workshops and to enter inventory data into IAMP.




                                            65
Observation 17. Location Commands—Al Asad and
Numaniyah
Location Commands (LCs) at Al Asad and Numaniyah were not being effectively utilized.
The Al Asad LC was fully built-out and manned, but was still not operational since there
were no supplies, including fuel, stored there. The warehouses were nearly empty. The
Numaniyah LC was fully operational and manned. The warehouses had the appropriate
categories of supplies and the fuel farm had fuel. However, the Numaniyah LC rarely
received requests for supplies from the 8th IA Division, the unit it supported.

According to interviews with U.S. advisors and IA personnel, the supported army divisions
often sought and received support from Taji (in some cases over 100 miles away), rather
than from their supporting LC, which was often on the same installation as the division
headquarters or within the same area.

That condition was most likely caused by the highly centralized organization of the IA and
its logistics support system, which mitigated against unity of effort between and among
operational line units and supporting logistics depots. In addition, the LCs and IA
divisions resided within two separate chains of command, which served to impede
coordination and cooperation in an effort to address and solve logistics problems.

Those inefficiencies contributed to decreased supply system responsiveness and decreased
logistics readiness for the operational IA divisions.

Applicable Criteria
DOD Instruction 3000.05, “Stability Operations,” September 16, 2009.
This Instruction provides guidance on stability operations. This guidance will evolve over
time as joint operating concepts, mission sets, and lessons learned aid in further
development of DOD policy and assignment of responsibility for the identification and
development of DOD capabilities to support stability operations.

Joint Center for International Security Force Assistance, “How the
Iraqi Army Operates (Edition 3),” September 2009. This document provides
transition teams and organizations partnered with Iraqi forces with a baseline reference to
processes and procedures integral to the Iraqi Army. It attempts to connect “theory” to
“practice” by providing a means by which transition teams and partner units can
differentiate between how things are supposed to be done and how they are being done.

Ministry of Defense Joint Headquarters (JHQ), “DCOS LOG Materiel
Circulation Processes,” October 1, 2009. Chapter 6 describes the mission and
function of the Directorate of EME and the processes and procedures for maintenance in
the Iraqi Armed Services. Chapter 8–Iraqi Logistics Operations Center (ILOC) (DRAFT).
The ILOC serves as a Strategic Level Logistics Operations Center for the collection and
distribution of logistics information from the Iraqi Ground Forces Command, Iraqi Air




                                             67
Force, Iraqi Naval Command and relevant Operational Centers, and provides viable
analysis to the JHQ in order to assist the decision-making process.

Center for Army Lessons Learned Handbook 10-08, “Partnership:
Development of Logistics Capabilities,” November 2009. This handbook
was developed by former Multi-National Corps-Iraq and the former Iraq Assistance Group
logistics staffs to present partnering considerations in developing a fundamental base for a
self-sustaining host nation security force.

American Embassy–Baghdad and Multi-National Force–Iraq, 2010
Joint Campaign Plan, November 23, 2009. Appendix 1 to Annex J, ISF
Logistics–Transition to Self-Sustaining Capability contains the logistics concept,
conditions, and objectives of the Security Line of Operation and directs tasks that must be
accomplished for the ISF to become self sustaining. As the Line of Operations contributor,
USF-I J4 is responsible for ensuring that these tasks remain relevant as conditions change.

Location Commands and IA Divisions—Supporting and
Supported
The LCs were organized to provide logistics support to specifically assigned IA divisions,
but were not under the control of those divisions. The LCs reported to the DCOS LOG at
the MoD Joint Headquarters, and the IA divisions were under Iraqi Ground Forces
Command.

Any request for support from the division went up the chain of command to the Iraqi
Ground Forces Command, over to DCOS LOG, then to Taji, and eventually back down to
the LC. That process was cumbersome and time-consuming. In most instances, the
issuance of supplies to the requesting division took place directly from Taji, and the
request was never sent to the LC responsible for providing its support and where the
requested supplies might already be on-hand. Consequently, LCs had not developed a
strong supporting/supported link with their respective IA divisions.

Some division commanders seemed satisfied to receive their supplies directly from Taji.
From the commander’s perspective, that process cut out a step in the supply process,
although it could lead to non-doctrinal stockpiling of supplies in the division area that was
not prepared to store and account for large quantities of supplies. Consequently, there was
no outcry from the supported division commander when the LC warehouses and fuel farm
were empty, because the division did not routinely rely on the LC for its supplies. That
situation discouraged the implementation of the doctrinal functioning of the IA logistics
system, in general, and undermined the development of the role of the LCs, specifically.




                                             68
Recommendations, Client Comments, and Our Response
 17. Deputy Commanding General for Advising and Training, United States Forces-Iraq:
     a. Coordinate with and mentor the Ministry of Defense Joint Headquarters Deputy Chief of
 Staff for Logistics to bring the Al Asad Location Command to operational status and determine
 the way ahead for increased utilization of the Numaniyah Location Command, as well as other
 Location Commands.
      b. Coordinate with the Ministry of Defense Joint Headquarters Chief of Staff, Vice Chief of
 Staff, and Deputy Chief of Staff for Logistics to overcome Iraqi Army division reluctance to use
 assigned Location Commands for their resupply.

Client Comments
USF-I concurred with these recommendations.

Our Response
USF-I comments were responsive. We request that DCG, A&T, USF-I, provide the OIG
with details of the actions to be taken in order to bring the Al Asad Location Command to
operational status and to increase utilization of other Location Commands.




                                            69
Observation 18. Logistics Support of Iraqi Army
Divisions
The MoD Joint Headquarters DCOS LOG provided an equal level of logistics support
across all IA divisions, which did not appear consistent in all cases with operational needs.
For example, the 7th IA Division area of operation (AO) was 160,000 square kilometers--
the largest AO of any IA division--yet it received the same allocation of fuel and other
logistics support as a division that was guarding part of Baghdad, with an AO of
approximately 100 square kilometers.

That determination was caused by a failure by MoD and JHQ to allocate logistics
resources to IA divisions based on mission, enemy, terrain and weather, troops and
support, time available, and civil considerations (METT-TC). (Although METT-TC is a
U.S. Army doctrinal concept, it is applicable to this situation.)

That allocation inequity hampered the mission capability of IA divisions with larger and/or
more active AOs. In the case of the 7th IA Division, it could not adequately carry out its
mission to secure Al Anbar province because the fuel allocation was insufficient to operate
division vehicles for the whole month.

Applicable Criteria
DOD Instruction 3000.05, “Stability Operations,” September 16, 2009.
This Instruction provides guidance on stability operations. This guidance will evolve over
time as joint operating concepts, mission sets, and lessons learned aid in further
development of DOD policy and assignment of responsibility for the identification and
development of DOD capabilities to support stability operations.

Joint Center for International Security Force Assistance, “How the
Iraqi Army Operates (Edition 3),” September 2009. This document provides
transition teams and organizations partnered with Iraqi forces with a baseline reference on
processes and procedures integral to the Iraqi Army. It attempts to connect “theory” to
“practice” by providing a means by which transition teams and partner units can
differentiate between how things are supposed to be done and how they are being done.

Ministry of Defense Joint Headquarters (JHQ), “DCOS LOG Materiel
Circulation Processes,” October 1, 2009. Chapter 6 describes the mission and
function of the Directorate of Electrical and Mechanical Engineering and the processes and
procedures for maintenance in the Iraqi Armed Services. Chapter 8–Iraqi Logistics
Operations Center (ILOC) (DRAFT). The ILOC serves as a Strategic Level Logistics
Operations Center for the collection and distribution of logistics information from the Iraqi
Ground Forces Command, Iraqi Air Force, Iraqi Naval Command and relevant Operational
Centers, and provides viable analysis to the JHQ in order to assist the decision-making
process.




                                             71
Center for Army Lessons Learned Handbook 10-08, “Partnership:
Development of Logistics Capabilities,” November 2009. This handbook
was developed by the former Multi-National Corps-Iraq and the former Iraq Assistance
Group logistics staffs to present partnering considerations in developing a fundamental
base for a self-sustaining host nation security force.

American Embassy–Baghdad and Multi-National Force–Iraq, 2010
Joint Campaign Plan, November 23, 2009. Appendix 1 to Annex J, ISF
Logistics–Transition to Self-Sustaining Capability contains the logistics concept,
conditions, and objectives of the Security Line of Operation and directs tasks that must be
accomplished for the ISF to become self sustaining. As the Line of Operations contributor,
USF-I J4 is responsible for ensuring that these tasks remain relevant as conditions change.

The Basis for Logistics Support
The MoD Joint Headquarters DCOS Log reportedly allocated logistics support equally
across all IA divisions, without considering METT-TC. Such an analysis applied to
logistics support would invariably lead to different levels of support by division, often by
class of supply, depending on the uniqueness of each division’s AO. Conversely, a failure
to consider METT-TC in the allocation of logistics resources could well lead to operational
mission constraints and possibly mission failure.

The 7th IA Division, with a 400 x 400 kilometer AO in Al Anbar, reported the following
specific issues:

   •   The allocation of 20 liters of fuel per day, per vehicle—the same as other IA
       divisions—resulted in a reduced operational tempo that was insufficient to meet
       mission requirements. They requested a 200 percent increase in their fuel
       allocation, but had not yet received a response at the time of our visit.
   •   There was an insufficient supply of repair parts to maintain the required operational
       tempo of critical equipment. Their HMMWV operational readiness rate was
       reportedly less than 50 percent, forcing them to keep their HMMWVs in reserve
       and only use them for emergencies, increasing the risk to both personnel and
       mission accomplishment.

If IA divisions are to meet the minimum essential capability of providing internal security
and foundational external security, the allocation of scarce logistics resources must be
made on the basis of METT-TC, rather than being divided up equally.

Recommendations, Client Comments, and Our Response
 18. Deputy Commanding General for Advising and Training, United States Forces-Iraq mentor
 senior logistics planners in the Ministry of Defense and the Ministry of Defense Joint
 Headquarters to apply an analysis of mission, enemy, terrain and weather, troops and support,
 time available, and civil considerations in determining the amount of logistics support each Iraqi
 Army division requires.



                                             72
Client Comments
USF-I concurred with this recommendation.

Our Response
USF-I comments were responsive. We request that DCG, A&T, USF-I, provide the OIG
with an update of the logistics support analysis based on METT-TC conducted by senior
logistics planners in the MoD and JHQ, once completed.




                                            73
Part IV – Ministry of Interior and Iraqi Police
Organizations
This section contains a series of observations and recommendations concerning the
Ministry of Interior and the Iraqi Police Organizations, including the Federal Police, the
Department of Border Enforcement, and Provincial/District Police. The Oil Police and
Facility Protection Police were not directly observed but were covered at the strategic and
operational level with logistics-focused interviews and briefings at the Iraqi MoI.




                                             75
Observation 19. Repair Parts for the Ministry of Interior
and Iraqi Police Vehicle Fleet
MoI could not effectively plan and contract to procure repair parts to support the Iraqi
police vehicle fleet. Although MoI had matured in its planning, budgeting, and tracking
strategies and processes, MoI lagged in effective procurement execution.

That situation occurred because, collectively, MoI senior staff was still developing the
capability to identify repair parts requirements and subsequently source and contract to fill
those requirements.

Without a supply of critical repair parts to sustain maintenance of tactical and non-tactical
vehicles and enabling equipment associated for those vehicles, such as radios and turret-
mounted automatic weapons, operational ready rates of the MoI vehicle fleet will continue
to decline.

Applicable Criteria
Army Field Manual 3-07, “Stability Operations,” October 2008. This
manual is the Army’s keystone doctrinal publication for stability operations. It presents
the overarching doctrinal guidance and direction for conducting stability operations, setting
the foundation for developing other fundamentals and tactics, techniques, and procedures
detailed in subordinate field manuals.

Army Field Manual 3-07.1, “Security Force Assistance,” May 2009. This
manual is the Army’s doctrinal publication for security force assistance. It provides
doctrinal guidance and direction for how U.S. forces contribute to security force assistance,
focusing on brigade combat teams conducting security force assistance and advising
foreign security forces.

Budget Background
MoI operated on a requirements-based budget system. Budget formulation was a four
month process that began with an internal ministry requirements-planning conference and
ended with the Director of Finance proposing the budget to the Minister of the Interior.
MoI has improved its budget execution over the past few years. Ministry data, deemed
reliable by our advisory staff, indicated that budget execution had improved from 84.5
percent in 2007 to 90.6 percent in 2009.

According to historical background provided by the MoI Director of Planning and
Tracking, in 2008, in coordination with the Director of Finance, he got the budget
preparation process for the procurement of logistics support to be linked to operational
requirements, planning, budget execution, and contracting. That process was further
refined in 2009 by:

   •   Developing a multi-year Strategic Plan for 2010 through 2012,


                                             77
   •   Completing an operational plan,
   •   Linking budgeting and planning to requirements generation,
   •   Conducting training on how to build operational plans, and
   •   Developing logistics requirements.

MoI still needed to improve its requirements generation process to better enable the
planning, budgeting, and procurement process, according to U.S. advisors and MoI
personnel. A senior MoI official highlighted his successes in developing a Strategic Plan
and getting the budget linked to operational plans at the General Districts of Police and
regional police headquarters. However, he stated that the program still had weaknesses
because some units were not submitting legitimate requirements tied to operational plans,
but rather lists of items they simply wanted.

ITAM-MoI advisors stated that MoI had submitted a requirement for the purchase of a
$200 million helicopter fleet and the justification consisted of only eight bulleted lines and
did not address spare parts, maintenance support, or required infrastructure. Another
submission request was for a street camera system (similar to U.S. traffic speed cameras),
pen surveillance cameras, and other clandestine devices.

We noted the difficulty in translating requirements received from the 21 police
headquarters across Iraq. For example, the regional police headquarters needed wiper
blades for its large trucks but it did not know how to identify the correct specifications or
forecast future requirements for each make and model of the “large truck” fleet.

In February 2010, the Assistant Deputy Minister for Infrastructure, in coordination with
the Director for Maintenance conducted an analysis of required repair parts. They created
a demand analysis based on the manufacturer’s preventative maintenance standards and
created a list of tools, repair parts, and training requirements to conduct that maintenance.
The Assistant Deputy Minister for Infrastructure had also organized a study group on
requirements intended to institutionalize the process and foster a culture of related
learning.

Establishing Supply Chains
The MoI was working to establish national-level vehicle parts supply chains. Once those
supply chains are established, in principle, the Iraqi police forces will be able to order parts
directly from the newly established supply sources. For example, MoI identified up to 20
repair parts providers for the Ford F-350. In addition, senior MoI logistics managers stated
that the ministry was committed to reducing the number of makes and models in its fleet to
16, an objective that was supported by A&T advisors. Supply chains would be established
for all 16 models in order to ensure long-term sustainment. At the time of our visit, MoI
was supplying its critical spare parts from FMS cases provided under ISFF that came with
2-years of parts support.

MoI had recently purchased a U.S. FMS case consisting of equipment, installation,
training, and technical support for a system designed to indicate availability of parts by


                                              78
vehicle make and model and track them to vehicle identification numbers for
accountability, which would also serve as an automated supply chain management system
for MoI. That system will come with information technology support at the 21 regional
headquarters that communicate with MoI via the internet and provide visibility of parts
usage and history that can be used to generate future requirements.

Developing Contracts
MoI had approximately 50 assigned Iraqi contracting personnel, 20 assigned to MoI
headquarters and 30 spread out among the 15 provinces. MoI had awarded direct contracts
and processed FMS cases awarded by U.S. program offices.

According to two senior ITAM-MoI contract advisors, acquisition training provided by
MoI to its cadre of contracting personnel was of insufficient or poor quality. Most of the
training was conducted via computer-based instruction at the MoI contracting site where
there was limited computer access. That situation adversely impacted the incentive of
contracting personnel to train and learn.

An ITAM-MoI police advisor stated that the single most important logistics issue needing
to be addressed was the inability of the system to provide critical parts on a sustainable
basis beyond what was provided through ISFF or FMS cases, which corresponded to the
ministry’s difficulty in developing requirements and getting them documented in a usable
format for translation into contractual language. In 2009, the MoI was largely
unsuccessful in contracting directly for their recurring vehicle parts needs.

Conclusion
The MoI lags in procurement and execution of its budget because it lacks sufficient
capability to identify and document requirements to enable its contracting department to
procure needed parts and supplies at a level that would sustain the operational readiness of
its vehicle fleet. A new FMS case will provide contracted support for developing supply
requirements and establishing supply chains for the police vehicle fleet and other items on
the MoI table of allowances. The requirements group formed by MoI will also help on an
interim basis, at least, by pushing down parts from MoI to the regional maintenance
facilities until the capability provided by the FMS case can create demand histories. In
order for that system to be effective, MoI must provide its personnel with training in the
areas of developing requirements and contracting support.

Recommendations, Client Comments, and Our Response
19. Deputy Commanding General for Advising and Training, United States Forces-Iraq
assist the Ministry of Interior to plan for, develop, and invest in an organic training
program to provide planning, programming, budgeting, execution, finance, logistics, and
supply training to senior Ministry of Interior leaders, police, and administrators.




                                             79
Client Comments
USF-I concurred with this recommendation, noting that even though Key Leader
Engagements already cover the importance of planning and budgeting for maintenance
requirements, further emphasis is being applied on developing functional PPBE.

Our Response
USF-I comments were responsive; no additional comments are required.




                                         80
Observation 20. The Federal Police Sustainment Brigade
The Federal Police (FP) are a key security force in the national security strategy of Iraq. In
order for FP to effectively conduct anti-insurgent and anti-terrorist operations, it needs
sustainable logistics support from the Federal Police Sustainment Brigade (FPSB), which
is not well developed. All U.S. Advise and Train trainers/mentors assigned to the FPSB
were expected to redeploy by June 30, 2010, before FPSB minimum essential capabilities
for logistics sustainment had been reached.

There were no plans to backfill many of the Logistics Training Advisory Teams (LTATs),
to include the FPSB LTAT, which were included in the continuing drawdown of U.S.
Forces in Iraq.

Loss of the LTAT will negatively impact FPSB development with respect to establishing
an enduring logistics sustainment capability within the FP. FPSB operational effectiveness
will likely be reduced as a result of the loss of its LTAT, and a key component of the GoI’s
national security strategy will be impaired.




                  Figure 1. Federal Police Sustainment Brigade Transition Team
                       Mine Resistant Ambush Protected (MRAP) Vehicles

Applicable Criteria
Center for Army Lessons Learned Handbook 10-08, “Partnership:
Development of Logistics Capabilities,” November 2009. This handbook
was developed by Multi-National Corps-Iraq and the Iraq Assistance Group logistics staffs
to present partnering considerations in developing a fundamental base for a self-sustaining
host nation security force.

American Embassy–Baghdad and Multi-National Force–Iraq, 2010
Joint Campaign Plan, November 23, 2009. Appendix 1 to Annex J, ISF


                                              81
Logistics–Transition to Self-Sustaining Capability contains the logistics, concepts,
conditions, and objectives of the Security Line of Operation and directs tasks that must be
accomplished for the ISF to become self sustaining. As the Line of Operations contributor,
USF-I J4 is responsible for ensuring that these tasks remain relevant as conditions change.

U.S. Forces–Iraq Fragmentary Order 10-01.3 to U.S. Forces–Iraq
OPORD 10-01, Transition to Stability Operations (U). This is a classified
document.

U.S. Government Interagency Counterinsurgency Initiative, “U.S.
Government Counterinsurgency Guide,” January 2009. This document
examines the theory and principles of insurgency and counterinsurgency, the components
of an effective counterinsurgency strategy, and interagency counterinsurgency assessment,
planning and implementation. The DOD and U.S. military forces provide a broad range of
capabilities to support an integrated U.S. counterinsurgency effort. These may include
advising and training foreign military and logistics support.

“Measuring Stability and Security in Iraq,” Report to Congress, March
2010. This quarterly report to Congress includes specific performance indicators and
measures of progress toward political, economic, and security stability in Iraq, as directed
by legislation. This report complements other reports and information about Iraq provided
to Congress and is not intended as a single source of all information about the combined
efforts or the future strategy of the United States, its former Coalition partners, or Iraq.
Army Field Manual 3-07, “Stability Operations,” October 2008. This
manual is the Army’s keystone doctrinal publication for stability operations. It presents
the overarching doctrinal guidance and direction for conducting stability operations, setting
the foundation for developing other fundamentals and tactics, techniques, and procedures
detailed in subordinate field manuals.

Army Field Manual 3-07.1, “Security Force Assistance,” May 2009. This
manual is the Army’s doctrinal publication for security force assistance. It provides
doctrinal guidance and direction for how U.S. forces contribute to security force assistance,
focusing on brigade combat teams conducting security force assistance and advising
foreign security forces.

Joint Publication 3-07.1, “Joint Tactics, Techniques and Procedures
for Foreign Internal Defense (FID),” April 30, 2004. This publication
establishes joint tactics, techniques, and procedures for the armed Forces of the United
States involved in or supporting foreign internal defense operations. It discusses how joint
operations, involving the application of all instruments of national power, support host
nation efforts to combat subversion, lawlessness, and insurgency.




                                             82
Federal Police Sustainment Brigade Standard Operating Procedures,
January 2010. The purpose of this MoI document is to prescribe common procedures,
processes, and standards for the logistics management development of the Federal Police
Sustainment Brigade.

The Federal Police and the Federal Police Sustainment Brigade
The IA was the initial, and at times, sole Iraqi security force employed against insurgents
and terrorists within Iraq. However, the police forces have increasingly played an
important role in that mission, and as the level of violence decreases and Coalition Forces
redeploy, the FP are expected to assume an even greater responsibility for internal security.
The related security development process and its outcome has been designated “Police
Primacy.” 2 Key among the internal security capabilities necessary for achieving Police
Primacy is an effective FP force.

The FP was established by MoI Memorandum No. 4012 on June 2, 2004, and has
developed into a national security organization that bridges the gap between the IA and
local police forces. It is capable of conducting specific paramilitary operations in the
provincial areas of the country against insurgents and terrorists.

A critical mission enabler for the FP in the execution of its mission is the FPSB. The
FPSB was established in 2007 and is considered by FP leadership to be one of its finest
achievements, despite being under development. The FPSB provided tactical and
operational logistics support for four FP divisions across Iraq, and for a fifth that was in
development.

At the time of our visit, the FPSB was manned at only 25 percent of its planned end-
strength, which included:

      •    Headquarters
      •    Maintenance Battalion
      •    Logistics Battalion
      •    Transportation Battalion
      •    Medical Battalion

The FP planned to sustain the operational force capability by providing a sustainment
battalion to each Division. Each sustainment battalion was to be organized, manned, and
equipped by its parent Division, without additional resourcing. At the time of our visit,
only the 2nd Division had an operational sustainment battalion.

The FPSB was scheduled to receive a $47 million permanent home base at Salman Pak.
That expansion was considered necessary with the pending arrival of significant FMS and
ISFF-purchased equipment that would eventually support five divisions.



2
    2010 Joint Campaign Plan for the Development of Iraqi Security Forces, Cover Letter, November 2009.


                                                     83
According to U.S. advisors and senior FPSB officers, despite the organizational, policy,
and infrastructure improvements and establishing the FPSB, there was insufficient time for
U.S. forces to train, model, and partner with the FP to establish effective logistics capacity
at all levels. “Development of sustainment capabilities for local security forces is essential
to establishing a viable local security structure.” 3 Effective logistics capability also
requires developing a culture of sustainment, requiring additional time and partnering
beyond the completion of the equipping and training mission. Ultimately, without the
ability to sustain operations with supplies, fuel, and repair parts, the FPSB and FP will not
achieve the MEC in logistics.

Although the FPSB needed more training and partnering to achieve MEC, it will, in fact,
receive less with the reduced U.S. advisory effort after June 30, 2010. The reason the
FPSB will not continue to receive U.S. training assistance is simply because it was
designated a “Brigade” rather than a “Division.” That decision appears to have been a
bureaucratic oversight for determining whether the FP needs continuing logistics advisory
support from A&T.

Coalition Forces should continue to provide appropriate logistics assistance until FPSB
MEC is achieved or the USF-I end of mission. Assistance should include partnering with
the FPSB to establish divisional logistics units in accordance with U.S. doctrine that
addresses partnering and establishing an enduring logistics capability. 4

Conclusion
U.S. doctrine, plans, and experience in Iraq and other stability or contingency operations
point to the importance of developing a sustainable logistics system for the ISF, including
the police forces. A major component of the Iraqi security strategy to combat terrorism
and the insurgency is the FP. Logistics sustainment of the FP is centered on the logistics
support capability of the FPSB. However, the FPSB lacked adequate force structure,
infrastructure, training, expertise, and experience to execute its mission. A&T must have
the mission, capability, and support in order to assist the FPSB’s continued development.

Recommendations, Client Comments, and Our Response
20. Deputy Commanding General for Advising and Training, United States Forces-Iraq, in
coordination with the Deputy Commanding General for Support, United States Forces-
Iraq, reassess the requirements for continued advisory support to the Federal Police
Sustainment Brigade through the end of mission in December 2011, and either provide the
support using internal personnel resources, or seek external assistance, as appropriate.

Client Comments
USF-I concurred with this recommendation.



3
    CALL Handbook, No. 10-08, Partnership: Development of Logistics Capabilities, p. i, November 2009.
4
    CALL Handbook, No. 10-08, Partnership: Development of Logistics Capabilities, p. 22, November 2009.


                                                    84
Our Response
USF-I comments were responsive. We request that DCG, A&T, USF-I, provide the OIG
with details of the actions taken to reassess the requirements for continued advisory
support to the FPSB through the end of mission in December 2011.




                                          85
Observation 21. Munitions Safety Issue at the Federal
Police Headquarters Storage Facility
Munitions at the FP Headquarters storage facility were improperly stored, creating a safety
hazard for both FP and U.S. personnel.

The FP facility contained a supply of Chinese-produced 82mm mortar rounds, stacked high
and not separated by barriers that are normally used to mitigate propagation in the event of
an abnormal environmental incident, such as fire or rocket attack, which could trigger an
explosion. Some of the 82mm rounds appeared to be white phosphorous-filled munitions,
a category of munitions that must be stored separately from other munitions due to its
sensitivity. However, the type of round stored in the munitions containers were not
identified on the outside of the container. In addition, some of the presumed white
phosphorous rounds were stored horizontally, rather than vertically, which could lead to
degradation over time and present additional safety issues.

This occurred because neither FP personnel nor U.S. advisors were aware of proper bulk or
sensitive ammunition storage requirements.

Improper storage of that type of ammunition close to FP and U.S. personnel could result in
injury, loss of life, and the destruction of the ammunition and the storage facility.

Applicable Criteria
DOD 6055.09-STD, “DOD Ammunition and Explosives Safety
Standards,” February 29, 2008. DOD Explosive Safety Standards state that white
phosphorous has a compatibility code of H and is incompatible for storage with other
munitions, with the exception of compatibility code S associated with small arms ammunition.

Technical Manual 9-1300-250, “Ammunition Maintenance,” September
25, 1969. This manual provides general information and guidance for the maintenance of
conventional ammunition, to include its demilitarization. It requires that the following
information must be stenciled legibly on each box of ammunition:

   •   Nomenclature
   •   National stock number,
   •   Department of Defense Identification Code,
   •   Lot number, the date of manufacture, and
   •   Quantity.

If any of those markings are hard to read, they must be touched up with paint. If the markings
are illegible, the box must be opened to check the markings on the inner containers.

Munitions Storage at the Federal Police Headquarters
The FP developed warehouse and munitions storage facilities at their Baghdad
headquarters. An onsite visit of those facilities indicated remarkable improvement of the


                                               87
warehouses, including storage procedures. The munitions facility was well maintained,
with good accountability of on-hand inventory, distribution, and storage locations.
However, there seemed to be a lack of knowledge about proper storage procedures for
more hazardous munitions, such as Chinese 82mm mortars, which have specific storage
requirements in order to prevent explosive propagation in the case of fire, accident, or even
attack on the facility.

A U.S. MoI advisor pointed out that the mortars were purchased by the GoI from the
Chinese government and that half of the buy reportedly included white phosphorous-filled
mortar rounds. The 82mm mortar round crates were stacked higher than the allowable
standard of four feet. U.S. military procedures also would have required those mortar
rounds to be stored in a nose up orientation. More importantly, however, they were not
stored in a separate facility, which is also a standard U.S. military requirement, due to the
safety incompatibility with high explosive rounds.

In a subsequent meeting, the MoI Assistant Deputy Minister for Infrastructure stated that a
memorandum had been sent from MoI to the Prime Minister concerning the storage of
82mm mortars and ammunition at FP headquarters, requesting permission to transfer the
ammunitions to MoD control. His position was that those munitions should not be used by
the FP for operations in urban areas, given that their mission was to avoid unintentional
collateral damage or loss of life. However, he did state that MoI intended to keep its stock
of rocket propelled grenades and 18 of the 82mm mortars for emergency operations
outside of city limits.

Recommendations, Client Comments, and Our Response
21. Deputy Commanding General for Advising and Training, United States Forces-Iraq
advise the Ministry of Interior on an appropriate storage policy for munitions; these
requirements should be conveyed to all police services.

Client Comments
USF-I concurred with this recommendation.

Our Response
USF-I comments were responsive. We request that DCG, A&T, USF-I, forward to the
OIG a copy of the proposed MoI munitions storage policy once completed.




                                             88
Observation 22. The Federal Police Medical Battalion—
Medical Supplies
According to FP commanders, the last time the FP Medical Battalion (FPMB) received
medical supplies from the Ministry of Health, the established GoI organization for
providing that support, was February 2009. Since then, either Coalition Forces had been
providing the necessary medical supplies or the supplies were purchased in the local
market by FP medical personnel.

This occurred because MoI had not paid the Ministry of Health for medical supplies and
the Ministry of Health did not recognize the credentials of the FPMB medical staff for
justifying the receipt of those supplies. This issue reflected an apparent ongoing
disagreement between the two ministries and their respective roles and responsibilities.

If the issue is not resolved, the FP will not be able to obtain medical support from within
the established logistics system, leaving them dependent on ad hoc and unreliable local
purchases of medicine and other necessary supplies. That situation could put the health of
FP personnel at risk and could also indicate a systemic fault line in GoI logistics support
for the police.

Applicable Criteria
Army Field Manual 3-07.1, “Security Force Assistance,” May 2009. This
manual is the Army’s doctrinal publication for security force assistance. It provides
doctrinal guidance and direction for how U.S. forces contribute to security force assistance,
focusing on brigade combat teams conducting security force assistance and advising
foreign security forces.

Joint Publication 3-07.1, “Joint Tactics, Techniques and Procedures
for Foreign Internal Defense (FID),” April 30, 2004. This publication
establishes joint tactics, techniques, and procedures for the armed Forces of the United
States involved in or supporting foreign internal defense operations. It discusses how joint
operations, involving the application of all instruments of national power, support host
nation efforts to combat subversion, lawlessness, and insurgency.

Federal Police Sustainment Brigade Standard Operating Procedures,
January 2010. The purpose of this Iraqi document prescribes common procedures,
forms, and standards for the logistics management processes of the FPSB.

Medical Support for Federal Police Operations
The FP was established by MoI Memorandum No. 4012 on June 2, 2004, and has
developed into an organization that bridges the gap between the IA and local police forces
by conducting specific paramilitary operations in the provincial areas against insurgents
and terrorists.




                                             89
Since it was formed, the FP has sustained 7,100 casualties (over 1,000 annually),
including, 2,600 killed in action and 4,500 wounded in action, and continues to suffer high
casualties in ongoing security operations. The FP conducted 10 major counter-terrorist
operations since 2005, many in remote locations where medical treatment facilities were
not available. Because it operates in remote areas, FP do not have ready access to civilian
medical facilities or medical supplies.

According to FPSB Standard Operating Procedures FP commanders must provide at a
minimum, adequate hospitalization, medical logistics resupply, evacuation, and preventive
medicine to support operations in austere locations. 5

The FBMB is a critical mission enabler for the FP. It is the primary provider of Level I
medical treatment, which includes sick call and preventive and emergency medicine. The
FPMB evacuates patients when it cannot provide the treatment required. The FPMB also
provides Level 2 medical treatment including:

    •    Dental care,
    •    Laboratory support,
    •    X-ray support, and
    •    Limited patient hold capacity.

The total number of medical personnel that supported 45,000 FP across four divisions, its
headquarters, and the FPSB were:

     •   4 physicians,
     •   1 dentist,
     •   1 pharmacist,
     •   1 nurse, and
     •   248 medics.

Requests for medical supplies were normally filled at the lowest level, and unfulfilled
requests continued up the chain of command until filled. However, advisors stated that no
Class VIII medical supplies had been received since February 2009, which caused medical
personnel to purchase medical supplies using their own money, unit funds, or special
funding requests submitted through FP headquarters. Figure 2 illustrates with solid arrows
the doctrinal method for obtaining medical supplies. The dashed arrows show the reliance
on the local market at various levels.




5
  U.S. Joint Publication 3-07.1, “Joint Tactics, Techniques and Procedures for Foreign Internal Defense
(FID),” April 30, 2004, p. V-32.


                                                    90
                               Figure 2. FPSB Medical Logistics

According to U.S. doctrine, plans, and experience, forces that operate in areas without
access to adequate medical care must be able to provide their own. The FP were often
required to operate in such conditions. However, the medical supply system in support of
the FPMB has been inoperative since February 2009, and MoI had no apparent plan to
correct that deficiency.

Recommendations, Client Comments, and Our Response
22. Deputy Commanding General for Advising and Training, United States Forces-Iraq:
    a. Coordinate with the Ministry of Interior to develop a plan for medical logistics
support of the Federal Police Medical Battalion.
    b. Seek appropriate support from the U.S. Mission to resolve the apparent impasse
between the Ministry and Health and the Ministry of Interior over their respective
responsibility so that medical support will be provided to the Federal Police.

Client Comments
USF-I concurred with these recommendations.

Our Response
USF-I comments were responsive. We request that DCG, A&T, USF-I, forward to the
OIG a copy of the proposed plan for medical logistics support for the FPMB, once
completed and an update on resolution of MoH/MoI impasse regarding medical support.




                                             91
Appendix A. Scope, Methodology, and
Acronyms
We conducted this assessment from August 2009 to August 2010 in accordance with the
standards published in the Quality Standards for Inspections. We planned and performed
the assessment to obtain sufficient and appropriate evidence to provide a reasonable basis
for our observations and conclusions, based on our assessment objectives. Site visits in
Iraq were conducted from April 23, 2010 to May 7, 2010.

We reviewed documents such as Federal Laws and regulations, including the National
Defense Authorization Act, Chairman of the Joint Chiefs of Staff instructions, DOD
directives and instructions, and appropriate USCENTCOM and USF-I guidance.

The purpose of our assessment in Iraq was to determine whether the plans, training,
preparations, and designated missions of USF-I A&T, the U.S. advisory and assistance
brigades, and sustainment brigades to train, advise, and assist in the development of an
enduring logistics sustainment capability for the Iraq Security Forces are synchronized
with in-country plans and operational assumptions and needs.

We visited or contacted organizations in the U.S. and Iraq that are responsible for planning
and implementing the train, advise, and assist mission for the ISF. We reviewed the
processes involved in the development of an enduring logistics sustainment capability for
the ISF and spoke with U.S. and Iraqi leaders and managers at all levels, ranging from
general officers, to staff officers, to training and mentor team members in the field.

The ISF logistics sustainment assessment chronology was as follows:

August 2009 – April 2010              Research and fieldwork in CONUS
April 23, 2010 to May 6, 2010         Fieldwork in Iraq
May 7, 2010                           Outbrief to USF-I A&T
May – July 2010                       Analysis and report writing
August 2010                           Draft report issued
September 2010                        Management comments received and evaluated

Use of Computer-Processed Data
We did not use computer-processed data to perform this assessment.

Use of Technical Assistance
We did not use Technical Assistance to perform this assessment.

Acronyms Used in this Report
The following is a list of the acronyms used in this report.



                                              93
A&T         Advising and Training
AAB         Advise and Assist Brigade
ACSA        Acquisition Cross Servicing Agreement
AO          Area of Operation
DCG         Deputy Commanding General
DCOS LOG    Deputy Chief of Staff for Logistics
DLA         Defense Logistics Agency
EME         Electrical and Mechanical Engineering
FMS         Foreign Military Sales
FP          Federal Police
FPMB        Federal Police Medical Battalion
FPSB        Federal Police Sustainment Brigade
GoI         Government of Iraq
HMMWV       High Mobility Multi-purpose Wheeled Vehicle
HVSI        High Value Sustainment Initiatives
IA          Iraqi Army
IAMP        Iraqi Asset Management Program
ILOC        Iraqi Logistics Operations Center
ISF         Iraq Security Forces
ISFF        Iraq Security Forces Fund
ITAM        Iraq Training Assistance Mission
JBW         Joint Base Workshop
JHQ         Joint Headquarters
JRPC        Joint Repair Parts Command
LC          Location Command
LMAT        Logistics Military Advisory Team
LMI         Logistics Management Institute
LOA         Letter of Agreement
LTAT        Logistics Training Advisory Team
MEC         Minimum Essential Capability
METT-TC     Mission, Enemy, Terrain and weather, Troops and Support
            available-Time available and Civil considerations
MNSTC-I     Multi-National Security Transition Command – Iraq
MoD         Ministry of Defense
MoI         Ministry of Interior
PPBE        Planning, Programming, Budgeting, and Execution
RFF         Request for Forces
SES         Senior Executive Service
USCENTCOM   U.S. Central Command
USD(AT&L)   Under Secretary of Defense for Acquisition, Technology, and
            Logistics
USETTI      U.S. Equipment Transfer to Iraq
USF-I       U.S. Forces – Iraq
USFORSCOM   U.S. Forces Command




                               94
Appendix B. Summary of Prior Coverage
During the last four years, the Special Inspector General for Iraq Reconstruction (SIGIR)
and the Department of Defense Office of Inspector General have issued a number of
reports discussing either (1) the accountability and control over munitions and other
equipment provided to the ISF, or (2) the development of ISF logistics capability.
Unrestricted SIGIR reports can be accessed over the Internet at http://www.sigir.mil.
Unrestricted DODIG reports can be accessed over the Internet at
http://www.dodig.mil/audit/reports or at http://www.dodig.mil/spo/reports
Some of the prior coverage we used in preparing this report included:

Congressionally Initiated Reports
Report to Congress in accordance with the 2008 Department of Defense Supplemental
Appropriations Act (Section 9204, Public Law 110-252), “Measuring Stability and
Security in Iraq,” March 2010.

“The Report of the Independent Commission on the Security Forces of Iraq,” September
2007.

U.S. House of Representatives, Committee on Armed Services, Subcommittee on
Oversight & Investigations, “Stand Up and Be Counted: The Continuing Challenge of
Building the Iraq Security Forces,” July 2007.

GAO
GAO-09-476T, “Iraq and Afghanistan: Security, Economic, and Governance Challenges to
Rebuilding Efforts Should be Addressed in U.S. Strategies,” March 2009.

GAO-08-568T, “Actions Needed to Address Inadequate Accountability Over U.S. Efforts
and Investments,” March 2008.

GAO-08-153, “Iraq Reconstruction: Better Data Needed to Assess Iraq’s Budget
Execution,” January 2008.

GAO-08-143R, “Operation Iraqi Freedom: DOD Assessment of Iraq Security Forces’
Units as Independent Not Clear Because ISF Support Capabilities Are Not Fully
Developed,” November 2007.

GAO-08-117, “U.S. Ministry Capacity Development Efforts Need an Overall Integrated
Strategy to Guide Efforts and Manage Risks,” October 2007.

GAO-07-1195, “Securing, Stabilizing, and Rebuilding Iraq: Iraqi Government Has Not
Met Most Legislative, Security, and Economic Benchmarks,” September 2007.




                                            95
GAO-07-711, “Stabilizing Iraq: DOD Cannot Ensure That U.S.-Funded Equipment Has
Reached Iraq Security Forces,” July 2007.

GAO-07-637T, “Stabilizing Iraq: Preliminary Observations on Budget and Management
Challenges of Iraq’s Security Ministries,” March 2007.

GAO-07-582T, “Operation Iraqi Freedom: Preliminary Observations on Iraq Security
Forces’ Logistical Capabilities,” March 2007.

GAO-07-503R, Operation Iraqi Freedom: Preliminary Observations on Iraq Security
Forces’ Logistics and Command and Control Capabilities, March 2007.

GAO-07-444, “Operation Iraqi Freedom: DOD Should Apply Lessons Learned
Concerning the Need for Security over Conventional Munitions Storage Sites to Future
Operations Planning,” March 2007.

GAO-07-120C, Operation Iraqi Freedom: Preliminary Observations on Iraq Security
Forces’ Support Capabilities, March 2007.

GAO-07-308SP, “Securing, Stabilizing, and Rebuilding Iraq: Key Issues for Congressional
Oversight,” January 2007.

Special Inspector General for Iraq Reconstruction
SIGIR-10-008, “Long-standing Weaknesses in Department of State’s Oversight of
DynCorp Contract for Support of the Iraqi Police Training Program,” January 25, 2010.

SIGIR-09-027, “Developing a Depot Maintenance Capability at Taji Hampered by
Numerous Problems,” July 30, 2009.

SIGIR-09-014, “Security Forces Logistics Contract Experienced Certain Cost, Outcome,
and Oversight Problems,” April 26, 2009.

SIGIR-06-033, “Iraq Security Forces: Weapons Provided By the U.S. Department of
Defense Using the Iraq Relief and Reconstruction Fund,” October 2006.

SIGIR -06-032, “Iraq Security Forces: Review of Plans to Implement Logistics
Capabilities, October 2006.

Department of Defense Inspector General
DODIG Report No. SPO-2009-003, “Assessment of the Accountability of Night Vision
Devices Provided to the Security Forces of Iraq,” March 17, 2009.

DODIG Report No. SPO-2009-002, “Assessment of Arms, Ammunition, and Explosives
Accountability and Control; Security Assistance; and Logistics Sustainment for the Iraq
Security Forces,” December 19, 2008.



                                           96

DODIG Report No. SPO-2008-001, “Assessment of the Accountability of Arms and
Ammunition Provided to the Security Forces of Iraq,” July 3, 2008.

DODIG Report No. D-2008-026, “Management of the Iraq Security Forces Fund in
Southwest Asia - Phase III,” November 2007.

DODIG Report No. IE-2005-002, “Interagency Assessment of Iraq Police Training,” July
2005 (the Department of State Office of Inspector General participated in this assessment
and issued Report No. ISP-IQO-05-72).




                                            97

Appendix C. Glossary
This appendix provides definitions of terms used in this report.

Accountability – DOD Instruction 5000.64, “Accountability and Management of
DOD-Owned Equipment and Other Accountable Property,” November 2, 2006, states that
accountability is the obligation imposed by law, lawful order, or regulation, accepted by an
organization or person for keeping accurate records, to ensure control of property,
documents, or funds, with or without physical possession. The obligation, in this context,
refers to the fiduciary duties, responsibilities, and obligations necessary for protecting the
public interest. However, it does not necessarily impose personal liability upon an
organization or person.

Foreign Military Sales Program – The Foreign Military Sales (FMS) Program is
that part of security assistance authorized by the Arms Export Control Act and conducted
using formal agreements between the U.S. Government and an authorized foreign
purchaser or international organization.

Those agreements, called Letters of Offer and Acceptance (LOA), are signed by both the
U.S. Government and the purchasing government or international organization. The LOA
provides for the sale of defense articles and/or defense services (to include training)
usually from DOD stocks or through procurements under DOD-managed contracts. As
with all security assistance, the FMS program supports U.S. foreign policy and national
security objectives.

DOD Financial Management Regulation Volume 15, Definitions, April 2002 (current as of
July 17, 2008), defines a FMS case as a U.S. DOD LOA and associated supporting and
executing documents.

Foreign Military Sales Pseudo Cases – According to personnel at the Defense
Security Cooperation Agency, the pseudo LOA or case is used by the U.S. Government to
track the sale of defense articles and/or services (to include training and design and
construction services) and are generally funded by a U.S. Government entity (for example,
the U.S. Government DOD funding provided to the Afghanistan Security Forces Fund is
used to fund pseudo FMS cases for Afghanistan).

The pseudo LOA itemizes the defense articles and services included in the Letter of
Request. However, the pseudo LOA is not signed by the foreign purchaser or international
organization receiving the articles and/or services. The pseudo LOA is authorized by
public law and the Arms Export Control Act.

High Value Sustainment Initiative – HVSIs focus synchronized energy and
resources intended to influence multiple levels and elements of the logistics and fiscal
processes in order to achieve key strategic outcomes and broad, enduring effects.



                                             99

Joint Manning Document – Chairman of the Joint Chiefs of Staff Instruction
1301.01C, “Individual Augmentation Procedures,” January 1, 2004 (current as May 1,
2006) states that a manning document of unfunded temporary duty positions constructed
for or by a supported combatant commander that identifies the specific individual
augmentation positions to support an organization during contingency operations.

Joint manning documents (JMDs) for permanent activities with a joint table of distribution
or joint table of mobilization distribution should only identify individual augmentation
positions for temporary military or DOD personnel.

JMDs for activities without a joint table of distribution (JTD) or joint table of mobilization
distribution (JTMD) (e.g., some joint task forces) should identify all positions required for
that activity to support the mission. Positions should be identified as unit fill,
ISAF/Coalition fill, civilian/contractor fill, or individual augmentation fills on the JMD.

Logistics – Joint Publication 1-02 states that logistics is the science of planning and
carrying out the movement and maintenance of forces. In its most comprehensive sense, it
is those aspects of military operations that deal with:
   •	 design and development, acquisition, storage, movement, distribution, 

      maintenance, evacuation, and disposition of materiel

   •	 movement, evacuation, and hospitalization of personnel
   •	 acquisition or construction, maintenance, operation, and disposition of facilities
   •	 acquisition or furnishing of services.
Military Support to Stability, Security, Transition and Reconstruction
– DOD Directive 3000.05, Military Support for Stability, Security, Transition, and
Reconstruction (SSTR) Operations,” November 28, 2005, defines military support to
SSTR as DOD activities that support U.S. Government plans for stabilization, security,
reconstruction and transition operations, which lead to sustainable peace while advancing
U.S. interests.
Minimum Essential Capability-Logistics – The logistics and industrial
capability in order to attain and sustain minimum materiel readiness levels for the ISF.
Minimum Essential Capability-Overall – The capability of the Iraqi security
ministries, institutions, and forces to provide for Iraq’s internal security and to develop the
foundation for defense against external threats no later than 31 December 2011.
Security – Joint Publication 1-02 defines security as a condition that results from the
establishment and maintenance of protective measures that ensure a state of inviolability
from unintentional or directly hostile acts or influences. For the purpose of the Arms,
Ammunition, and Explosives (AA&E) Strategic Plan, security entails visibility over and
physically keeping AA&E in the custody of only those with specific authorization, and the
ability to quickly identify and respond to situations or incidents of actual or potential
compromise of AA&E while in the logistics chain.



                                              100

Security Assistance Organizations – DOD Directive 5132.13, “Staffing of
Security Cooperation Organizations (SCOs) and the Selection and Training of Security
Cooperation Personnel,” January 9, 2009, defines security cooperation organizations as all
DOD elements located in a foreign country with assigned responsibilities for carrying out
security cooperation/assistance functions. It includes military assistance advisory groups,
military missions and groups, offices of defense and military cooperation, liaison groups,
and defense attaché personnel.

Stability Operations – DOD Directive 3000.05 defines stability operations as military
and civilian activities conducted across the spectrum from peace to conflict to establish or
maintain order in States and regions.




                                            101

Appendix D. Organizations Contacted and
Visited
We visited, contacted, or conducted interviews with officials (or former officials) from the
following U.S. and Iraqi organizations:

United States
Department of State
•	 U.S. Embassy Political/Military Counselor

Department of Defense
   U.S. Forces Command
   •	 Commander/key staff, 1st Brigade, 3rd Infantry Division, Ft. Stewart, GA
   •	 Commander/key staff, 2nd Brigade, 3rd Infantry Division, Ft. Stewart, GA
   •	 Commander/key staff, 3rd Brigade, 3rd Infantry Division, Ft. Benning, GA
   •	 Key staff members, 162d Infantry Training Brigade, Ft. Polk, LA

   U.S. Central Command
   •	 Deputy Commanding General for Advising and Training, U.S. Forces-Iraq and key
      staff members
   •	 USF-I Strategic Logistics Planning Directorate
   •	 ITAM-MoD
   •	 USF-I Advise and Train Political Advisor
   •	 ITAM-Army
   •	 ITAM-Air Force
   •	 ITAM-Navy
   •	 Advisors--Abu Ghraib Warehouse/Baghdad International Air Port
   •	 Partnership Strategy Group – Iraq
   •	 1/82 Advise and Assist Brigade
   •	 307th Brigade Support Battalion
   •	 USMC Military Training Team, Iraqi Army 7th Div Headquarters
   •	 1/3 Advise and Assist Brigade
   •	 3rd Brigade Support Battalion


                                            103

    •   Security Assistance Office/Iraq Security Assistance Mission
    •   ITAM- MoI
    •   ITAM-Police
    •   Federal Police Sustainment Brigade Advisors

    Defense Agencies
    •   Officials assigned to the Defense Logistics Agency

Government of Iraq
Ministry of Defense
•   Vice Chief of Staff, MoD Joint Headquarters
•   Deputy Chief of Staff Logistics
•   Ministry of Defense Integrated Logistics Operations Center
•   Director, Electrical and Mechanical Engineering
•   Al Asad Location Command
•   Numaniyah Location Command
•   Taji Location Command
•   Taji Joint Base Workshop
•   Taji Joint Repair Parts Command
•   Taji General Depot Command
•   Iraqi Army General Transportation Regiment
•   Iraqi Army Electrical and Mechanical Engineering School
•   Iraqi Army Admin School
•   Senior Logistics Manager – Iraqi Army M1A1 Tank Program
•   7th Iraqi Army Division
•   17th Iraqi Army Division

Ministry of Interior
•   Federal Police HQ and Sustainment Brigade
•   Director of Planning and Tracking
•   Ministry of Interior Finance
•   Ministry of Interior Information Center
•   Ministry of Interior Infrastructure


                                              104

•   Ministry of Interior Central Maintenance Facility
•   Baghdad Police College Warehouses and Armament Repair Facility
•   Department of Border Enforcement Headquarters
•   Department of Border Enforcement 3rd Regional Maintenance Facility
•   Baghdad Provincial District of Police
•   Directorate and Maintenance Facility
•   Baghdad Provincial Police Headquarters




                                            105

Appendix G. Client Comments
Commander, U.S. Forces – Iraq Comments

                                     UN ITED STATES FORCES - IRAQ
                                                   BAGHDAD, IRAQ
                                                  APO AE
                                                       E 09342-1400
              J!f:Pl
              REPLY Y fa
                      TO
              ,;TTCH11OtO OF
              ATTO<11OH 01'



    USF -I DCG (A&1)                                                                        16 October 2010
                                                                                            16


    MEMORANDUM FOR DOD IG, 400 Army
                               Anny Navy Drive, Arlin
                                                ArUngtgton, VA 22202-4704
                                                               22202-4 704

    SUBJECT: Assessment of U.S. Go      vernment Effons
                                     Government    Efforts to Develop the Logistics Sustainment
    Capability of the Iraq Security Forces (Project No. D2009-DOOSPO- 0286.000
               ofthe                                                      0286.000))


    1. We appreciated the recent DoD 10 assessment of our efforts to develop the logistical
                            of thee Ira
    sustainment capability oith     Iraqq Security Fo rces.. We conducted a thoro ugh review of
                                                   Forces                                            tbe draft
                                                                                                  of the
    asse                  included
    assess sment and have include  d in the enclosure ththee actions o r planned actions tak en by USF
                                                                                         taken     USF-- IJ
    (OCG (A&
    (OCO        T) and 14 Forn'3l'
            (A&T)         Forward  d ) to accomplish the recommen dat ions.

    2. If you have any questions, please contact LTC Joh
                                                     Johnn Galla gher, DSN 318.239 .-5803 or email
                                                           Gallagher,
    john.m.l:!:allal!heI"'airng.c.::enlcom
    john.m.lZailacilerra'in1Q.cent         .miL
                                      com.mil.



                                                   ~-I"L/1-r1
                                                           /'t--W
                                                                · t---­
                                                     mOMAS 1. SCH
                                                              SCHOOEN BECK
                                                         SES, US Army
                                                         SES,USAnny
                                                         Executive Director




                                                          119


 DODIG Draft Report Review "Assessment of U.S. Government Efforts to Develop
       the Logistics Sustainment Capability of the Iraq Security Forces"
                     (Project No
                              No.. D2009-DOOSPO-0286.000)

                           USF-I COMMENTS TO THE REPORT



RECOMMENDATION 1. (Page 11 of Draft)

1 . a-d
    a-d.. USF-I RESPONSE : USF-I concurs

RECOMMENDATION 2. (Page 15 of Draft)

      USF--I RESPONSE: USF-I concurs and is continuing to work this act
2. a. USF                                                           actiion
                                                                         on..

2 . b. USF-I RESPONSE: USF-I concurs   concurs.. Support of this recommendation is identified
in the USF-I transition plan of programs, projects, activities and tasks currently being
conducted by Uniled
                 United States Forces - Iraq (USF        - I). These specific activ
                                                  (USF-I).                    activities
                                                                                    ities will be
Iransferred
transferred to the U.S. Embassy - BaghdadBaghdad.. and the Office of Secunty
                                                                        Security Cooperation -
       OSC-I).. as the sen
Iraq ( OSC-I)           seniior mililary ad
                                          advisor
                                             vi sor to the US Ambassador. The members of the
logiistics section will be fully qua
log                              quallified , and have the mission to support the continued
development of the Iraq Security Forces (ISF) logistical capabilities to support the I[SF
force structure.

RECOMMENDATION 3. (Pag
                  (Pagee 18 of Draft)

3. USF
   USF--I RESPONSE
          RESPONSE:: USF-I concurs


RECOMMENDATION 4. (Page 21 of Draft)

       USF~ RESPONSE
4 .a-b USF-I RESPONSE:: USF-I concurs

RECOMMENDATION S.b. (Page 27 of Draft)

5. b.l USF-I RESPONSE:
                RESPONSE : USF-I concurs
                                      concurs.. Even though Key Leader Engagements
( KLE) already cover the importance of planning and budgeting ma      maintenance
                                                                          intenance
requirements. further emphasis is being applied. A recent example is a meeting
requirements,
between Mr. Johns
                Johns,, SES, Director of Strat Log and MG Abdulameer
                                                             Abdulameer,, Deputy Minister of
I nterior
  nterior.. During this KLE
                        KLE,, the two flag officers and several mil
                                                                miliitary advisors discussed
the criticality o f proper planning and budgeting for maintenance and additional areas of
interest such as ammunition storage, warehouse operations and power generation  generation.. MG
Abdulameer seemed very cognizant
                               oognizant of the issue and agreed completely w ith the need
for planning and budgeting. Additionally, emphasis was and is being placed during
KLEs on execution of the budget as actua actuall spending is much less than MOD and Mal  MOl
authorized budgets
              budgets..




                                              120


5. b. 2 USF-I RESPONSE: USF-I concurs and is continuing to conduct KLEs with
emphasiis on developing functional PPBE.
emphas


RECOMMENDATION 6. (Page 31 of Draft)

6.. a. USF-I RESPONSE: USF-I concurs with       ilh the information provided in th thiis report.
USF-I J4 (Forward) in conjunction with STRATLOG and the Ministry of Defense is
USF·I
designing a concept of maintenance sustainment where M1114 High rv10bility Multi­
purpose Wheeled Vehicles (HMMWVs) made available through the U.S. Equipment
Transfer to Iraq ( USETTI) initiative are incorporated as part of a one-for-one
                                                                         one--for-one exchange
capability
capability.. Units assigned to the Ministry of Defense would deliver non-mission
                                                                           non· mission capable
( NMC) M1114s that are beyond third-line repair capabicapability
                                                             lity to the Joint Base Workshop
( JBW)
  J8W) Whee l Depot at Taji.
                           Tajl. These units would be issued fully mission capable (FMC )
M1114s in exchange for these vehicles . In concept the NMC vehicles would be
dropped from unit accountability records and the FMC vehicles would be added to unit
accountability records during the course of th thiis one-to-one exchange. The NMC
M1114s wou ld enter the JBW Wheel depot for fourth-line overhaul as the existing
production
proouction schedule permits
                        permits..
Due to the FY2010 Congressional Notification for USEITI USETTI Section 1234 transfer
authonty approval and expiration on 30 September 2010     2010,, we currenlly
                                                                       urrently have no authority
                                                                                           authonty
to transfer M1114s to the Iraqi Security Forces . This situation currently precludes the
use of USETTI to provide an appropriate number of vehicles to alleviate the 4 1h        th Level
Maiintenance downtime
Ma              dmvntime.. Based on informat ion from the OSD-DSCA, the earliest we can
expect FY2011 authority is upon approval of the FY2011 NDAA in the early part of
2011 . As a result , USF-IITAM STRATLOG ICW USF-I J4 briefed the Iraqi Army
Electrical,, Mechanical and Engineering Director on proposa l to use a small number of
Electrical
M1114s from internal sources as maintenance feeder vehicles or "~Operational
                    program. The Iraqi Ministry of Defense
Readiness Float" program.                             Defense,, Deputy Chief of Staff for
Logistics , is currently staffing and debating the proposal.
                                                     proposal .


6. b. USF-I RESPONSE: USF-I concurs.
6.

RECOMMENDATION 7. (Page 34 of Draft)

     USF~I RESPONSE: USF
7 .. USF-I           USF-I
                         -I concurs and will explore available options to ensure tour
lengths are proper
            proper..

RECOMMENDATION 8. (Page 36 of Draft) USF-I RESPONSE: USF concurs       ooncurs with
these recommendations
        recommendations;; manpower analysis is ongoing to ensure we maintain the right
number and right mix of personnel through each phase of the transition and post
transition.




                                                                                                  2



                                               121


RECOMMENDAT                  Qf Draft)
            ION 9,, (Page 39 of
RECOMMENDATION

g .a USF-I RESPONSE: USF Concurs.
9                                   Concurs. Support of this recommendation is identified in
the USF-I transition plan of programs
                                programs,, projects, activities and tasks currently     being
                                                                               currenUy be ing
conducted by United States Forces -Iraq (USF-I). These specific activities will be
transferred to the U,S,
                     U ,S, Embassy - Baghdad , and the Office of Security Cooperation­
                                                                                   Cooperation ­
Iraq (OSC-I) as the senior military advisor to the US Ambassador.
                                                            Ambassador, The members of the
logistics sect ion will be fully qualified
                                 qualified,, and have the mission to support the continued
development o f Ihethe Iraq Security Forces (ISF) logistical capabili     ties to support the ISF
                                                                 capabil ities
force
for    structure.. Additionally , the
    ce structure                  theyy will coordinate with all U.S. interagency offices to
ensure proper support to U.S. led or involved activities conceming
                                                                concerning building partner
capacity (in all areas supporting the ISF). Specific answersJdata needed are addressed
in OSC-I Supporting Plan on FRAGO 10-01.4 (Stability Ops)(SecreUNOFORN).
                                                                Ops)(SecreUNOFORN) ,

9 .b USF~ RESPONSE: USF-I concurs with the information provided in this report   report.. In
c onjunction with the development of OPORD 11-01 , a working group was established to
define the requirements for oversight of equipment and materiel provided through the
Iraqi Security Forces Fund ( ISFF) United States Equipment Transfer to Iraq (USEDI
                                                                                (USEDI))
should it extend beyond end of mission in December 2011. Due to legislative set    set-backs
                                                                                      -backs
",th the Section 1234 (non-excess) equipment Congressiona
IMth                                             Congressionall Notification (CN) , the
         continues
process cont  inues to be evaluated and refined to ensure de dellays do not adversely impact
minimum essential capability (MEC).
                               (MEC ). In addition , mitigation strategies are currently in
the development stages ; these strategies allow the services to define and assess
courses of action to reduce any negative impacts on the Iraq Security Forces (ISF)
should the equipment not be available for transfer.
                                           transfer.

g .c USF-I RESPONSE: USF-I concurs.   concurs. Support of this recommendation is iden  identified
                                                                                            tified in
the USF-t
     USF-I transition plan of programs
                                  programs., projects, activities and tasks currenUy being
conducted by United States Forces ---Iraq   ~Iraq (USF-I). These specific activ
                                                                           activities
                                                                                ities will be
transferred to the U,S,
                     U,S. Embassy - Baghdad
                                          Baghdad,, and the Office of Security Cooperation­
Iraq (OSC-I)
      OSC- I) as the s enior military advisor to the US Ambassador. The members of the
logistics section will be fully
                            fully,, qualified and have the mission to support the continued
development of the Iraq Security Forces (ISF) logistical capabilities to support the ISF
       structure.. SpeC ific answers/data needed are addressed in OSC-I Supporting Plan
force structure
on FRAGO 10-01.4 (Stability Ops      Ops)(SecretiNOFORN)
                                         )(SecretlNOFORN) ,


RECOMMENDATION 10. (Paoe
                   (Page 44 of Draft)

10. USF~ RESPONSE: Recommend changing United States Forces Command to US
Army Forces Command
            Command.. USF-I concurs

RECOMMENDATION 11 .,a"
                    a .. (Page 49 of Draft)

11 .a USF-I RESPONSE: USF-I concurs ,
11.a




                                                                                                        3



                                                 122


RECOMMENDATION 12.. /Page 53 of Draft)

12 .a·12 .b USF-I RESPONSE: USF-I concurs .

RECOMMENDATION 13.. /Page 56 of Draft)

13.   USF~   RESPONSE: USF-I concurs.

RECOMMENDATION 14.• /page 58 of Draft)

14.   USF~   RESPONSE: USF-I concurs.


RECOMMENDATION 15 •. (page
                     /Page 61 of Draft)

                                                                    information provided in
15 . a . (1) USF-I RESPONSE: USF-I partially concurs with the in/ormation
this report. The U.S. Government (USG) identified existing deficiencies that were
preventing the full commission ing 0/ of the Small Arms Repa ir Facility (SARF). The Joint
Base Workshop (J8W ) conducted a comprehensive assessment of the SARF's existing
faC ility . equipment. and infrastructure at the request of the
fac                                                         Ihe USG
                                                                USG.. This assessment
identified multiple deficiencies requiring corrective action in order to bring the SARF to a
fully functional Level Four (4) maintenance facility by the USG ' s target date of 31
December 2010. The SARF is intended to overhaul , rebuild, modify , Inspect, and repair
a wide range of small anns
                         arms and crew served weapons.

One of the major issues hampering successful completion of the contract has been the
quality of the renovation and construction work under the Army Corps of Engineers
(COE) Phase III contract. Due to delays caused by changing priorities , incomplete COE
infrastructure modifications
                modiflcations and unrealized requirements for installed equipment
                                                                          equipment;;
additional work is needed to bring the facility to initial
                                                   Initial operatlng
                                                           operating capaaty
                                                                     capadty lAW Statement
of Work (SOW) paragraph 9.2.18.
                             9.2 .18.

To that end                          wil l be modified to complete electrical repairs,
          end,, delivery order 0034 will                                      repairs ,
equipment installation and commissioning efforts to bring the SARF up to a fully
functional Level Four Maintenance facility. The contracting officer has determined that
             modificatiions are within the scope of the contract. A full proposal is expected
the SARF modificat
NL
NLTT 13 OCT 10.      ner 1 repairs and training are pro;,ected to be complete by 31 DEC
                 10. Tier
10;; this will establish a foundational capability for the SARF.
10

15.. a. (2) and (3) USF-I RESPONSE: USF-I concurs
15                                             ooncurs with information provided in this
report. All payments related to Customs have been paid by the current contractor
resulting In
           in the delivery of equipment needed to complete Installation
                                                           installation at the Joint Base
Workshop (JBW) .

15 . b . USF-I RESPONSE:
               RESPONSE: USFUSF-I-I concurs with information
                                                 infonmation provided in this report. USF­
I J4 (Forward) in conjunction with Strategic Logistics (Strallog)
                                                       (Stratiog) and Army Materiel



                                                                                            4




                                             123


Command (AMC) and approved by Commander Commander,, Joint Base Workshop
                                                                   Workshop,, have developed
and implemented a train-the-trainer concept for the Wheel Depot. The premise of the
training plan is to build a foundational capability.
                                          capability. Key points include the following : 1)
Train cadre
       cad re of ISF soldiers to develop self
                                          self-sufficiency
                                              -sufficiency as well as a future training
capability.. Mechanics will be trained on M1114
capability                                  M1114,, M923
                                                      M923,, and 20 spedalized
                                                                      specialized shops
(stations)
 stations).. 2 )Training time is based on a five hour day, five days per week , on a two t'l'io
'Neek
week on,
       on , one week off cycle to accommodate ISF requirements. 3) The pace of the
training is geared to the ability of the cadre class
                                                class.. AMC will certify ability/performance
for each station and task and provide written confirmation to JBW leadership. 4) USF-I
J4 ( Forward) will conduct regularly scheduled training inspections to gamer QAlOC   QAJQe
oversight. 5) AMC will develop a similar plan for the Small Arms Repair Facility and for
Depot Production Management Training
                                   Training.. 6) 81ratl09
                                                 8tratl09 will work with Electrical
                                                                          Electrical--Mechanical
Engineering (EME) Directorate in organizing and automating JBW CL IX warehouses on
the lAMP system that will eventually link to Joint Repair Parts Command (JRPC). 7)
Training for the Tra
                  Track
                      ck Depot is dependent on the Gol Gol// lSF desires for future capabi
                                                                                    capability
                                                                                             lity..

RECOMMENDATION 16" (Page
                   tPage 64 of Draft)

16.   USF~   RESPONSE:: USF
             RESPONSE   USF-- I concurs
                                concurs..

RECOMMENDATION 17" (Page
                   tPage 67 of Draft)

17.a and 17
         17.. b USF
                USF··I RESPONSE
                       RESPONSE:: USF·I concurs
                                        concurs..

RECOMMENDATION 18..• (Page
                     tPage 71 of Draft)

18 USF·I RESPONSE
         RESPONSE:: USF-I concurs
                          concurs..

               19 .• (Page
RECOMMENDATION 19"   tPage 77 of Draft)

19.. USF
19   USF-I
         -I RESPONSE: USF-- I concurs - see response to 5.b. above.
            RESPONSE: USF                                    above.

RECOMMENDATION 20
               20"" (Page
                    tPage 82 of Draft)

20.. USF
20   USF·I
         ·I RESPONSE
            RESPONSE:: USF·I concurs
                             concurs..

RECOMMENDATION 21"
               21 .. (Page
                     (page 84 of Draft)

21 . USF
     USF·I
        ·I RESPONSE: USF
                     USF-I
                         -I concurs.

               22".• (Page
RECOMMENDATION 22    tPage 87 of Draft)

22.. USF
22   USF·I
         ·I RESPONSE
            RESPONSE:: USF
                       USF-- I concurs.




                                                                                                  5




                                                 124


                     GENERAL COMMENTS ON THE REPORT

USF- I concurs with the DOD IG recommendations and will continue to work these
issues to a satisfactory resolution.


APPROVED BY:                                       PREPARED BY:
«Original Signed»                                  «Origina l Signed»
                                                   «Original
Brian Cummings                                     Anthony J. Ruzicka
COL, USA                                           LTC, USA
Chief of Staff                                     Deputy, ISF Strat Log




                                                                                 6




                                         125


   Under Secretary of Defense for Acquisition, Technology, and
   Logistics Comments

                         OFFICE OF THE ASSISTANT SECRETARY OF DEFENSE
                                             3!!500 DEFENSE PENTAGON
                                             3500
                                            WASHINGTON , DC 2030 1·3500
                                                                 1-3500




   LOGISTICSANO
   l.OGISTICSANO                                    OCT 1l I 1010
MA,TI!:RI£L RUiOINESS
MATERI£LRUIOINESS




          MEMORANDUM
          MEMORAND UM FOR DEPUTY INSPECTOR GEN ERAL, SPECIAL PLANS AND
                            OPERATIONS,
                            OPERATIONS , DoDIG

         THKOUGH:
         THROUGH: DIRECTOR, ACQUISITION RESOURCES AND ANALYSIS                            'fo\
                                                                                          'fo\1.lll
                                                                                                1.1ll 0

         SUBJECT : Response to DoDIG Draft Report on Assessment of U .S. Governmcnt
                                                                                 Government Efforts 10
                                                                                                    to
                   Develop
                   Develo  p the Logistics Sus tainm ent Capabi lity of the Iraq Security Forces
                   (Repo rt No . D2009-DOOSPO-0286.00)

                As requested, {1 am prov
                                     providing
                                            iding responses to the generaJ conten
                                                                   general contentt and recommendations
         contained in the subject
                           ubj ect report:.
                                   report.

        Recommendation
        Recommen.dation IS.a.!:
        Under SecreUiry of Defense for Acquisition
                                          Acquisition,, T echnology , and Logistics, in coordination with
        the Deputy Commanding General for AdviSing
                                                 Advising and T raining, United State
                                                                                   Statess Forces-Iraq,
        providc deployed assis
        provide                 tance for a minimum of 180 da
                           assistance                           days
                                                                  ys to help deve lop a functional
                                                                             develop
        plaruting, prograrruning   budgeting., and execut
                   prograrrnning,, budgeting       executiio n process within th e Ministry o f Defense
        and to mentor and train appropriate Iraqi Personnel on the use of those pro  processes.
                                                                                         cesses.

        Response:
        Rc:SPOn:se:
        Non-Concur. Althoug h usn   USD (AT&L) doe  doess have a Senior Executive Servi c e member
        working in Iraq with the Deputy Commandin mandingg General for Advising and Training, Un ited
        State s Forces- Iraq , wc
                               we do not agree that thi s become an enduring mission for USD (AT &L)&L),,
        but rather that this requi rement be programmed in the staffing
                              requirement                           taffmg support requ  ests ofUSF-l and
                                                                                     requests
        later migrate to the Offic
                               Officee of Security Cooperation unde
                                                                 underr the Chief of Mission.

                 Pleas<  contact
                   lease con       Mr.. Kevin Doxey at 703-693-
                             tact Mr                      03-693-1685
                                                                 168 5 or bye-mai l at
          kev in.d
           evin .d oxe V@osd
                   oxeY@o      .rnil if addition
                           sd.mil       additionaal information· rc ired.
                                                    information' IC




                                                         126


Appendix E. Iraq/U.S. Policy, United States
Code, United States Forces-Iraq/Advise and
Train Policies
Part I – Policy and Plans
National Defense Authorization Act for Fiscal Year 2008 (Public Law
110-181), January 28, 2008. Section 1228 of the Act sets forth the requirements for
the tracking and monitoring of defense articles provided to the Government of Iraq.

U.S. Government Interagency Counterinsurgency Initiative, “U.S.
Government Counterinsurgency Guide,” January 2009. This document
examines the theory and principles of insurgency and counterinsurgency, the components
of an effective counterinsurgency strategy, and interagency counterinsurgency assessment,
planning and implementation. The DOD and U.S. military forces provide a broad range of
capabilities to support an integrated U.S. counterinsurgency effort. These may include
advising and training foreign military and logistics support.

Secretary of Defense Memorandum, “Utilization of the Total Force,”
January 19, 2007. This document establishes tour length policy for various DOD
military components.

Ministry of Defense Joint Headquarters (JHQ), “DCOS LOG Materiel
Circulation Processes,” October 1, 2009. Chapter 6 describes the mission and
function of the Directorate of Electrical and Mechanical Engineering and the processes and
procedures for maintenance in the Iraqi Armed Services. Chapter 8–Iraqi Logistics
Operations Center (ILOC) (DRAFT). The ILOC serves as a Strategic Level Logistics
Operations Center for the collection and distribution of logistics information from the Iraqi
Ground Forces Command, Iraqi Air Force, Iraqi Naval Command and relevant Operational
Centers, and provides viable analysis to the JHQ in order to assist the decision-making
process.

Federal Police Sustainment Brigade Standard Operating Procedures,
January 2010. The purpose of this Iraqi document prescribes common procedures,
forms, and standards for the logistics management processes of the Federal Police
Sustainment Brigade (FPSB).

Part II – United States Code and Hearings
Public Laws. Congress appropriated $18.2 billion to the Iraq Security Forces Fund and
$25.5 billion to the Afghanistan Security Forces Fund in Public Laws 109-13, 109-234,
109-289, 110-28, 110-161, 110-252, 111-32, 111-118. These Public Laws defined the
“train and equip” mission performed in Iraq and Afghanistan. The laws specify that the
funds be used in support of the security forces of Iraq and Afghanistan.


                                            107

Title 10 USC 168, (10 U.S.C. 168), amended on February 10, 1996. The
Secretary of Defense may conduct military-to-military contacts and comparable activities
designed to encourage a democratic orientation of the military forces of other countries. To
carry out the program, Title 10 states that funds appropriated and made available for
carrying out the authorized activities may be used for, among other things, U.S. activities
and expenses for military liaisons and traveling contact teams as well as for seminars and
conferences held in the theater of operations.

22 U.S.C. § 2403: U.S. Code--Section 2403: Definitions. Defines "Defense
article" in subsection (d) (3) to include, among other things:
                Any machinery, facility, tool, materiel supply, or other item
                necessary for the manufacture, production, processing repair,
                servicing, storage, construction, transportation, operation, or use
                of any article listed in this subsection.



Part III – DOD Policies
Department of Defense Directive 1404.10, “DOD Civilian Expeditionary
Workforce,” January 23, 2009. This document establishes the policy through which
an appropriately sized subset of the DOD civilian workforce is pre-identified to be
organized, trained, and equipped in a manner that facilitates the use of their capabilities for
operational requirements. These requirements are typically away from the normal work
locations of DOD civilians, or in situations where other civilians may be evacuated to
assist military forces where the use of DOD civilians is appropriate.

DOD Directive 1322.18, “Military Training”. September 3, 2004. This
directive states that:

                Members of the Department of Defense shall receive, to the maximum
                extent possible, timely and effective individual, collective, unit, and staff
                training necessary to perform to standard during operations…

                The DOD Components shall ensure their individuals and organizations
                are trained to meet the specific operational requirements of the supported
                Combatant Commanders, as identified in Combatant Commander-
                approved Joint Mission Essential Task Lists (JMETLs), before deploying
                for operations and while deployed.

DOD Directive 5132.13, “Staffing of Security Cooperation
Organizations (SCOs) and the Selection and Training of Security
Cooperation Personnel,” January 9, 2009. This directive establishes procedures
and assigns responsibilities for the selection and training of personnel to serve in security
cooperation/assistance positions.




                                                    108

DOD Directive 1322.18, “Military Training,” January 13, 2009. This
directive states that:
                Members of the Department of Defense shall receive, to the maximum
                extent possible, timely and effective individual, collective, unit, and staff
                training necessary to perform to standard during operations…

                The Heads of the DOD Components shall Ensure, through commanders
                and managers at all levels within their Components, that the personnel
                and organizations under their cognizance are qualified to perform their
                Mission Essential Tasks (METs) to established competency and
                proficiency standards.

DOD Directive 2010.9, “Acquisition and Cross-Servicing Agreements,”
April 28, 2003. The directive updates policy for the acquisition from and transfer to
authorized foreign governments logistics support, supplies, and services.

DOD Instruction 3000.05, “Stability Operations,” September 16, 2009.
This Instruction provides guidance on stability operations. This guidance will evolve over
time as joint operating concepts, mission sets, and lessons learned aid in further
development of DOD policy and assignment of responsibility for the identification and
development of DOD capabilities to support stability operations.

DOD Instruction 4140.66, “Registration and Monitoring of Defense
Articles,” October 15, 2009. This document establishes policy, assigns
responsibility, and sets forth procedures in accordance with section 1228 of Public Law
110-181 to certify the establishment of a registration and monitoring system for controlling
the export and/or transfer of defense articles to specified countries and/or to other groups,
organizations, citizens, or residents of those countries.

DOD Instruction 5000.64 “Accountability and Management of DOD-
Owned Equipment and Other Accountable Property,” November 2,
2006. This DOD instruction states that:
    •	 Provides policy and procedures for DOD-owned equipment and other accountable
       property and establishes policy and procedures to comply with Section 524, Titel
       40, U.S.C.
    •	 Requires that accountable property records shall be established for all property
       purchased, or otherwise obtained, that are sensitive as defined in DOD 4100.39-M,
       “Federal Logistics Information System,” Volume 10, Table 61, November 2007.

DOD Instruction 5010.40, “Managers’ Internal Control Program
Procedures,” January 4, 2006. This DOD instruction states that management
internal control procedures are basic to U.S. Government accountability and are specified
in this instruction. It also identifies operational and administrative controls for Security
Assistance Management of Foreign Military Sales.




                                                    109

DOD 5105.38-M, “Security Assistance Management Manual,” October
3, 2003. This manual provides guidance for the administration and implementation of
Security Assistance 6 and related activities in compliance with the Foreign Assistance Act,
the Arms Export Control Act, and related statutes and directives. It states that:

                 [T]itles to FMS materiel normally transfers from the USG [U.S.
                 Government] to the purchaser immediately upon its release from a DOD
                 supply activity 7 (point of origin). However, USG security responsibility
                 does not cease until the recipient Government’s or international
                 organization’s Designated Government Representative (DRG) assumes
                 final control of the consignment.

                 [T]he maximum processing time between Implementing Agency receipt
                 of the Letter of Request and release of the Letter of Offer and Acceptance
                 should normally be no more than 120 days, with no adjustments for hold
                 times, additional work needed to clarify requirements, or any other
                 consideration. Although delays may occur while processing some LOAs
                 [Letter of Offer and Acceptance], Implementing Agencies should process
                 at least 80 percent of their total number of LOAs within 120 days.

DOD 6055.09-STD, “DOD Ammunition and Explosives Safety
Standards,” February 29, 2008. DOD Explosive Safety Standards state that white
phosphorous has a compatibility code of H and is incompatible for storage with other
munitions, with the exception of compatibility code S associated with small arms ammunition.

Joint Publication 3-07.1, “Joint Tactics, Techniques and Procedures
for Foreign Internal Defense (FID),” April 2004. This publication establishes
joint tactics, techniques, and procedures for the armed Forces of the United States involved
in or supporting foreign internal defense operations. It discusses how joint operations,
involving the application of all instruments of national power, support host nation efforts
to combat subversion, lawlessness, and insurgency.

Chairman of the Joint Chiefs of Staff Instruction 1301.01, “Individual
Augmentation Procedures,” January 1, 2004. This instruction provides
guidance for assigning individual augmentation, to meet the combatant commanders’ and
other government agencies temporary duty requirements supporting the President of the
United States or the Secretary of Defense directed or approved operations.

Chairman of the Joint Chiefs of Staff Instruction 2120.01A,
“Acquisition and Cross-Servicing Agreements,” November 27, 2006.
This instruction provides policy and procedural guidance concerning the use of the legal
ACSA authorities contained in Sections 2341-2350 of title 10, United States Code. This
guidance is directed to the combatant commands (including USCENTCOM) and Defense


6
  Security Assistance is defined in Appendix C.

7
  DOD 5105.38-M states a supply activity can be either a DOD storage depot or a commercial vendor that

furnishes materiel under a DOD-administered contract.



                                                   110

agencies reporting to the Secretary of Defense through the Chairman of the Joint Chiefs of
Staff. It also summarizes the responsibilities of the Office of the Secretary of Defense, and
the Military Departments.

Chairman of the Joint Chiefs of Staff Manual 3122.01A, “Joint
Operation Planning and Execution System (JOPES) Volume I,
(Planning Policies and Procedures),” September 29, 2006. This manual
sets forth planning policies, processes, and procedures to govern the joint operation
planning and execution activities and performance of the Armed Forces of the United
States. It provides military guidance for the exercise of authority by combatant
commander(s) and other joint force commanders in development of selected tactics,
techniques, and procedures for joint operations and training. It provides military guidance
for use by the Armed Forces in preparing their appropriate plans. Enclosure (R) of the
manual describes the responsibilities and procedures for completing a Request for Forces
or Request for Capabilities message.

Army Field Manual 3-07, “Stability Operations,” October 2008. This
manual is the Army’s keystone doctrinal publication for stability operations. It presents
the overarching doctrinal guidance and direction for conducting stability operations, setting
the foundation for developing other fundamentals and tactics, techniques, and procedures
detailed in subordinate field manuals.

Army Field Manual 3-07.1, “Security Force Assistance,” May 2009. This
manual is the Army’s doctrinal publication for security force assistance. It provides
doctrinal guidance and direction for how U.S. forces contribute to security force assistance,
focusing on brigade combat teams conducting security force assistance and advising
foreign security forces.
U.S. Counterinsurgency (FM 3-24), December 2006/Marine Corps
Warfighting Publication (MCWP) No. 3-33.5, “Counterinsurgency,”
December, 15, 2006. This document establishes doctrine (fundamental principles) for
military operations in a counterinsurgency (COIN) environment.

Technical Manual 9-1300-250, “Ammunition Maintenance,” 25
September 1969. This manual provides general information and guidance for the
maintenance of conventional ammunition, to include its demilitarization.

USCENTCOM Request for Forces Serial 1018 (Classified). This document
requests forces to support mentoring and partnering of Government of Iraq ministries.

USFORSCOM Message: Subject/2008 Revised Transition Team
Training Guidance, March 2008. This message provides updated training
guidance for transition teams deploying in support of operations in Southwest Asia. This
document replaces IAG training guidance DTG 182148Z Jan 07 and aligns previous
guidance for transition teams deploying to Southwest Asia with FORSCOM training


                                             111

guidance for follow on forces deploying in support of operations in Southwest Asia. This
message directs that all transition team personnel are to conduct pre-deployment training in
accordance with this message.

USFORSCOM Message: Subject/Specified Training Requirements for
Advisory Teams and In Lieu of (ILO) Elements, January 2010. This
message describes modifications to task organization and training for deploying brigades
providing advisory teams, transition teams (TT), and provincial reconstruction teams
(PRT) resulting from the recent shift in emphasis on the security force assistance mission
in Iraq and Afghanistan.

USFORSCOM Message: Subject/FORSCOM Predeployment Training
Guidance for Follow-On Forces Deploying in Support of Southwest
Asia (SWA), May 2010. This message provides a stand-alone document which does
not require referencing prior messages and incorporates requirements and procedures
identified in Headquarters, Department of the Army Execution Order 150-08, Subject:
“Reserve Component Deployment Expeditionary Force Pre and Post-Mobilization
Training Strategy.” It is used to guide development of the unified and collaborative reserve
component pre-deployment training plans.

Center for Army Lessons Learned Handbook 10-08, “Partnership:
Development of Logistics Capabilities,” November 2009. This handbook
was developed by former Multi-National Corps-Iraq and the former Iraq Assistance Group
logistics staffs to present partnering considerations in developing a fundamental base for a
self-sustaining host nation security force.

Joint Center for International Security Force Assistance, “How the
Iraqi Army Operates (Edition 3),” September 2009. This document provides
U.S. military transition teams and units partnered with Iraqi forces a baseline reference to
processes and procedures integral to the Iraqi Army. It attempts to connect “theory” to
“practice” by providing a means by which transition teams and partner units can
differentiate between how things are supposed to be done and how they are being done.
The book does not address procedures internal to the transition teams, partner units, and
their chains of command.

American Embassy–Baghdad and Multi-National Force–Iraq, 2010
Joint Campaign Plan, November 23, 2009. Appendix 1 to Annex J, ISF
Logistics–Transition to Self-Sustaining Capability contains the logistics concept,
conditions, and objectives of the Security Line of Operation and directs tasks that must be
accomplished for the ISF to become self sustaining. As the Line of Operations contributor,
USF-I J4 is responsible for ensuring that these tasks remain relevant as conditions change.




                                             112

U.S. Forces–Iraq Fragmentary Order 10-01.3 to U.S. Forces–Iraq
OPORD 10-01, Transition to Stability Operations (U). This is a classified
document.
Advise and Train Joint Manning Document. This document authorizes the
unfunded temporary duty positions for A&T while in support of Operation Iraqi Freedom.
United States Forces-Iraq, (Advise and Train), Minimum Essential
Capabilities Assessment, April 2010. This document contains the DCG A&T’s
assessment of current and projected status of certain minimum essential capabilities for the
ISF.

MNSTC-I FRAGO 09-047, [Formation of Iraqi Security Forces Strategic
Logistics Directorate (ISF STRAT LOG)], DTG 281800C SEP 09. This
FRAGO established the ISF Strategic Logistics Directorate as the single unifying strategic
logistics organization reporting directly to the MNSTC-I Commanding General (now DCG
A&T).

ITAM-Logistics, “Ministry of Interior Advisor Logistics Handbook (2010
Edition),” November 23, 2009. This document provides a “How To” guide in the
areas of supply, maintenance, and fuel for the MoI.




                                            113

Appendix F. Memorandum for Under
Secretary of Defense (Policy) .

                                               INSPECTOR GENERA
                                                         GENERALL
                                            DEPARTMENT
                                              EPART MENT OF DE
                                                 ARTMENT      DEF E
                                                                  ENSE
                                                                 FEN SE
                                               400 ARM
                                                   ARMYY NAVY DRIVE
                                          ARLINGTO N, VIRGIN
                                          ARLINGTON.  VIRGINIIA 22202-
                                                                22202-47
                                                                       4704
                                                                       47 04


                                                                                                            July
                                                                                                            Ju ly 15, 2010

  MEMORANDUM FOR Unnder
                    dder
                      er Secretary of
                                   of Defc
                                      Defe
                                       efennse
                                            se ( Poli
                                                 Policy)
                                                      cy)

  SUBJECT: FY
  SUBJECT: FY 20 10
                 I 0 and FY
                         FY 20 1I 1I Budg
                                     Budget
                                     Bud get
                                          et Requests for tbe
                                                          the Iraq Security
                                                                   Security Fo
                                                                            Forc
                                                                               rces
                                                                               rc es Fu
                                                                                     Fund
                                                                                        nd

   The recently complecompletted fiel dwo
                      completed        d workrk o0 0n the "As
                                                           "Assessme
                                                                  sessmentnt ofU,S.
                                                                              of U.S. Governmen
                                                                                         Governmentt Effo  Efforts
                                                                                                           Effonsrts to
   Develop the Lo    Logist
                        gistiics Sustainme
                        gist     Sustainment
                                   ustainmenn t Capab
                                                  Capabili  ility
                                                            ili ty of
                                                                   ofthc
                                                                       the Ir
                                                                           Iraq
                                                                              aq Security
                                                                                  Sceurity Forees"
                                                                                              Forces" (project
                                                                                                         ( pro
                                                                                                           Projj ec
                                                                                                                 ectt No.
                                                                                                                        o.
  DD2 2009-DOOOSPO-0
        009-DOOOSPO-02286.0   286.000)
                                     00) revealed a time-sensitive
                                                         time-se nsitive issue regarding
                                                                                      regarr d in
                                                                                      rega     ingg fin
                                                                                                    fimancial
                                                                                                        ancial
                                                                                                        mcial resou
                                                                                                                 resourrce
   support
   sup
   suppoport rt requ
                requeste
                requceste
                      stedd by our
                                o ur milit
                                     military
                                           ary eommlmd
                                                cOnmllmd
                                                cOnmll    md in IraqIraq (USF-
                                                                         (USI'-II). This me
                                                                         (USI'-               memoran
                                                                                                   morandu du m pro
                                                                                                                  provivide
                                                                                                                         dess
                                                                                                                         de
   inf
   infonnati
   infonn
       onnation
              ation
                 on for management co    connsideration and poten    potentia
                                                                           tiall ac
                                                                                 action.
                                                                                    tion.
                                                                                    ti on. Management
                                                                                           Manage
                                                                                              anagem  ment comments
  1t0o thi
       this
       th iss memor
                 emorandum
                 emo ran
                      andum
                         dum are op optio
                                       tional.
                                           nal.

  On Febnmry
      February 19,
                19,2010,
                    2010,, th
                    2010   thee DOD Office
                                    O ffice
                                       ffic e of In
                                                  Inspector
                                                    sp ect    Generall ((OIG
                                                       ectoor Genera     ~IG
                                                                         ~IG)) an
                                                                               annnoun
                                                                                   ouncc ed aun
                                                                                   ounced
  assessment missi
               mission
                    on wh
                       which
                       whiich was c onducte
                                    ondduc
                                    on   uctt edd by its Offic
                                                         Offieee of Specia
                                                         Office     Speciall Pl
                                                                             Plans
                                                                                ans a nd Operations to
  determi
  deter
  determmiine whether:

      •    The pJa.ming
                 pla
                 planning
                     lming and opcrational
                                operational implemen
                                             impleme nt ation of effot1
                                                                 effortss by U .S. forces 10
                                                                 effot1s                   to train,
                                                                                              \ruin,
           advise, and equip lite                         (lSF) in ititss developmen
                                the Iraq Security Forces (ISF)            developmen
                                                                           evelopmentt of an enduring
                                                                                             enduring
           logi
           logisstic
             gi  ticss sustain
                       sustainmment capability
                                    capability w
                                               were
                                                 ere effective
                                                     effective.
                                                     cffective .

      •    Plans, training, preparations, alind  nd designated mi missions
                                                                      ssions of U.
                                                                                 U.S.
                                                                                   S. Forces.Iraq
                                                                                      Forces-Iraq (USF-
                                                                                                    (USF·O
                                                                                                    (USP-  O
                                                                                                           I)
           Advise an  andd Train
                           Train forces, U.S.
                                            U.S. advisory a ndud ass
                                                                 assistance
                                                                     ist
                                                                      staance brigades
                                                                              brig
                                                                              brigades,
                                                                                  ades,, and sustain
                                                                                             sustainment
                                                                                                      ment
           brigad
           brigade
           brig adesess assigned
                        assign
                         ssigned
                               ed to train, adv
                                             advise,
                                                 ise, an
                                                      andd assist in
                                                                  illlh
                                                                     thec develop
                                                                          development
                                                                          de velopmment of an enduring
                                                                                               endur
                                                                                               en duriing
           iSF
           ISF logistics    sllstailUIlcnt capa
                log istics sllstaimnent
                            sllstainment    capabili
                                            capability
                                                 bility
                                                     ty wer
                                                         were
                                                          cree sync
                                                               synchro
                                                                    hronnized
                                                                    hro  nized with in-coun
                                                                                      n·coun try
                                                                                             try pl
                                                                                                 plans,
                                                                                                    ans,,
                                                                                                    ans
           opera
           op eratt ional assu
                            ssllmp
                            ssump
                                mpttiions,
                                    ti ons, and needs.
                                                  eedds.
                                                  ee

  The OIG assessment
               assessmen t team
                             tea m engage
                                      cngagedd in in ex
                                                     extt ensive data anaanallysis prior to depanure
                                                                                                  depaT1u
                                                                                                      parturere an
                                                                                                                andd,
  while deplo
           cployyed in Ir Iraq
                            aq,, interviewed
                            aq   intervie
                                 inte  rviewed
                                           wed sen senior
                                                       ior an
                                                           andd mi
                                                                 mid-level
                                                                 mid·level
                                                                     d-level U  u.S.
                                                                                  ..S.
                                                                                    S. milit
                                                                                        mil itar
                                                                                              a ry
                                                                                                 y com
                                                                                                   commanders
                                                                                                          manders an   andd
  staff, Slate
         Sta
         Statete Depat1ment
                 Department officers,
                                 officerrs, embe
                                 office      embbe dd
                                             em      dded
                                                        ed U.S.. trai neers/
                                                                           rs/
                                                                           rs/aadvisory
                                                                               adv
                                                                                dvisory
                                                                                     isory personnel
                                                                                            personnel
                                                                                              ersonncl and and thetheir
                                                                                                                      ir
  ir
  Irauqi eo
         counlcrpllrts
         co unl
            unterpnrts,
                erparts,, officia
                           officialls in the
                                           he Ministr
                                               Ministriies of Defen
                                                                  Defense
                                                                  Defe  nsse (MoD)
                                                                               MoD ) and  and Inte
                                                                                               Interior
                                                                                                     rioor (MoO,
                                                                                                     ri    (M
                                                                                                            MooO, as liS
  well as Ihthee lraqi
            th   lraq
                 Iraqii Joint
                        Joint Headquarter
                               Hea
                                 eadqu
                                     dquar
                                         artcrs
                                            terss senior milit
                                                           military
                                                                  ary staff
                                                                      sta tT.. In
                                                                                In addition, th   thee team
                                                                                                        te81Il ai
                                                                                                               also
                                                                                                               al so
  visited U.S.
  visited  U .S. logistics t rai
                              rainets/me
                              raincrs/men
                                  ners/mento nto
                                              torsrs and
                                                     an d their
                                                            hei
                                                            beirr Iraqi eo
                                                                        couunterpa,1s
                                                                        co    nterpm1s at   at thec Bag
                                                                                                     Baghh dad PoliPolicece
  Col
  College,
     ollege,
       lege, MoD an   andd Mol logist
                                  ogistiics depotsih
                                             depotsih
                                               cpotsihuu bs, U  u .S. and
                                                                      and lrnqi
                                                                            Iraqi ArmyArmy divdiviisions alinnd
  brigades,
  br igades, Iraq
               Iraqii Federal anfindd Bo
                                       Border
                                          rder Police
                                                 Police
                                                   olicc foorces
                                                             rces and
                                                                   and the
                                                                        the
                                                                         beiir U.S  .S.. ad
                                                                                         advisors.
                                                                                            visors.
                                                                                            visors.




                                                             115


Background:
Bnckgrollnd:

A sustainable l SI?I" operational capa bility, including an ec nduring log    istical sus
                                                                           logistical susttainment
ca pab ilityy is a key U.S. objective in Ira
    abilit                                   q tha
                                           raq thatt supports the U,S.    forccs' end
                                                                      .S. forces' cnd of mission in
         ber2011.
Dece m ber     2011. To achicve
                          chieve Ith is campa ign o bj ective thc
                                                               the DO D req ues ted $3 billion for
                             Supplcmenl1tl an d FY 20
    ISFF in the FY 20 I 0 Supplemental
the T                                                  201II1 bu dge t request.
                                                                        equest .

             logiisticol sys tem is insufficiently developed by U.s.
If th e ISF log                                                                              mission,
                                                                       U.S. forces' end of missio   n,
ISF operational ca   cappability to provide interna
                                             internall an d exte rn al sec urit y will be negativ
                                                                                          negatively
                                                                                                  ely
impactedd. In addition, IS
impacte                      ISFF capacity t o sustai nably mainta    in the opcrating
                                                                 aintain      operating co ndition of
ISF equipment
      equipmentond            structure prev iously fina nc ed by ISrF
                    and infrastnteture                                ISFF or tha It has rccently
                                                                                         recently been
p urchased using ISH
purchased             SFF funding could bce significantly impaired, lead in g to ll ntim ely
degrada tition
            on of an exextensive
                          tensive inves tm ent in U .S
                                        tment         S..•· supplied ma ter iel.
                                                                         eriel.

Di sc ussion:
Disc

Building ththec capability of th e ISF to mamaiint ain the inte
                                                              intcm   al scc
                                                                   rnal   secuuririlty of Iraq a nd provi de a
foundational
foun            cXlc
      dational ex    mal d efensive
                   ternal    efcnsive capllbility is the pr iority goal of USF"      USF·]I "t rain an d equ ip
                                                                                                             ip""
effons. Th is requires de
efforts.                    develo pment
                               velopm ent ofa
                                           ofll via
                                                 viabble Iraqi MoD a nd Mo l logistics system              thatt
                                                                                                    systcm tha
                 sllsttHain the sup port req
can att ain and sus                          ui red to mainta
                                         requi            llinta in lISFI" ope ra liotio nal rc
                                                                                             re adi ness .
A lth ough progress has been ma       de in thi s respect
                                   made            espect,, there arearc s till sign i ficant challenges
                                                                                                 challcnges
remaining. Wi th the TSFF  ISFF resources re queste
                                               questedd, in Ihethe mon
                                                                    month  thss rem aining before U.S.,
forces de  part Ir aq , USF-I
        depart          USF·I inte nd s to tac kl e key ISF logistics sys te      tcm m shortco min gs on an
e xpedited basis. But, it will need the ISH fu nd     ndiing
                                                           ng requested to accomp  accomplili sh thi s mission.

T he U.S. government has so fa r p rimari ly inves      investcdted in basic training, eq ui pmcn pmentt, an
                                                                                                           lindd
supplies necessary t o ge nerate Ira       raqq army combat units and s tand .- up Ira qi police forces.
However, USF USF·J    -J trai nin g, advisi ng, and eq u ipping prior  rio rit
                                                                            ityy emp
                                                                                 emphasis
                                                                                      hasis has now shifted to
bu ildi ng essent ia l co
   ilding                 comm bat enablers, includi ng ISF logistica l eapHbilitycapability . The ISPF
                                                                                                     ISFF funding
req ues te d will be in vested in those still un dcl··    Cl"-ddeve loped T
                                                                eveloped      IS F logis tic
                                                                                         ticss an d other enabling
force ca pabili tie tiess neccssary
                          necessary to enable
                                          cnable and sustain
                                                       sllstain fu turturee Iraqi sec  urity fo rce
                                                                                    security     rcc op erat ion s. In
                                                                                                              ions.
addition, USF·
            USF·II plans to facilitate tmining training t hec IS
                                                               ISFF needs in order to be able to acco   Ilccouu nt
for,
for, co  ntrol,l, a nd ma int
     contro                     ain equipment
                            intain   equipmcnt the U .S. has alre  al rea dy fu nd ed and provided, and
materiel still in t hc  he U.S. su pp pply
                                        ly pipeline, as we           defc nse mater iel the 001 w ill
                                                           wellll as defe
purchase itself.

Cri t ical Log istics Sho rt fa ll s

       Govemmcnt o f Ir
The Oovenunent                aq, w ith DO
                            Iraq,         DODD a nd USF·1
                                                    USF·l ass istance, will need to  10 rapidly build an
effcetive ISF lo
effective           gis t ics sustain
                  logis        sustainm ment capability if the IS F expe
                                                                    expecc ts to have and suppor t a
rela ti vely modern andlind e ff  ectii ve
                                Oect    vc Army and Pol ice. Iraqi governme
                                                                    governmcnt   nt fi scal SUpp0l1
                                                                                            sUpp0l1 for
bu
builildin
      dingg this logistics capa bili
                                   bilityty has been gene rally insufficie
                                                                insufficiennt. 'Ibis
                                                                               lbis ca n be attributed, in


                                                          2




                                                         116


part, to IIa seeming lac
pari,                  ackk of Go
                               GoTTaw
                                    awareness
                                         areness ofof th
                                                      thee im
                                                           importance
                                                              portance of logogiistics sus
                                                                                        susttainment.
Moreover,, the MoD and Mol have not ye
Moreover                                       yett adeq
                                                     adequuately ma
                                                                  maturtured        respecttiive plalUling..
                                                                          ed their respec        plfllUling,
programming, budgeting, and execution processes. Conseque       Consequenntly, they have no    nott
demonstrated
demonstrate                      effectt ively p re
                d the ability to effec              sent an
                                                 resent  andd just
                                                              justiifY
                                                                     y their fund
                                                                             fundiningg req
                                                                                        requuests.

Among th
      thee ou
           outtsta
               stand
                   nding
                     ing M oD logistics weakne sses USF-J p lans to add ress arc:
                                        weaknesses

    •    Insufficient pl anning, programming, budgeting, and execution capac
                      planning,                                        capacity
                                                                             ity to usc
                                                                                    use
         Gove rnm
         Govern  ment ofIra
                       ofIraqq provided funding,

    •    Inadeq uate ability to establish repair parts an
         Inadequ                                       andd main
                                                            maintt ena
                                                                   enance
                                                                       nce requirements for
         tran
         tra                    vehicles and to procure/contra
             nsport and combat vchiclcs          procure/contractct for th
                                                                         them,
                                                                           em, and
                                                                               Ilnd

     •   Ine ffectiti ve supply syste
         Ineffec                systemm processes a nd procedures to adequately s uppupport
                                                                                        ort the
         operationall needs of the
         operationa               tile respective Ira
                                                  Iraqi
                                                      qi milita
                                                         military
                                                                ry and police services.
                                                                              services.

Although Mol logistics system capa
                                capaci
                                     city
                                        ty is considered somewhat mo
                                                                  morere effective th
                                                                                   than
                                                                                      an that
                                                        Fot example
of MoD, Mol still has areas of sign ificant weakness. For   example::

     •   Inadequat
          nadequatee senior a nd mid-gra
                                 mid-gradde logistics managemCtlt
                                                      management s kill
                                                                   kills,
                                                                        s,

     •   Insufficiently trained me
                                mechanics,
                                   chanics, investigato
                                            investigatorrs, and counter-explosives
                                                                coun ter-explosives te
                                                                                    teaa ms,

     •   Under developed s upply chain
                                 ehain processes and proc
                                                     procedures
                                                          edures,, and

     •   In ability to procure
         Inability           e suffici ent re paair parts.
                                ufficient

I n th
    thee months remai
                    remainning, sen
                                 senio
                                    iorr U.
                                         U.S.
                                            S. ad
                                               advisors
                                                  visors to Mol, MoD, and to thc     the milita
                                                                                         military ry Jo
                                                                                                     Joint
                                                                                                         int
H eadqua rterters
               l's in
                   inte
                      tend
                        nd 10 intensively conce
                                            concentnt rate on ass
                                                              assiisting th
                                                                          thee IS
                                                                                ISF
                                                                                  F to b uil
                                                                                         uildd its ca
                                                                                                    cappac
                                                                                                         aciity to
determi
  ctermin ne spare parts require
                             requirem
                                    ments, develo
                                             developp and execute
                                                             CX(:cutc logistics rdate
                                                                                    elatedd co
                                                                                             cont
                                                                                                ntracts,
                                                                                                   racts,
ensure necessary vehicu            mainnt cnance,
                        vehicullar mai             andd perfOnll other pr
                                          enance, an                       primary
                                                                              imary lologis  icss fu
                                                                                        gisttic   func
                                                                                                     nctions.
                                                                                                        tions.
At prescn
     prescntt, thc
               the MoD, Mol, and the Army   AnDY and poli     ce units th
                                                          police        they
                                                                           ey support, do no  nott have a
suppl
sup  plyy syst
          system
               cm capab
                     capablle of maintain
                                 maintaininingg operational rea
                                                              readin
                                                                 diness
                                                                      ess of
                                                                           ofthc
                                                                               the ISF.

 IS FF Programming Supportin
                   Supportingg Development of
                                           ofatl
                                              all lSF Logistics Capa
                                                                Capabili
                                                                     bility
                                                                         ty

IrSFF 6 and 7 program jus
                      justiti fications inc
                                         incllude fun
                                                  funding     ad dre
                                                      ding to add    s.~ some of
                                                                  ress        oflhe
                                                                                 the cri
                                                                                     critt iea
                                                                                           icalI
weaknesses note
            notedd above.
                   above. Nota
                            Notabl blee among ththem
                                                  em arc:

    •    De
         Developing
            veloping MoD resource manag managec me nt,, budgeting, procurement and acquisition
                                                ment                               acquisition,,
         contracting
         contracting,, and log
                           logiistics support syste
                                              systemms,



                                                        3




                                                      117


    •   Tmplemenli
        Tmplcmcnli ng aII national
                           ational alltomate
                                    automate d main ten
                                                     enaan ce program (Imqi
                                                                      (Iraqi Asset
        Management Pr og ogrra m) to
                                  10 manage am mu nitiition
                                                         on and supply depo ts,

    •   Comple t ing a National Tracked Maintenance Depot ali nd a National
                                                                   National Eng ineering
                                                                                 ncering
        Maintenance Depot for the MoD,

    •                               Management
        Establishing a Supply Chain Manage ment Syste m for th e Mol a nd all br
                                                                              braanches of
        the Iraqi po
                  polilice,
                        ce, and

    •   Fixed and rotary wing sus
                              susttainment support .

With the lSF    fun ds requested in FY 20
          ISFFF fimds                       I 0 and FY 20
                                         2010               II, USF~
                                                         2011,  USF~II pla ns to concentrate
                                                                                     concentratt: its
advisory focus on training and equipment necessary to establis
                                                             establishh the basic ISF logistics
                  addi
capability . The ad  di tiona l [rSFF monies also w ill be use d by US F·~ II t o p reve
                                                                                    revennt
degradation of
             of equipment pr eviously s upplied , or to be s upplied, us usiing ISFr
                                                                                   SFF resources.
                                                                                         resourccs.

Co nclusion
Conclusion

The USG, an d therefor
                  thereforee USF-
                             USF· I, has limited influe nce over the plamling
                                                                            plawling and programming
decisions made by the sovereign Government of Ira           traqq with respect to MoD and Mol
full di ng.. The transitiona l st atu
funding                           atuss of
                                        of th e Iraq
                                                Iraqii gove rnm ent a nd uncerta in ty as to whe
                                                                                             whenn th e
next
ne xt government will eve evenn have aI1 n ann ual bud udge
                                                         gett i n place
                                                                  plHee furthe
                                                                        furtherr compounds Irnqi
                                                                                              l1qi
bu dgeting uncertai
budgeting     uncertainnty, an
                            andd the re fo
                                        fore
                                           re, tha
                                               thatt of MoD a nd Mol funding.

On the
    tbe other
         othcr hand, ISFF reso urces can be targeted to address specific, cr itically necessary
ISF training
     trai ning and equ ipping needs, and th ey could be providcd
                   equipping                                provided 10 decisively advance
de velopment ofkcy
development     of key IS F logistiics sustain men
                            logist              entt functions , wh ile U.S. forccs
                                                                                  forces a rec in position
to do so       USF-I expects 10
       so.. If USF·l          (0 achieve its priority o bj ect ive of de velop
                                                                      deve  lop ing an en endd uring lSI'
                                                                                                      lSF
logis
 ogistic al sustainment capacity by U.S. forces' end of miss
      tical                                                         ion, it wiillll need to
                                                             mission,
expeditious ly receive and apply th e ISF SFFF supp0l1 it has requested
                                                                 requesled..

We appreciate the courtesies a nd co    opera t ion of DOD perso nn el du ring the cond uct of
                                     coopera
thi s assessment. The te
this                     teaa m would be pleased to discuss this observ atio
                                                                           ationn and prelimi
                                                                                       prel imi nary
r econu nendation w ith you at yo ur convenie
  econunendation                      convenience.nce. The project tcam
                                                                     team leade
                                                                           leaderr is Spec
                                                                                      Speciaiall Pl ans
                                                                                                 PIHIlS
and Opera tio
            tionns Division Chief, Stanley E . Meyer,                  reachedd at: 703·6
                                                 Mcyer, who can be reache                  04.- 9 130,
                                                                                        -604
         664-9 130,, Slanley.Mever@dodig.m
DSN: 664-9130        Stanlcy.Meycr@dodig.miilo    l o r Stanl e y.Mcyer@dodig.smi1.mil.
                                                                  Meyer@dodig.smi1.mil.



                                             .-:>
                                                  ~/'
                                                    s.
                                                   as.
                                                       ~~~       ~L.J::L
                                                         Kenneth. P. Moorefield
                                                       r Kenneth
                                                    Dcrm)
                                                    DepUI} Inspector Genc
                                                                      Gene ral
                                                    for SpeCIal
                                                        SpeclHI Plans and Operations



                                                    4




                                                    118

· , ..
